<html>
<title> - H.R. 1373, ``GRAND CANYON CENTENNIAL PROTECTION ACT'' AND H.R. 2181, ``CHACO CULTURAL HERITAGE AREA PROTECTION ACT OF 2019''</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]





 
 H.R. 1373, ``GRAND CANYON CENTENNIAL PROTECTION ACT'' AND H.R. 2181, 
        ``CHACO CULTURAL HERITAGE AREA PROTECTION ACT OF 2019''

=======================================================================

                          LEGISLATIVE HEARING

                               before the

       SUBCOMMITTEE ON NATIONAL PARKS, FORESTS, AND PUBLIC LANDS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                        Wednesday, June 5, 2019

                               __________

                           Serial No. 116-19

                               __________

       Printed for the use of the Committee on Natural Resources
       
       
       
       
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      
       


        Available via the World Wide Web: http://www.govinfo.gov
                                   or
          Committee address: http://naturalresources.house.gov
          
          
                            ______

             U.S. GOVERNMENT PUBLISHING OFFICE 
 36-658 PDF           WASHINGTON : 2019         
          
          
          
          
      

                     COMMITTEE ON NATURAL RESOURCES

                      RAUL M. GRIJALVA, AZ, Chair
                    DEBRA A. HAALAND, NM, Vice Chair
   GREGORIO KILILI CAMACHO SABLAN, CNMI, Vice Chair, Insular Affairs
               ROB BISHOP, UT, Ranking Republican Member

Grace F. Napolitano, CA              Don Young, AK
Jim Costa, CA                        Louie Gohmert, TX
Gregorio Kilili Camacho Sablan,      Doug Lamborn, CO
    CNMI                             Robert J. Wittman, VA
Jared Huffman, CA                    Tom McClintock, CA
Alan S. Lowenthal, CA                Paul A. Gosar, AZ
Ruben Gallego, AZ                    Paul Cook, CA
TJ Cox, CA                           Bruce Westerman, AR
Joe Neguse, CO                       Garret Graves, LA
Mike Levin, CA                       Jody B. Hice, GA
Debra A. Haaland, NM                 Aumua Amata Coleman Radewagen, AS
Jefferson Van Drew, NJ               Daniel Webster, FL
Joe Cunningham, SC                   Liz Cheney, WY
Nydia M. Velazquez, NY               Mike Johnson, LA
Diana DeGette, CO                    Jenniffer Gonzalez-Colon, PR
Wm. Lacy Clay, MO                    John R. Curtis, UT
Debbie Dingell, MI                   Kevin Hern, OK
Anthony G. Brown, MD                 Russ Fulcher, ID
A. Donald McEachin, VA
Darren Soto, FL
Ed Case, HI
Steven Horsford, NV
Michael F. Q. San Nicolas, GU
Matt Cartwright, PA
Paul Tonko, NY
Vacancy

                     David Watkins, Chief of Staff
                        Sarah Lim, Chief Counsel
                Parish Braden, Republican Staff Director
                   http://naturalresources.house.gov
                                 ------                                

       SUBCOMMITTEE ON NATIONAL PARKS, FORESTS, AND PUBLIC LANDS

                      DEBRA A. HAALAND, NM, Chair
                DON YOUNG, AK, Ranking Republican Member

Joe Neguse, CO                       Louie Gohmert, TX
Diana DeGette, CO                    Tom McClintock, CA
Debbie Dingell, MI                   Paul Cook, CA
Steven Horsford, NV                  Bruce Westerman, AR
Jared Huffman, CA                    Jody B. Hice, GA
Ruben Gallego, AZ                    Daniel Webster, FL
Alan S. Lowenthal, CA                John R. Curtis, UT
Ed Case, HI                          Russ Fulcher, ID
Paul Tonko, NY                       Rob Bishop, UT, ex officio
Vacancy
Raul M. Grijalva, AZ, ex officio

                                 ------                                
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Wednesday, June 5, 2019..........................     1

Statement of Members:
    Curtis, Hon. John R., a Representative in Congress from the 
      State of Utah..............................................     4
        Prepared statement of....................................     5
    Haaland, Hon. Debra A., a Representative in Congress from the 
      State of New Mexico........................................     1
        Prepared statement of....................................     3

Statement of Witnesses:
    Evans, Hon. Coral, Mayor, City of Flagstaff, Arizona.........    31
        Prepared statement of....................................    32
    Hesuse, Delora, Navajo Indian Allottee, Nageezi, New Mexico..    67
        Prepared statement of....................................    68
        Questions submitted for the record.......................    69
    Johnson, Hon. Buster D., Supervisor District 3, Mohave County 
      Board of Supervisors, Lake Havasu City, Arizona............    36
        Prepared statement of....................................    38
        Questions submitted for the record.......................    41
    Lizer, Hon. Myron, Vice President, Navajo Nation, Window 
      Rock, Arizona..............................................    56
        Prepared statement of....................................    58
    Menchego, Hon. Timothy, Governor, Pueblo of Santa Ana, New 
      Mexico.....................................................    59
        Prepared statement of....................................    60
    Nedd, Michael D., Deputy Director of Operations, Bureau of 
      Land Management, Washington, DC............................     7
        Prepared statement of....................................     8
        Questions submitted for the record.......................    10
    Reimondo, Amber, Energy Program Director, Grand Canyon Trust, 
      Flagstaff, Arizona.........................................    33
        Prepared statement of....................................    35
    Sage, Samuel, Community Services Coordinator, Counselor 
      Chapter House, Farmington, New Mexico......................    63
        Prepared statement of....................................    64
    Tilousi, Hon. Carletta, Councilwoman, Havasupai Tribe, Supai, 
      Arizona....................................................    28
        Prepared statement of....................................    29
    Torres, Hon. E. Paul, Chairman, All Pueblo Council of 
      Governors, Albuquerque, New Mexico.........................    52
        Prepared statement of....................................    53

Additional Materials Submitted for the Record:

    Advisory Council on Historic Preservation (ACHP), April 30, 
      2019 Letter to Representatives Haaland and Young in support 
      of H.R. 2181...............................................    76
    City of Flagstaff Resolution 2019-13 in support of H.R. 1373.    78
    List of documents submitted for the record retained in the 
      Committee's official files.................................    87

    Submissions for the Record by Representative Grijalva

        Coconino County Board of Supervisors Resolution 2019-08 
          in support of a permanent mineral withdrawal around the 
          Grand Canyon...........................................    79
        Havasupai Tribal Council Resolution 12-19 in support of 
          H.R. 1373..............................................    80
        Hopi Tribal Council Memorandum and Resolution H-025-2019 
          in support of H.R. 1373................................    82
        Hualapai Tribal Council Resolution 67-2009 in opposition 
          to uranium exploration and mining......................    84
        National Congress of American Indians Resolution MKE-17-
          058 opposing the reversal of mineral withdrawals.......    85
                                     



 LEGISLATIVE HEARING ON H.R. 1373, TO PROTECT, FOR CURRENT AND FUTURE 
  GENERATIONS, THE WATERSHED, ECOSYSTEM, AND CULTURAL HERITAGE OF THE 
 GRAND CANYON REGION IN THE STATE OF ARIZONA, AND FOR OTHER PURPOSES, 
 ``GRAND CANYON CENTENNIAL PROTECTION ACT'' AND H.R. 2181, TO PROVIDE 
FOR THE WITHDRAWAL AND PROTECTION OF CERTAIN FEDERAL LAND IN THE STATE 
 OF NEW MEXICO, ``CHACO CULTURAL HERITAGE AREA PROTECTION ACT OF 2019''

                              ----------                              


                        Wednesday, June 5, 2019

                     U.S. House of Representatives

       Subcommittee on National Parks, Forests, and Public Lands

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to notice, at 10:02 a.m., in 
room 1324, Longworth House Office Building, Hon. Debra A. 
Haaland [Chairwoman of the Subcommittee] presiding.
    Present: Representatives Haaland, DeGette, Horsford, 
Gallego, Lowenthal, Case, Grijalva (ex officio); Westerman, 
Webster, Curtis, Fulcher, and Bishop (ex officio).
    Also present: Representatives Lujan, O'Halleran, and Gosar.

    Ms. Haaland. The Subcommittee on National Parks, Forests, 
and Public Lands will now come to order. The Subcommittee is 
meeting today to hear testimony on H.R. 1373, the Grand Canyon 
Centennial Protection Act, and H.R. 2181, the Chaco Cultural 
Heritage Area Protection Act of 2019.
    Under Committee Rule 4(f), any oral opening statements at 
hearings are limited to the Chair and the Ranking Minority 
Member. Therefore, I ask unanimous consent that all other 
Members' opening statements be made part of the hearing record, 
if they are submitted to the Clerk by 5 p.m. today.
    Hearing no objection, so ordered.
    In addition, I would like to ask unanimous consent that 
Representatives Lujan, O'Halleran, and Gosar be allowed to join 
us and participate on the dais.

  STATEMENT OF THE HON. DEBRA A. HAALAND, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF NEW MEXICO

    Ms. Haaland. Thank you all for attending this Subcommittee 
on National Parks, Forests, and Public Lands legislative 
hearing on H.R. 1373, the Grand Canyon Centennial Protection 
Act, and H.R. 2181, the Chaco Cultural Heritage Area Protection 
Act of 2019.
    I would like to start by expressing my gratitude to 
Chairman Grijalva and Representative Lujan for introducing 
these bills that preserve the sacred and ancestral lands of the 
Pueblo people and other Native Americans in those areas, and 
also the irreplaceable resources they hold.
    I would also like to thank our witnesses, many of whom have 
traveled great distances to join us today.
    Since 2008, Chairman Grijalva has championed the central 
provisions of the Grand Canyon Centennial Protection Act. It 
was encouraging in 2012 when the Obama administration acted to 
protect over 1 million acres surrounding the Grand Canyon 
National Park with a 20-year moratorium on new mining claims. 
However, recent actions by this Administration suggest they may 
be seeking to end this moratorium, exposing tribal communities 
and Arizonans to the dangerous impacts of uranium mining.
    We need to act to ensure that political expediency doesn't 
undermine these existing protections which are so essential to 
the economic and cultural viability of the region. It would be 
especially appropriate to make the protections permanent on 
this year, the 100th anniversary of the establishment of the 
Grand Canyon National Park.
    Closer to my home, the Chaco Cultural Heritage Area 
Protection Act of 2019 would permanently protect the integrity 
of sacred sites in and around the Chaco Culture National 
Historical Park by prohibiting Federal oil and gas leasing 
within a 10-mile radius of the park. This action would prevent 
the degradation of cultural resources, preserve the 
environment, and protect the health of the surrounding 
communities.
    Earlier this year, I, with members of this Committee, went 
to Chaco Canyon in New Mexico to learn more about the 
importance of the region and to better understand the threats 
that nearby oil and gas extraction pose. We used cutting-edge 
technology to examine pollution coming off of oil and gas 
operations, which form a toxic cloud that hangs over parts of 
northern New Mexico.
    Long before these extractive and polluting industries came 
to be, this region was the heart of the Chacoan culture from 
850 to 1250 A.D. The Sovereign Pueblo Nations of New Mexico and 
the Navajo Nation still have intimate connections with the 
Greater Chaco Region, recognizing the area as a spiritual place 
to be honored and respected.
    Over hundreds of years, my ancestors engineered and 
constructed massive multi-story structures that became the 
ceremonial, administrative, and economic center of the region. 
In recognition of the area's outstanding universal value, Chaco 
culture was recognized as a World Heritage Site by UNESCO in 
1987.
    Today, thousands of ancestral sites are spread across the 
landscape, both within and beyond the boundaries of Chaco 
Culture National Historical Park. With the Trump 
administration's continued push for energy dominance, these 
sacred sites and national treasures are threatened by 
extraction. Extraction in this sacred place will only scar our 
land, contaminate our air and water, and create health risks 
for our communities.
    Just last week, Secretary Bernhardt joined Senator Martin 
Heinrich and tribal leaders on a tour of Chaco Canyon. 
Following that meeting, Secretary Bernhardt acknowledged the 
region's significance, but committed to only a 1-year 
moratorium on oil and gas leasing within the Chaco landscape. 
While I appreciate this gesture, it should be clear to anyone 
who has visited Chaco that 1 year is inadequate to protect the 
cultural significance of this land.
    It is my priority, as it should be that of the Trump 
administration, to permanently protect this place--in 
recognition of its significance to our Native American culture, 
this country's history, the public health of nearby 
communities, and others around the world. It is time for our 
words to become actions. We must protect both of these 
exceptional sites, Chaco Canyon and the Grand Canyon, in 
perpetuity.
    I would like to thank the sponsoring Members and witnesses 
again for being here today. I look forward to hearing your 
testimony.

    [The prepared statement of Ms. Haaland follows:]
Prepared Statement of the Hon. Debra A. Haaland, Chair, Subcommittee on 
               National Parks, Forests, and Public Lands
    Thank you all for attending this Subcommittee on National Parks, 
Forests, and Public Lands' legislative hearing on H.R. 1373, the Grand 
Canyon Centennial Protection Act, and H.R. 2181, the Chaco Cultural 
Heritage Area Protection Act of 2019.
    I would like to start by expressing my gratitude to Chairman 
Grijalva and Representative Lujan for introducing these bills that 
preserve the sacred lands of our ancestors and the irreplaceable 
resources they hold.
    I would also like to thank our witnesses, many of whom have 
traveled great distances to join us today.
    Since 2008, Chairman Grijalva has championed the central provisions 
of the Grand Canyon Centennial Protection Act. It was encouraging in 
2012 when the Obama administration acted to protect over 1 million 
acres surrounding Grand Canyon National Park with a 20-year moratorium 
on new mining claims. However, recent actions by the Trump 
administration suggest they may be seeking to end this moratorium--
exposing tribal communities and Arizonans to the dangerous impacts of 
uranium mining.
    We need to act to ensure that political expediency doesn't 
undermine these existing protections, which are so essential to the 
economic and cultural vitality of the region. It would be especially 
appropriate to make these protections permanent, on this year, the 
100th Anniversary of the establishment of Grand Canyon National Park.
    Closer to home for me, the Chaco Cultural Heritage Area Protection 
Act of 2019 would permanently protect the integrity of sacred sites in 
and around the Chaco Culture National Historical Park by prohibiting 
Federal oil and gas leasing within a 10-mile radius of the park. This 
action would prevent the degradation of cultural resources, preserve 
the environment, and protect the health of the surrounding communities.
    Earlier this year, I, along with many members of this Committee 
went to Chaco Canyon in New Mexico to learn more about this important 
region, and to better understand the threats nearby oil and gas 
extraction poses. We used cutting edge technology to examine pollution 
coming off of oil and gas operations, which form a toxic cloud that 
hangs over parts of northern New Mexico.
    Long before these extractive and polluting industries came to be, 
this region was the heart of the Chacoan Culture, from 850 to 1250 A.D. 
The sovereign Pueblo nations of New Mexico and the Navajo Nation still 
have intimate connections with the Greater Chaco Region--recognizing 
the area as a spiritual place to be honored and respected.
    Over hundreds of years, my ancestors engineered and constructed 
massive multi-story structures that became the ceremonial, 
administrative and economic center of the region. In recognition of the 
area's ``Outstanding Universal Value,'' Chaco Culture was recognized as 
a World Heritage Site by UNESCO in 1987.
    Today, thousands of ancestral sites are spread across the 
landscape--both within and beyond the boundaries of Chaco Culture 
National Historical Park. With the Trump administration's continued 
push for ``energy dominance,'' these sacred sites and national 
treasures are threatened by extraction. Extraction in this sacred place 
will only scar our land, contaminate our air and water, and create 
health risks for our communities.
    Earlier this week, Secretary Bernhardt joined Senator Heinrich and 
tribal leaders on a tour of Chaco Canyon. Following that meeting, 
Secretary Bernhardt acknowledged the region's significance, but 
committed to only a 1-year moratorium on oil and gas leasing within the 
Chaco landscape. While I appreciate this gesture, it should be clear to 
anyone who has visited Chaco that 1 year is inadequate to protect the 
cultural significance of this land.
    It is my priority, as it should be that of the Trump 
administration, to permanently protect this place--in recognition of 
its significance to our Native American culture, this country's 
history, the public health of nearby communities, and other's around 
the world. It is time for our words to become actions. We must protect 
both of these exceptional sites--Chaco Canyon and the Grand Canyon--in 
perpetuity.

    I would like to thank the sponsoring Members and witnesses again 
for being here today. I look forward to hearing your testimony.

                                 ______
                                 

    Ms. Haaland. And before I recognize the Ranking Member it 
has come to our attention that we have votes.
    Would you like to give your opening statement now? We have 
a little bit of time.
    OK. Thank you. I will recognize the Ranking Member for his 
opening statement, and then we will have to recess.

   STATEMENT OF THE HON. JOHN R. CURTIS, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF UTAH

    Mr. Curtis. Thank you. As Chair Haaland noted in her 
opening remarks, the Subcommittee meets today to consider two 
pieces of legislation, H.R. 1373 and H.R. 2181. I will note 
that both of these bills are Democrat-sponsored, and that there 
is no Republican bill being considered at the hearing today.
    Collectively, the two bills before us would withdraw well 
over a million acres of land from mineral development in 
Arizona and New Mexico. I am not opposed to mineral withdrawals 
when appropriate and, in fact, have sponsored two pieces of 
legislation withdrawing a total of over 2 million acres of 
Federal land from extraction.
    I must, however, raise a few concerns with the proposals 
before us today, which I fear lack the necessary consensus that 
is critical for measures of this scope.
    As a member of the House Foreign Affairs Committee, I 
experienced firsthand how our domestic mineral production 
policy impacts the greater international community. Sending our 
resources to allies abroad opens opportunities to protect our 
interest, while also benefiting the international partners. For 
this reason, mineral withdrawals, particularly of such large 
scale, should be analyzed carefully.
    However, the most concerning part of this hearing is that 
the Arizona bill, H.R. 1373, continues the Committee's 
troubling trend of taking up legislation introduced in another 
Member's district without consultation or support from that 
Member. For this reason, I yield the remainder of my time to my 
friend from Arizona, Mr. Gosar, whose northern Arizona district 
contains a large portion of the lands covered by H.R. 1373.

    [The prepared statement of Mr. Curtis follows:]
  Prepared Statement of the Hon. John R. Curtis, a Representative in 
                    Congress from the State of Utah
    As Chair Haaland noted in her opening remarks, the Subcommittee 
meets today to consider two pieces of legislation: H.R. 1373 and H.R. 
2181. I will note that both of these bills are Democrat sponsored, and 
that there is no Republican bill being considered at the hearing today.
    Collectively, the two bills before us would withdraw well over a 
million acres of land from mineral development in Arizona and New 
Mexico. I am not opposed to mineral withdrawals when appropriate, and 
in fact have sponsored two pieces of legislation withdrawing a total of 
over 2 million acres of Federal land.
    I must, however, raise a few concerns with the proposals before us 
today, which I fear lack the necessary consensus that is critical for 
measures of this scope.
    As a member of the House Foreign Affairs Committee, I experience 
firsthand how our domestic mineral production policy impacts the 
greater international community. Sending our resources to allies abroad 
opens opportunities to protect our interests, while also benefiting 
international partners. For this reason, mineral withdrawals, 
particularly of such a large scale, should be analyzed carefully.
    However, the most concerning part of this hearing is that the 
Arizona bill continues the Committee's troubling trend of taking up 
legislation introduced in another Member's district without 
consultation or support from that Member.
    With that in mind I'd like to ask unanimous consent that Mr. Gosar 
of Arizona, a member of the Full Committee, whose district is directly 
impacted by H.R. 1373, be allowed to sit on the dais and to participate 
in today's hearing. I yield the remainder of my time to my friend from 
Arizona, Mr. Gosar, whose Northern Arizona district contains a large 
portion the lands covered by H.R. 1373.

                                 ______
                                 

    Dr. Gosar. I thank the gentleman from Utah for his strong 
leadership and for yielding me time.
    As he noted, Representative Curtis is always very 
thoughtful and considerate when it comes to considering 
potential mineral withdraws and legislative actions that occur 
in another Member's district. And, like the gentleman from 
Utah, I strongly oppose both of these land bill grabs being 
debated today.
    H.R. 1373, the so-called Grand Canyon Centennial Protection 
Act, is an anti-mining, anti-American attack on my district. 
Depending upon what map you look at, somewhere in the range of 
30 to 40 percent of the proposed withdrawal lands in this bill 
are in my district. The rest are in Representative O'Halleran's 
district. And none of the lands--let me repeat--none of the 
lands are in Representative Grijalva's district.
    Having said that, the majority of the mining claims are in 
my district. In fact, just about all of the active and historic 
mines are in my district. And the main point of this bill is to 
lock up these lands in my district. This unnecessary 
legislation seeks to impose a 1-million-plus acre land grab on 
the Arizona Strip, and permanently prohibit mining and other 
multiple-use activities. This dangerous bill threatens both our 
national security and energy security, and seeks to permanently 
sequester critical minerals that contain the highest grade and 
largest quantity of uranium reserves in the entire country.
    As Deputy Director Nedd notes in his testimony, the 
proposed withdrawal area covers an area 80 percent the size of 
Delaware. Well, let's think about that, folks. This bill seeks 
to impose a lifetime ban on mining and other multiple-use 
activities on more than 1 million acres, an area of land that 
is nearly the size of Delaware.
    Keep in mind that this area where such activities are 
desired and were explicitly designated for such use through an 
Act of Congress supported by the entire Arizona and Utah 
delegations, and large majorities of both chambers. This 
fundamentally flawed legislation has existed in one form or 
another for more than a decade, and has failed to gain any 
traction over that time.
    In 2009, Dr. Madan Singh, Director of the Department of 
Mines and Mineral Resources for the state of Arizona testified 
in strong opposition to a nearly identical bill. Dr. Singh 
testified there is no threat to the Colorado River or 
surrounding watersheds if uranium mining in the area was 
allowed to occur. In fact, successful uranium mining in the 
area occurred in the 1980s. These mines were reclaimed, and you 
can't tell where they existed. There was no damage done to the 
Grand Canyon watershed or surrounding communities.
    Mr. Chairman, I ask unanimous consent to have these 
documents submitted for the hearing record.
    Ms. Haaland. Without objection.
    Dr. Gosar. I am thrilled that Mohave County Supervisor 
Buster Johnson is here today. Buster knows the issue better 
than most, and we have been fighting this proposed land grab 
for years.
    Thanks for your strong leadership, Buster. It is truly 
appreciated.
    The last time Buster and I were together and debating this 
topic was at a field hearing in Kingman in 2016, where we heard 
testimony from more than 30 different witnesses and from across 
the spectrum that opposed Representative Grijalva's proposed 
land grab of this area. The witnesses provided testimony--
including the Arizona Governor, the State Game and Fish 
Commission, CEOs, representatives from local cattleman and farm 
bureau groups, and countless other individuals and 
organizations. In fact, more than 150 groups of elected 
officials and concerned citizens were on record in opposition 
to Representative Grijalva's proposal at that time.
    Madam Chair, I ask permission to submit the press release 
from the field hearing in Kingman from 2016 for the Committee 
record.
    Ms. Haaland. Without objection.
    Dr. Gosar. In short, H.R. 1373 will harm education 
revenues, kill jobs, infringe on private property rights, and 
undermine American energy security.
    It is opposed by the people of my district, and I urge its 
rejection.
    Ms. Haaland. The gentleman's time has expired.
    Dr. Gosar. Thank you, and I yield back.
    Ms. Haaland. Thank you. The Subcommittee stands in recess, 
subject to the call of the Chair. We will be back as soon as we 
vote. Thank you so much.
    [Recess.]
    Ms. Haaland. Thank you all so much for all of your 
patience. And thank you, Ranking Member Curtis, and also Mr. 
Gosar, for your opening statement.
    We will now come to order. Under our Committee Rules, oral 
statements are limited to 5 minutes, but you may submit a 
longer statement for the record, if you choose.
    The lights in front of you will turn yellow when there is 1 
minute left, and red when the time has expired.
    After the witnesses have testified, Members will be given 
the opportunity to ask questions.
    The Chair now recognizes Mr. Michael Nedd, Deputy Director 
of Operations for the Bureau of Land Management.
    Thank you so much, Mr. Nedd. You have 5 minutes.

 STATEMENT OF MICHAEL D. NEDD, DEPUTY DIRECTOR OF OPERATIONS, 
           BUREAU OF LAND MANAGEMENT, WASHINGTON, DC

    Mr. Nedd. Good morning, Madam Chair, Mr. Ranking Member, 
and members of the Subcommittee. Thank you for the opportunity 
to present testimony today. I am Michael Nedd, the Deputy 
Director for Operations of the Bureau of Land Management. I 
will briefly summarize the written statement of H.R. 1373, the 
Grand Canyon Centennial Protection Act, and H.R. 2181, the 
Chaco Cultural Heritage Area Protection Act of 2019.
    H.R. 1373 would permanently withdraw over 1 million acres 
of Federal land in the state of Arizona from public land, 
mining, mineral and geothermal leasing laws. In January 2012, 
the Secretary of the Interior administratively withdrew this 
area from the mining laws for a 20-year period to study the 
effects of exploration and development of uranium and other 
minerals, as directed by the President. The Department is 
currently assessing critical minerals resources on public lands 
and offshore lands.
    Uranium, like oil and gas, solar, wind, geothermal, and 
other energy sources remains a vital component of a responsible 
and comprehensive energy strategy. Additionally, uranium has 
been identified by the U.S. Geological Survey as a critical 
mineral necessary to the economics and national security of the 
United States. The Department continues to study the impacts of 
mining in the withdrawal area to provide future policy makers 
with the scientific data necessary to make informed decisions.
    The Department has concerns about the size and scope of the 
withdrawal contained in the legislation. With that said, the 
Department respects Congress' authority over territory or other 
property belonging to the United States. If Congress chooses to 
move forward with a permanent withdrawal, the Department 
recommends several modifications to the bill, including 
boundary adjustments to ensure local availability of minerals 
material for nearby communities, and to enable environmentally 
responsible development of critical minerals such as uranium 
and other mineral resources.
    Last, the sponsor may wish to consider language permitting 
lands within the proposed withdrawal to be conveyed or leased 
under the Recreation and Public Purpose Act for public purposes 
or exchange to facilitate economic development for local 
communities.
    H.R. 2181 would withdraw approximately 201,000 Federal 
surface acres and approximately 334,000 acres of Federal 
subsurface mineral estates surrounding the Chaco Culture 
National Historical Park in northwestern New Mexico from the 
public land, mining, mineral, and geothermal leasing laws. In 
Fiscal Year 2018, the total revenue generated from responsible 
minerals development on Federal lands in New Mexico alone was 
over $1.3 billion.
    The Secretary also recognized there are some places that 
may benefit from enhanced protection. Striking the appropriate 
balance for public lands use is an important mission that the 
Department takes seriously. Early last week, Secretary 
Bernhardt traveled to New Mexico and visited a Chaco cultural 
area, along with New Mexico Senator Martin Heinrich and tribal 
leaders. Following that visit, the Secretary expressed a great 
sense of appreciation of the site managed by the National Park 
Service, and a better understanding of the tribal leaders' 
views of its cultural significance.
    The Secretary has directed the BLM to promptly publish a 
draft resource management plan that includes an alternative 
that reflects the tribal leaders' views, which are similar to 
the proposed legislation boundaries included in H.R. 2181. At 
the Secretary's direction, the BLM will also defer leasing 
within the 10-mile buffer zone for 1 year. The Constitution 
gives Congress the power to dispose of and make all needful 
rules and regulations respecting the territory or other 
properties belonging to the United States, and we respect 
Congress' role in this regard. As such, the Department has no 
objection to H.R. 2181.
    Thank you for the opportunity to testify. I am happy to 
answer any questions you may have on these bills.

    [The prepared statement of Mr. Nedd follows:]
Prepared Statement of Michael D. Nedd, Deputy Director for Operations, 
Bureau of Land Management, U.S. Department of the Interior on H.R. 1373 
                             and H.R. 2181

     Statement on H.R. 1373, Grand Canyon Centennial Protection Act

    Thank you for the opportunity to testify on H.R. 1373, the Grand 
Canyon Centennial Protection Act. H.R. 1373 would permanently withdraw 
over 1 million acres of Federal lands in the state of Arizona from the 
public land, mining, mineral, and geothermal leasing laws.
    Under President Trump and Secretary Bernhardt's leadership, the 
Bureau of Land Management (BLM) has made it a top priority to develop 
the vast domestic energy resources on public lands in an 
environmentally responsible manner to create jobs, lower costs for 
working Americans, and build a strong economy. The Secretary 
recognizes, however, that there are some places that may benefit from 
protections. Striking the appropriate balance for public lands use--
whether it be energy development, recreation, grazing, or 
conservation--can be a challenge, but it is a mission the Department of 
the Interior (Department) takes seriously.
    The United States has an extraordinary abundance of mineral 
resources, both onshore and offshore, and is a major mineral producer, 
but relies on other countries for more than 50 percent of dozens of 
minerals that are vital to our economy and security. To address this 
vulnerability, in 2017 the President issued Executive Order 13817, A 
Federal Strategy to Ensure Secure and Reliable Supplies of Critical 
Minerals, calling upon agencies across the Federal Government to 
develop a report that lays out a strategy to reduce the Nation's 
susceptibility to critical mineral supply disruptions. The Department 
is currently assessing critical mineral resources, including mapping on 
Federal public lands and offshore lands. Uranium, like oil and gas, 
solar, wind, geothermal, and other energy sources, remains a vital 
component of a responsible and comprehensive energy strategy. 
Additionally, uranium has been identified by the U.S. Geological Survey 
(USGS) as a critical mineral necessary to the economic and national 
security of the United States. The Department continues to study the 
impacts of mining in the area proposed for permanent withdrawal to 
provide future policy makers with the scientific data necessary to make 
informed decisions.
    The Department has concerns about the size and scope of the 
withdrawal contained in the legislation; at over 1 million acres, the 
withdrawal covers an area that is 80 percent of the size of the state 
of Delaware.
    Under Article IV, Section 3, Clause 2 of the Constitution, Congress 
has the ``power to dispose of and make all needful rules and 
regulations respecting the territory or other property belonging to the 
United States,'' and we respect Congress' role in this regard.
    If Congress chooses to move forward with a permanent withdrawal, 
the Department recommends several modifications to the bill, including 
boundary adjustments to ensure local availability of mineral materials 
for nearby communities and to enable environmentally responsible 
development of uranium and other mineral resources, if determined to be 
appropriate through site specific analysis. The sponsors may also wish 
to consider language permitting lands within the proposed withdrawal to 
be conveyed or leased under the Recreation and Public Purposes Act for 
public purposes or exchanged to facilitate economic development for 
local communities.

Statement on H.R. 2181, Chaco Cultural Heritage Area Protection Act of 
                                  2019

    Thank you for the opportunity to present the views of the 
Department of the Interior (Department) on H.R. 2181, the Chaco 
Cultural Heritage Area Protection Act of 2019, which would withdraw 
approximately 200,652 Federal surface acres and approximately 333,827 
acres of Federal subsurface mineral estate surrounding the Chaco 
Culture National Historical Park (CCNHP) in northwestern New Mexico 
from the public land, mining, mineral, and geothermal leasing laws.
    Under President Trump's and Secretary Bernhardt's leadership, the 
Bureau of Land Management (BLM) has made it a top priority to 
responsibly develop the vast domestic energy resources on public lands 
to create jobs, lower costs for working Americans, and build a strong 
economy. In Fiscal Year (FY) 2018, the total revenue generated from 
responsible mineral development on Federal lands in the state of New 
Mexico alone was over $1.3 billion, the vast majority of which came 
from oil and gas operations. The Federal disbursement to the state of 
New Mexico was over $634 million; the remainder was directed to the 
U.S. Treasury for the benefit of all American taxpayers.
    The Secretary also recognizes there are some places that may 
benefit from enhanced protection. Striking the appropriate balance for 
public lands use--whether it be energy development, recreation, 
grazing, or historic preservation--can be a challenge, but it is a 
mission the Department takes seriously.
    Early last week, Secretary Bernhardt traveled to New Mexico and 
visited CCNHP, along with New Mexico Senator Martin Heinrich and Tribal 
leaders. Following that visit, the Secretary gained a greater sense of 
appreciation of the site managed by the National Park Service, and a 
better understanding of the Tribal leaders' views of its cultural 
significance.
    In response, the Secretary has directed the BLM to develop and 
publish a draft Resource Management Plan that includes an alternative 
reflecting the Tribal leaders' views, which are similar to the proposed 
legislative boundaries included in H.R. 2181. The Secretary also 
directed the BLM to defer leasing within the 10-mile buffer zone for 1 
year.
    Under Article IV, Section 3, Clause 2 of the Constitution, Congress 
has the ``power to dispose of and make all needful rules and 
regulations respecting the territory or other property belonging to the 
United States,'' and we respect Congress' role in this regard. As a 
result, the Department has no objection to H.R. 2181.

                                 ______
                                 
Questions Submitted for the Record to Mr. Michael Nedd, Deputy Director 
                of Operations, Bureau of Land Management

Mr. Nedd did not submit responses to the Committee by the appropriate 
deadline for inclusion in the printed record.

            Questions Submitted by Representative O'Halleran

    Question 1. Mr. Nedd, much was made about abandoned mines near the 
Grand Canyon, but that debate focused mainly on proximity to the Rim, 
rather than on the impacts these mines have had on communities and the 
environment.

    1a. How far is the Orphan mine from the Rim?

    1b. What has the Department of the Interior done to prioritize 
remediation of the Orphan mine?

    1c. How much longer will this process take?

    1d. How much will it cost?

    Question 2. During the hearing, it was suggested that uranium 
imports are a national security and energy supply risk.

    2a. Why do utilities support the import of Uranium? Is it less 
expensive?

    2b. Does the United States import uranium from a diverse group of 
nations? Are the majority of imports from long-standing allies?

    2c. What percentage of uranium is imported from Russia?

    Question 3. Is it true that Wyoming and New Mexico have by far the 
largest Uranium reserves and constitute over two-thirds of the national 
supply?

    3a. Are mines in these states already developed?

    3b. Are these mines free from contamination?

    3c. What is the remediation plan for these mines?

    Question 4. Much was made of USGS' ongoing studies in the region.

    4a. Have these studies ever been funded at the level recommended in 
their strategic plans?

    4b. At current funding levels, when will these studies be 
completed?

    4c. Will these studies complete all of the goals outlined in their 
initial planning documents?

    Question 5. One issue with detecting uranium in the Grand Canyon 
region is that, as experts have testified in the past, the groundwater 
hydrologyis not well understood.

    5a. Does USGS currently have a detailed mapping of groundwater flow 
patterns throughout the region's that would be impacted by mining?

    5b. Can USGS say definitively what the impacts of mining on 
groundwater have been?

    5c. How many well sites does USGS maintain around each operating 
mine in the region?

              Question Submitted by Representative Curtis

    Question 1. Chairwoman Haaland read a statement from Representative 
Lujan during the hearing: ``The BLM has testified that this legislation 
would not affect tribal interests or allottees, while the bill itself 
includes language that recognizes the rights of Navajo allottees such 
as yourself, Ms. Hesuse, to continue to develop their lands.'' Rep's 
Haaland and Lujan were referring to testimony from you on May 16 before 
the Senate Committee on Energy and Natural Resources, Subcommittee on 
Public Lands, Forest and Mining regarding S. 1079. In answer to this 
question from Senator Mike Lee: ``Do you know how tribal allottees and 
horizontal drilling on allotted lands might be affected by the 
protection zone and by this legislation?'' you answered, ``It is my 
understanding that Tribal and allottees would not be affected by this 
withdrawal. However, there will be challenges given the intermixing of 
public, tribal and private land and of course the geography of the 
lands.''

    Were you referring to a specific analysis that BLM has done of the 
allottee resources contained within the exclusionary zone that shows 
how they will be affected by the withdrawal, or was it a general answer 
to the plain language of the bill? If there has been an analysis, how 
thorough was it? Did the study assess the resource potential, ownership 
of the fluid minerals, and geological factors that would affect how 
well allottee resources could be developed if the exclusionary zone 
were enacted, and the economic impacts of stranded minerals?

              Questions Submitted by Representative Gosar

    Question 1. Chair Haaland read a statement from Representative 
Lujan during the hearing: ``The BLM has testified that this legislation 
would not affect tribal interests or allottees, while the bill itself 
includes language that recognizes the rights of Navajo allottees such 
as yourself, Ms. Hesuse, to continue to develop their lands.'' Rep's 
Haaland and Lujan were referring to testimony from you on May 16 before 
the Senate Committee on Energy and Natural Resources, Subcommittee on 
Public Lands, Forest and Mining regarding S. 1079. In answer to this 
question from Senator Mike Lee: ``Do you know how tribal allottees and 
horizontal drilling on allotted lands might be affected by the 
protection zone and by this legislation?'' you answered, ``It is my 
understanding that Tribal and allottees would not be affected by this 
withdrawal. However, there will be challenges given the intermixing of 
public, tribal and private land and of course the geography of the 
lands.'' Were you referring to a specific analysis that BLM has done of 
the allottee resources contained within the exclusionary zone that 
shows how they will be affected by the withdrawal, or was it a general 
answer to the plain language of the bill? If there has been an 
analysis, how thorough was it? Did the study asses the resource 
potential, ownership of the fluid minerals, and geological factors that 
would affect how well allottee resources could be developed if the 
exclusionary zone were enacted, and the economic impacts of stranded 
minerals?

    Question 2. Besides uranium, flag stone, sand and gravel, vanadium, 
copper, oil, coal, rare earths as well as other critical and strategic 
metals would be locked away forever under Rep. Grijlava's bill. Deputy 
Director Nedd, are you concerned that H.R. 1373 seeks to lock away 
critical and strategic minerals on a one-million-plus-acre swath of 
land forever?

    Question 3. Uranium is critical for nuclear power, the most 
reliable and clean zero-emission energy source. If the socialists 
pushing the Green New Deal really want to transition off fossil fuels, 
it defies logic and common sense that they oppose all domestic mining 
and think we can just import enough of those minerals from Russia and 
China to make this transition occur. Sheer insanity. Deputy Director 
Need, is there enough domestic mining taking place in this country for 
us to transition to 100 percent wind, solar and batteries for all our 
energy needs and have all the minerals necessary for those energy 
sources and that transition be produced in America?

    Question 4. You testified that Uranium is on the critical minerals 
list. Deputy Director Nedd, is importing 99 percent of the uranium we 
need for nuclear reactors an energy security risk? How about a national 
security risk?

    Question 5. The breccia pipe formations in the withdrawal area in 
H.R. 1373 represent the largest deposits of uranium in the United 
States and contain the largest quantities of reserves and the highest 
grades of American uranium ore by a factor of 6. The withdrawal area 
constitutes the bulk of a 326,000,000 acre uranium reserve which the 
Nuclear Energy Institute estimates would provide California's 45 
million residents 22.5 years of electricity. Are you concerned that 
H.R. 1373 seeks to lock away the largest quantities of reserves and the 
highest grades of American uranium in the country?

                                 ______
                                 

    Ms. Haaland. Thank you, Mr. Nedd. Thank you for that 
valuable testimony.
    The Chair will now recognize Members for questions. Under 
Committee Rule 3(d), each Member will be recognized for 5 
minutes, and I would like to recognize myself for 5 minutes.
    Mr. Nedd, last month, when you testified before the Senate 
Committee on Energy and Natural Resources on the Chaco Cultural 
Heritage Area Protection Act, you stated that the BLM places a 
strong emphasis on government-to-government relations with 
tribes, and continues to work closely with tribes.
    Unfortunately, that does not seem to be the case. Oil and 
gas leasing in the area continues, despite calls from the 
National Congress of American Indians, the Navajo Nation, and 
the All Pueblo Council of Governors for a moratorium on leasing 
until a comprehensive assessment of cultural resources in the 
region is completed.
    Can you briefly describe the efforts your agency has made 
to engage with tribal governments on leasing decisions?
    Mr. Nedd. Madam Chair, it is my understanding that at the 
beginning of any planning process or attempt to lease, the 
agency will reach out with phone calls, with letters, and on-
site visits by the local manager. It is my understanding that, 
over the many years, there have been contacts or discussion 
with the tribes. And as we sit here today, in that planning 
effort we continue to be open to consultation and meeting with 
the tribes.
    Ms. Haaland. Thank you, Mr. Nedd.
    Second, how has the January 31, 2019 BLM memorandum on 
updating oil and gas leasing reforms influenced BLM's decision 
to propose leasing in the Chaco area, despite the known 
opposition and concerns?
    Mr. Nedd. I am sorry, Madam Chair. I didn't hear your 
question. What was the question?
    Ms. Haaland. How has the January 31, 2019 BLM memorandum on 
updating oil and gas leasing reforms--that is the title of the 
memo--influenced BLM's decision to propose leasing in the Chaco 
area, in spite of the known opposition and concerns from tribes 
and other groups?
    Mr. Nedd. Yes, Madam Chair, thank you for that question. 
The memorandum laid out some guidance for the BLM to exercise 
the discretion that is given to the Secretary. In that context, 
again, BLM reaches out to the community, reaches out to 
stakeholders in deciding, again, what will be leased, what will 
not be leased. So, I see the aim as just laying out some 
guidance, but doesn't get us away from consultation or from 
working with our stakeholders.
    Ms. Haaland. Do you believe that these internal policies 
should supersede legal and moral obligations to consult with 
Indian tribes?
    Mr. Nedd. Madam Chair, what I will say is our policy is and 
should continue to be consistent with the law, or the 
regulatory framework that is in place. So, that is our attempt 
whenever we put out a regulation or a policy.
    Ms. Haaland. Thank you, Mr. Nedd. When speaking about oil 
and gas extraction around Chaco Culture National Historical 
Park, BLM has stated that it is a top priority for the agency 
to develop the vast domestic energy resources on public lands, 
to create jobs, lower costs for working Americans, and build a 
strong economy. Did you know that in New Mexico, where Chaco is 
located, more than twice as many jobs depend on outdoor 
recreation as the energy and mining sectors combined?
    Mr. Nedd. Madam Chair, I don't have the specific--you just 
mentioned about the numbers. But what I do know, energy and 
minerals is a vast resource, and helps to support this country. 
And the Department's position is to environmentally and 
responsibly develop those resources where appropriate.
    Ms. Haaland. Thank you. And I just would like to emphasize 
that outdoor recreation is over billions of dollars for revenue 
in New Mexico, as I am sure it is in other states. So, our 
public lands are a viable resource for jobs and our economy.
    Last question. When making leasing decisions, does the BLM 
consider the economic benefits of clean air and water, 
especially in light of the world's largest methane cloud in New 
Mexico? It hovers over the northwestern portion of our state. 
And the water intensity of hydraulic fracturing in arid 
regions. I am talking, southwest New Mexico is 5,000 feet of 
high desert.
    Mr. Nedd. Madam Chair, thank you for the question. The 
answer is yes on the NEPA. BLM takes into consideration the 
effects or the impact on the environment, the air, the social 
aspect, and BLM then tries to strike a balanced approach to how 
resources will be developed or how resource will be used, 
whether it is for recreation or other types of activity.
    Ms. Haaland. I yield, and I will now recognize Mr. Curtis 
for 5 minutes.
    Mr. Curtis. Thank you, Madam Chair. I would like to yield 
the balance of my time to my friend from Arizona, Congressman 
Gosar.
    Dr. Gosar. Thank you, Ranking Member.
    Mr. Nedd, I am going to go through some things, some facts 
about H.R. 1373. The bill has zero Republicans, and is a 
partisan attack on my district. Located within this withdrawal 
are 19,789 acres of privately held land. Also located in there 
are 4,204 acres owned by the Arizona State Land Department for 
the benefit of Arizona's schoolchildren. Locking away these 
resources will cost Arizona and Utah hundreds of millions of 
dollars in lost revenues that will help communities and 
schools.
    Dr. Singh testified that in 2009--this is an important 
fact--over 55.6 percent of the total geography--the total 
geography--of Arizona has already withdrawn from mineral 
exploration and mining, over 50 percent has been withdrawn.
    The Obama administration priorly had at least 31 domestic 
mineral withdrawals. Their whole attack was to prevent mining 
and unilaterally enact a 1 million acre withdrawal for 20 years 
in 2012. It is not 2032, is it?
    Mr. Nedd. No, it is not.
    Dr. Gosar. So, what is the urgency, do you feel, about this 
bill?
    Mr. Nedd. Say again, Congressman.
    Dr. Gosar. What is the urgency with this bill? If it is not 
2032, and there is a 20-year moratorium, what is the rush over 
there?
    Mr. Nedd. I don't know, Congressman.
    Dr. Gosar. There are other things that we know. The House 
Science Committee found that Russia funneled cash to the 
extreme organizations to intentionally undermine important 
American energy projects. Are you aware of that, Mr. Nedd?
    Mr. Nedd. No, I am not.
    Dr. Gosar. It should be no surprise that many of the same 
groups that are strong supporters of Representative Grijalva's 
1-million-acre land grab are exactly some of these people. It 
is pretty interesting that they want the United States to be 
reliant on groups like Russia and Kazakhstan for 99 percent of 
our uranium. That is pretty amazing.
    This bill is an anti-mining anti-American attack on my 
district, because many of the mines are on my side and in my 
district. Is that true, Mr. Nedd?
    Mr. Nedd. That is my understanding, Congressman.
    Dr. Gosar. So, isn't it interesting that the problem that 
we see here is we hear Russia, Russia, Russia, and it seems 
like it is Russia, Russia, Russia over on the other side. It is 
unbelievable.
    Besides uranium, flagstone, sand and gravel, vanadium 
copper, oil, coal, rare earths, as well as other critical and 
strategic minerals, would also be locked up under 
Representative Grijalva's bill. Would that not be the case?
    Mr. Nedd. That is my understanding, Congressman.
    Dr. Gosar. Has Arizona really mapped effectively this 
withdrawal area?
    Mr. Nedd. Can you repeat that, please?
    Dr. Gosar. Has the BLM really mapped effectively this 
withdrawal area for all different types of resources?
    Mr. Nedd. I believe we have a good understanding. One may 
argue what is extensive, but I believe we have a good 
understanding, yes.
    Dr. Gosar. Uranium is a critical element for nuclear power, 
is it not?
    Mr. Nedd. Yes it is, Congressman.
    Dr. Gosar. So, now we bring up the Green New Deal. And one 
of the things that keeps coming from the other side is that we 
are going to go on all renewables. That is about 7 percent of 
our portfolio, is it not?
    Mr. Nedd. Somewhere around there. I don't have the exact 
number, Congressman.
    Dr. Gosar. Yes. Are you familiar with Mr. Shackelford's 
comment that it is lunacy that you could think that renewables 
could actually power the world? We at least have to have 
nuclear power. You are aware of that commentary?
    Mr. Nedd. I am not, Congressman.
    Dr. Gosar. It is a really good one, because if we are going 
to depend upon renewables, we wouldn't have a tree standing.
    Director Nedd, is there enough domestic mining taking place 
in this country for us to transition to 100 percent wind, 
solar, and geothermal, and battery storage?
    Mr. Nedd. That is not my understanding, Congressman.
    Dr. Gosar. Who controls almost all the rare earth 
dictations in the world?
    Mr. Nedd. Say again.
    Dr. Gosar. Who dictates the availability of rare earths in 
the world? Is it the United States? Is it Russia? Is it China?
    Mr. Nedd. There are a number of foreign countries, 
Congressman.
    Dr. Gosar. The majority is China. Well over 80 percent. 
They have a monopoly on it. And everyone's cell phones and 
everything, they have to have these rare earths. So, it is 
pretty interesting, where these are located.
    I yield back.
    Ms. Haaland. Thank you, Mr. Gosar.
    The Chair now recognizes Mr. Lowenthal for 5 minutes.
    Dr. Lowenthal. Thank you, Chairwoman Haaland. And thank you 
to all our witnesses for being here to testify on these two 
incredibly important bills that we have before us.
    Back in April, as the Chair of the Energy and Mineral 
Resources Subcommittee, I had the good fortune of traveling to 
New Mexico with Chair Grijalva and Vice Chair Haaland, where we 
had a chance to hear firsthand about the threats that the 
extractive industry has on the environment, on sacred sites, 
and on the public health in the Southwest. I, along with the 
Chair and the Vice Chair, had a chance to see the tremendous--
although the sky was clear and it looked like a beautiful day, 
when we looked through a special photography, we saw the plumes 
of methane escaping into the air. I am not talking about a 
little bit. The entire sky was filled with methane, which was 
not readily apparent if you were not able to investigate that, 
or see that.
    Chaco Canyon, which was right there where we were looking 
at these plumes, right near there, is a national treasure. It 
is a culturally important place for many tribes. And I can tell 
you, after having been there, like the Grand Canyon it is truly 
a special place.
    With that, I would like to turn to you, Deputy Director 
Nedd, for just for one question. Mr. Nedd, currently over half 
of our uranium supplies come from our strongest allies--we are 
talking about Australia and Canada--while the U.S. Department 
of Energy estimates that we already have access to enough 
uranium to meet our military needs until 2060. Let me say that 
again--the Department of Energy says we have enough uranium to 
meet our military needs until 2060.
    Former Secretary of Energy Moniz has been quoted saying he 
has never considered uranium to be a major security issue. And 
even the Heritage Foundation--we are talking about the Heritage 
Foundation--in a November 2018 publication wrote, ``There is no 
compelling evidence that foreign-sourced uranium places current 
or future military operations at risk.''
    Even if we agreed with this premise that uranium mining was 
a national security issue--and I do not agree with that 
premise--it is important to note that the Grand Canyon region 
only holds 0.29 percent of known U.S. uranium reserves. That is 
less than three-tenths of 1 percent of known U.S. uranium 
reserves.
    Your written testimony states that one of the Department's 
recommended modifications to the Grand Canyon Centennial 
Protection Act would be to enable the development of uranium, 
which is entirely antithetical to the point that we are 
discussing today in this legislation.
    Mr. Nedd, why is the Administration insistent on mining 
uranium from the edge of the Grand Canyon, of all places, when 
there is no compelling need to develop new domestic supplies, 
and even less of a case to be made that this is the place to 
develop these supplies?
    Mr. Nedd. Thank you, Congressman. The Administration has 
clearly laid out a strategy where it identified uranium as 
critical to the economic and national security. And the 
Administration has clearly laid out their case as to be less 
dependent on foreign resources.
    Dr. Lowenthal. Of our allies? We are talking about 
Australia and Canada, which is a major source of where we--so 
we are worried that there could be a shut-off of uranium from 
our allies?
    Mr. Nedd. Congressman, again, the Administration has laid 
out their position to be less dependent on those sources, and 
to develop the resources here in an environmentally responsible 
manner.
    Dr. Lowenthal. And even though the Heritage Foundation and 
also former Secretary Moniz said there is no need to have this 
as a national security issue?
    Mr. Nedd. Congressman, I am not familiar with those 
statements. I am sorry.
    Dr. Lowenthal. Thank you, and I yield back.
    Ms. Haaland. Thank you, Mr. Lowenthal. The Chair now 
recognizes Mr. Fulcher for 5 minutes.
    Mr. Fulcher. Thank you, Madam Chair. And Mr. Nedd, thank 
you for your testimony.
    Mr. Nedd, the information that I get does differ from my 
good colleague from California, and what he just shared. The 
information that I have been privy to indicates that uranium 
is, in fact, a product that is constricted, and we are way too 
dependent on unfriendly sources for that. And therein lies 
probably the single biggest concern that I have about this.
    I think maybe sometimes we take for granted the safety that 
we have had in this Nation. Sometimes we may take for granted 
the fact that, for the most part, we don't have to worry about 
the same threats that many nations do.
    So, with these deposits in this region potentially being 
taken off the table, can you share your thoughts about what 
that does to the domestic availability, the sources we can 
actually control ourselves for uranium?
    Mr. Nedd. Thank you for the question, Congressman. It is my 
understanding, with not having it domestically available, it 
then impacts our ability to have these critical minerals used 
for everyday things we use: cell phones, automobiles, 
computers, even appliances in our home. And the Administration 
has laid out its position that, to achieve the economic and 
national security, we need to develop the resources that are 
available to us in an environmentally sound manner.
    Mr. Fulcher. Thank you, Mr. Nedd.
    Madam Chair, I yield the balance of my time to Mr. Gosar.
    Dr. Gosar. I thank the gentleman. This past Monday, the 
Energy Information Agency reported that domestic uranium 
production has collapsed. For First Quarter 2019, production 
totaled 58,481 pounds. Our 98 domestic operating nuclear power 
plant reactors require roughly 50 million pounds annually. 
Thus, domestic production for calendar year 2019 is on pace to 
be a fraction of about 1 percent of that total demand. We will 
be importing roughly 99 percent--those are the numbers we are 
getting--from Russia and Kazakhstan because of the flood of the 
market from them.
    The U.S. Navy, which is rapidly depleting stockpiled 
uranium, supported adding uranium to the critical mineral list. 
You testified that uranium is on the critical mineral list, did 
you not?
    Mr. Nedd. Yes, I did, Congressman.
    Dr. Gosar. And was it the U.S. Navy that actually had 
impetus on that designation?
    Mr. Nedd. I believe they were a part of it. It is a number 
of them. Other agencies, too.
    Dr. Gosar. Director Nedd, is importing 99 percent of the 
uranium that we need for nuclear reactors an energy security 
risk? And is it very important to this country, as far as 
electrical grid appropriation?
    Mr. Nedd. That is my understanding, Congressman.
    Dr. Gosar. The comment was made that--``on the edge of the 
Grand Canyon.'' Are any of these on the edge of the Grand 
Canyon? The mine sites.
    Mr. Nedd. No, they are not, Congressman.
    Dr. Gosar. Do individuals walk across these breccia pipes?
    Mr. Nedd. That is not my understanding.
    Dr. Gosar. They do. They are exposed. Some of them are 
exposed.
    OK, so what is so critical about these breccia pipes, Mr. 
Nedd? Are they less concentrated, or are they six or seven 
times more concentrated than any other known reserve?
    Mr. Nedd. Congressman, I don't have enough knowledge about 
those----
    Dr. Gosar. About six times. They are about six times as 
concentrated. So, they are like a plug. It is like a stopper in 
the ground.
    The geological formation in Arizona--we have a basin 
subsurface called caliche clays. They are clays. And what ends 
up happening, we ask water to perpetrate down into these 
caliche clays, forming basins. And what these breccia pipes do 
is they impede that. So, when they actually mine this breccia 
pipe they go down, clear it out. It is a very small footprint. 
And then there is the ability for water to permeate to lower 
reaches of access for water holding. Does that sound like it is 
a bad deal?
    Mr. Nedd. Again, Congressman, I don't have the depth of 
expertise to be able to address that question, so I will take 
your word at it.
    Dr. Gosar. Well, in Dr. Singh's commentary over and over 
again there is no perpetration in regards to radioactivity in 
the water, any different than what it is currently. And 
currently water seeps through these breccia pipes and runs, so 
everybody is exposed to it.
    So, it is very interesting, what we see here.
    I will yield back.
    Ms. Haaland. Thank you, Mr. Gosar. Without objection, I 
would like to enter for the record an information sheet from 
the U.S. Energy Information Administration, showing the sources 
and shares of U.S. purchases of uranium produced in foreign 
countries in 2017, and it shows Russia at 18 percent. Without 
objection.
    Next, Mr. Horsford, the Chair recognizes you for 5 minutes.
    Mr. Horsford. Thank you, Chairwoman Haaland, for organizing 
today's legislative hearing on H.R. 1373 and H.R. 2181.
    H.R. 1373, the Grand Canyon Centennial Protection Act, 
which I am proud to co-sponsor, would permanently prohibit new 
mining claims on roughly 1 million acres surrounding the Grand 
Canyon National Park. This bill would protect the integrity of 
the Grand Canyon and the Colorado River watershed. It would 
ensure clean water for all communities and habitat that depend 
on the Colorado River, which supplies drinking water for more 
than 1 million people in my home state of Nevada.
    Unfortunately, the area surrounding the park is being 
targeted by uranium mining companies who wish to open mines 
directly adjacent to Grand Canyon Park. Uranium companies have 
long argued the need to mine in the region. However, the 
benefits of mining in the Grand Canyon are meager, compared 
with the economic and ecological impact of the park.
    While uranium and other hardrock mining can help foster 
economic activity and--I take objection with the assertion that 
this bill will somehow squelch mining, all together--has done 
so in my home state. I support mining. Mining is an important 
part of our economy in my state, as well as in other states. 
But it has to be done in a responsible manner, particularly an 
environmentally responsible manner. And it has to be done in 
consultation with the communities that it impacts. Without 
diligent oversight and planning, mining can have numerous 
adverse effects that impact environmental and public health.
    For example, in my district, the main water source for the 
town of Yerington and the Yerington Paiute Tribe is 
contaminated by the Anaconda Mine. The issue has persisted for 
decades, endangering the health of my constituents, and forcing 
families to stop drinking water from their taps. And literally, 
they are having to bring in bottled water to the local 
residents. Sadly, clean-up of this site and the sites like it 
takes much longer than it should, leaving families to choose 
between leaving their homes or living amongst health hazards.
    Mr. Nedd, why is there no requirement to monitor 
groundwater in or near uranium mines?
    Mr. Nedd. Congressman, there are requirements to monitor 
the environment to understand the impact. And USGS has been----
    Mr. Horsford. Are they specifically related to groundwater 
near uranium mines?
    Mr. Nedd. My understanding is the USGS has been doing a 
study for a number of years in that area that includes water.
    Mr. Horsford. OK. If you could please provide that 
information to the Committee, I would appreciate it.
    There is currently a 20-year moratorium on new mining 
claims surrounding Grand Canyon National Park. However, this 
moratorium is only administrative. The Trump administration, 
which has expressed an intention to develop more uranium, can 
withdraw it at any time. That is why this bill is necessary. I 
hope the Trump administration will respect the moratorium. But 
we cannot stand by and trust that this Administration will make 
the right decision.
    Millions of people living in Nevada, Arizona, and 
California depend on the water that flows through the Grand 
Canyon. This bill protects their water source and their 
livelihood.
    Mr. Nedd, under the Trump administration, the BLM has made 
the development of domestic mineral resources a top priority, 
committing to do so in an environmentally responsible way. 
Unfortunately, in a rush to open an unprecedented number of 
mines on our public lands, including in Nevada, the agency has 
often failed to adequately consult with the impacted 
communities and implement the necessary safety precautions.
    How is the BLM ensuring that uranium and other resources 
are being developed in an environmentally responsible way?
    Mr. Nedd. Thank you for the question, Congressman. As I 
mentioned before, the BLM goes through a NEPA process, the 
National Environmental Protection Act. And in that context, we 
are looking at what impacts maybe come from development, and 
looking at how best to mitigate those impacts. We do engage 
stakeholders and local communities, and we do make every effort 
to develop those resources in an environmentally sound and 
balanced manner.
    Mr. Horsford. Do you agree you can improve on that?
    Mr. Nedd. Congressman, I think it is always a continuous 
process. But the BLM works very hard to engage every single 
individual who shows an interest.
    Mr. Horsford. Thank you, Madam Chair.
    Ms. Haaland. Thank you, Mr. Horsford. The Chair recognizes 
Mr. Westerman for 5 minutes.
    Mr. Westerman. Thank you, Madam Chair. Thank you, Mr. Nedd. 
And I want to pick up where Mr. Horsford left off.
    Mining is important. When we look at these devices we all 
carry around--I believe the last thing I read is they have 60 
to 65 different elements and minerals, a lot of rare earth 
minerals in those devices. But most of those minerals are 
produced in other countries.
    Before I came here to Congress, I used to do a lot of 
engineering work, not in mining, but I dealt with a lot of 
Federal agencies in permitting, and I know how rigorous the 
permitting process is and what great standards we have in this 
country to make sure that we are good stewards of our 
environment. And I would dare say that we do environmental 
stewardship better than anybody else in the world, not to mean 
we can't improve on it.
    But Mr. Nedd, to elaborate a little bit more on what we do 
to ensure that we are being good environmental stewards, how 
does that stack up with other countries? Have you ever looked 
at that to see how many incidents we have in America in mining, 
compared to other countries, and how our standards stack up to 
the rest of the world?
    Mr. Nedd. Certainly, Congressman. Thank you for the 
question. I have been in energy and minerals development for 
over 12 years, and I have had an opportunity to meet with 
delegates and individuals from foreign countries. And I think 
America is second to none. We certainly work harder than any 
other country to make certain we develop these resources in an 
environmentally responsible manner.
    Mr. Westerman. Thank you for that.
    I would like to yield the remainder of my time to the 
gentleman from Arizona, Mr. Gosar.
    Dr. Gosar. Mr. Nedd, right now the Colorado River has a 
threshold of uranium actually occurring. Is that true?
    Mr. Nedd. I am not familiar with that, to be----
    Dr. Gosar. Of four parts per billion. And that is naturally 
occurring, because what ends up happening is that these breccia 
pipes are soluble in water and air. So, when they are exposed, 
when we get monsoons, when we get snow, it melts, it dissolves, 
and carries it down to the Grand Canyon.
    It is interesting that that is quite a bit lower than what 
the EPA sets as a threshold of 30 parts per billion. Four is 
less than thirty, right?
    Mr. Nedd. That is less than--my math tells me----
    Dr. Gosar. There is some monitoring, it is my 
understanding, that goes on along all this. No one gets away 
without water treatment. We see it in Resolution Copper over 
and over again, where we are remediating the water. We are 
remediating tailing piles, and all that stuff. Yes, I agree, 
the past hasn't been great for mining. But the new mining 
techniques are impressive. You can have your clean air, your 
clean water, and mining, too.
    So, coming back to that, it seems to me that if these are 
naturally occurring uranium piles, and it constantly is 
dissolving into surface water that runs down into the Grand 
Canyon, it would seem to me that it would be better to take it 
out than to leave it in. It just seems kind of odd to me that 
we have this fight over this. It is really impeccable.
    Have you seen this map before? This is the current 
allocation of the Grand Canyon estate.
    Mr. Nedd. I can't say I have seen this exactly. It is 
challenging to my eyes from here.
    Dr. Gosar. Well, my point is mine sites aren't even close 
to the rim, are they?
    Mr. Nedd. No, they aren't.
    Dr. Gosar. That is exactly my point. It is interesting how 
we skew the facts on this application.
    So, remediation, have you seen the remediation on this? 
Have you been there?
    Mr. Nedd. There is ongoing remediation, yes.
    Dr. Gosar. Yes. Typically, once they get it done, it takes 
4 to 7 years in that area. It is about a 40-acre footprint. You 
can't tell. I have actually been out there with groups, and we 
said, ``Find it.'' And they couldn't find it.
    So, it seems like we are leaving it better than we actually 
found it with the mining application. You know, Arizona is 
where whiskey is for drinking and water is for fighting over, 
and we all want clean water. And it seems to me like this is a 
time for a come-to-Jesus moment on this.
    With that, I will yield back.
    Ms. Haaland. Thank you. The Chair recognizes Ms. DeGette 
for 5 minutes.
    Ms. DeGette. Thank you so much, Madam Chair.
    Mr. Nedd, I was very interested in a question that the 
Chair asked you, and I didn't really hear you answer her 
question. She remarked that in her home state the revenues from 
recreation and tourism are, I think she said, about double from 
energy extraction. And we are finding the same thing throughout 
the Rocky Mountain West and Southwest.
    In my home state of Colorado--and you know I am a fourth-
generation Coloradoan--when I was young it was agriculture and 
oil and gas development. But now we are seeing the economy 
shift more and more to recreation and the outdoors. So, I just 
want to ask you a couple of questions about that.
    And these should be pretty easy questions. Does the BLM 
believe that there is a role for protection of public lands 
that would not involve oil and gas leases?
    Mr. Nedd. Thank you for that question, Congresswoman. The 
Secretary believes there are some areas that are special and 
deserve enhanced protection. So, in the multiple use he does 
believe there are some areas that deserve that kind of 
protection----
    Ms. DeGette. Exactly. And multiple use doesn't mean every 
thing every place. It means you have to look at each particular 
area to decide what is the appropriate use. Some areas might be 
appropriate for oil and gas leasing, some might be available 
for mechanized recreation, others might be characterized as 
wilderness or other types of land. So, wouldn't that be an 
accurate description of the BLM's diverse policy?
    Mr. Nedd. Well, the BLM has a multiple use.
    Ms. DeGette. That is right.
    Mr. Nedd. And in that context it is commercial, 
conservation, recreation, and the BLM works hard to, again, 
have a balanced approach to how we develop resources or other 
use.
    Ms. DeGette. Thank you. And I appreciate you clarifying 
that, because what we are seeing in Colorado--and I think 
probably in Arizona and New Mexico, other parts of the 
Southwest--is sometimes we feel that this Administration, their 
default view is to issue oil and gas leases, and then to look 
at the appropriateness later. Is that a policy of your agency, 
sir?
    Mr. Nedd. The President and the Administration have laid 
out what it is calling an all-of-the-above energy strategy. 
And----
    Ms. DeGette. Sir, excuse me. You are not answering my 
question. My question is, is the Administration's policy to 
issue the oil and gas leases first, and then to determine 
whether it is appropriate for that area?
    Mr. Nedd. The Administration's policy is to develop the 
resources we have in an environmentally sound manner.
    Ms. DeGette. Yes, I understand you said that. But how do 
you do that? Do you assume that it is going to be appropriate 
for oil and gas, and then look at it? Or do you have another 
process? It is not a difficult question.
    Mr. Nedd. Well, we go through our land use planning 
process. And from that land use planning process we----
    Ms. DeGette. And what are the criteria in the land use 
planning process?
    Mr. Nedd. The criteria is to look at the values and the 
best use of those properties, and then the BLM makes a decision 
based on that.
    Ms. DeGette. OK. And the values, what determines what the 
values are?
    Mr. Nedd. Congresswoman, there are a number of things that 
go into that, including the economic value, including the 
social values, including listening to stakeholders and 
communities.
    Ms. DeGette. OK. This leads to my last question, which is 
about the Chaco bill. And, by the way, I have been to Chaco, it 
is an amazing, magical place, and I know Mr. Gosar really 
treasures it, as well as the rest of us.
    But 3 weeks ago, the Administration said in front of the 
Senate that it was going to go ahead and do oil and gas 
leasing. Then, apparently, the Secretary went and looked at 
this area with a Senator, and came back and announced that 
there was a moratorium on new leasing for 10 miles of Chaco to 
allow time for Congress to consider legislation. Do you have 
any idea what changed in that interim time and with that visit?
    Mr. Nedd. Congresswoman, I know the Secretary has been out 
there. He says that some places deserve an enhanced protection, 
and he has made a decision, so we are going to follow that 
decision.
    Ms. DeGette. Thank you. And, by the way, I apologize, Mr. 
Gosar. The Grand Canyon bill is in your state, not Chaco. Chaco 
is in the Chair's state, sorry.
    Thank you, and I yield back.
    Ms. Haaland. Thank you, Ms. DeGette. The Chair recognizes 
Mr. Gosar for 5 minutes.
    Dr. Gosar. Mr. Nedd, multiple use was a benefit for the 
western states to have Federal land. But we share the revenues, 
right?
    Mr. Nedd. Yes, Congressman.
    Dr. Gosar. It was supposed to be 50/50 until the Budget Act 
deal Paul Ryan signed, and it is 52/48 now. Isn't that true?
    Mr. Nedd. My understanding, it is less than 50 percent, and 
sometimes we debate what that is----
    Dr. Gosar. Well, 52 to the Federal Government, 48 to the 
states.
    So, now, when we talk about revenue sharing and about this 
multiple use, who generates the biggest chunk of that money? Is 
it mining, oil and gas, or is it recreation?
    Mr. Nedd. It is energy and minerals. It would be mining, 
oil and gas, and such.
    Dr. Gosar. Are you aware of any study, a peer-reviewed 
study, that shows any disturbance to water with fracking?
    Mr. Nedd. Not that I am aware of.
    Dr. Gosar. That is what I keep saying. You can't find that. 
It is hard to find, so with peer-reviewed, it is a lot of scare 
tactics.
    You made a comment that they are not mutually exclusive. 
So, having mining, recreation, all those can be done at the 
same time, can they not?
    Mr. Nedd. There are places where that has been successfully 
done, yes.
    Dr. Gosar. The point of dependable, affordable energy is 
that you have to have an economy that is based on business. Is 
that true?
    Mr. Nedd. From my business economics class, yes.
    Dr. Gosar. OK. So, to be able to travel, you have to have 
some money set aside from a business, unless you work for the 
Federal Government. Right? I mean they just print money. That 
is why we are $22 trillion in debt.
    But you have to have that disposable money to go out to 
enjoy those sites, right?
    Mr. Nedd. That is my understanding, my belief.
    Dr. Gosar. Yes. So, there is the dependency upon a 
predicated, predictable, low-cost energy factor, to the whole 
process of enjoying our public lands. Right?
    Mr. Nedd. That is my understanding.
    Dr. Gosar. Now, I also understand that out West we have 
problems funding our public schools. Have you followed that?
    Mr. Nedd. To some degree in my home state, yes.
    Dr. Gosar. The Federal Government doesn't pay taxes on that 
land, does it?
    Mr. Nedd. I am not familiar with----
    Dr. Gosar. They don't.
    Mr. Nedd. No, they don't.
    Dr. Gosar. They don't, so we are constantly dependent upon 
that multiple use for the money to come into our school 
districts to actually fund public education. And when you don't 
do that, then we are dependent upon robbing Peter to pay Paul.
    There has to be a different way in which to break this 
argument. I brought up earlier that 55 percent--55 percent--of 
the geography of Arizona has been whisked away in a moratorium 
for mining and anything else.
    Let me ask you the next question. When you do a withdrawal 
and you go into, like, a wilderness--this is where they want to 
go, OK? Does that restrict multiple use on that land?
    Mr. Nedd. Generally, when the wilderness is established, it 
restricts various types of use, unless there is a valid and 
existing use, yes.
    Dr. Gosar. OK, so forest thinning is problematic, grazing 
is problematic, even airplane travel is problematic. Is that 
true?
    Mr. Nedd. Again, unless when it was established, the 
legislation or enabling act allowed those uses, yes.
    Dr. Gosar. Well, I distinctly remember in my first term 
having the Park System trying to have no flights over the Grand 
Canyon, and we were able to mitigate that with quiet air 
technology. Are you aware of that at all?
    Mr. Nedd. Vaguely.
    Dr. Gosar. Yes, individuals and environmental groups didn't 
want people that are disabled to be able to enjoy the Grand 
Canyon with a flyover. That is pretty interesting to say, 
``Listen, we are going to wall this off. We are going to abuse 
the multiple-use doctrine that we established with the 
states,'' and then our public schools are faced with constant 
funding problems. This just keeps--you can't make this stuff 
up. You can't make this stuff up.
    Mr. Nedd, I appreciate you. I thank you very, very much. 
And thanks for coming today.
    Ms. Haaland. Thank you, Mr. Gosar. The Chair recognizes 
Chairman Grijalva.
    Mr. Grijalva. Thank you very much, Madam Chair. And thank 
you very much for this hearing on two very significant pieces 
of legislation.
    Mr. Nedd, a couple of quick questions. Do you know, in 
reviewing the legislation and your recommendation, in terms of 
the acreage involved with the Grand Canyon ban, how much of 
that acreage in the legislation is private?
    Mr. Nedd. Congressman, it is my understanding somewhere 
around 19,000 acres is private surface.
    Mr. Grijalva. And the legislation--and I would suggest that 
the Department and the people that work with you go back 
through that legislation. The withdrawal area and where the ban 
on uranium mining would be is all Federal land. There is no 
public land that belongs to the state or municipality. Nor is 
there a private land. We were very scrupulous about making sure 
that was the issue. And based on what you find out, I would 
suggest you to communicate that to the Committee.
    Uranium mining. What is the amount of royalties that we get 
from uranium mining?
    Mr. Nedd. Congressman, I don't have a number to give you, 
in terms of royalty we have collected from----
    Mr. Grijalva. If hardrock mining is considered mining--and, 
right now, based on the 1872 law, the answer is zero, isn't it?
    Mr. Nedd. Again, under the 1872 mining law there are no 
royalties that are paid, Congressman.
    Mr. Grijalva. On Federal land.
    Mr. Nedd. On Federal land, yes.
    Mr. Grijalva. State land adjacent to it they pay. They pay 
royalties there, but they don't pay on Federal land. So, there 
is no net return for the taxpayer from hardrock mining and 
uranium mining in this case, in particular.
    The other issue is, in reviewing specifically uranium 
mining, how much of the extracted uranium on Federal land--or 
any land, any particular private or other public land, or 
tribal land--how much of that is for domestic use, and how much 
is exported?
    Mr. Nedd. Congressman, I do not have a specific figure to 
give you here. We can get that information.
    Mr. Grijalva. That would be very important, because this 
energy self-sufficiency dominance begs the question about how 
much we are sending out of the country with no royalties being 
paid to the American taxpayer.
    Chaco Canyon. How long is the pause for, in terms of the 
protection that was laid out by the Secretary?
    Mr. Nedd. The Secretary said at least for the next year 
there would be no leasing.
    Mr. Grijalva. And implied in that, at least I think I am 
interpreting it as a direction to this Committee to hurry up 
and make that permanent so it is codified into law. Would that 
be an assumption of yours?
    Mr. Nedd. I cannot speak to his assumption. I can speak to 
what I have heard from the Secretary, and he would like to have 
1 year while we continue the resource management plan. And he 
asked us to get a draft out as soon as we can.
    Mr. Grijalva. But if the Secretary felt that for a year, 
based on his conversations with the tribal leaders, other 
community people, and the Senator, obviously, that it was 
necessary to impose a 1-year moratorium on activity and 
extraction around Chaco, one could assume that that was not 
made without consideration for one of the options being studied 
to make that permanent. Correct?
    Mr. Nedd. Again, Congressman, the Secretary has asked for 
the 1-year, and he has asked us to incorporate an alternative 
that represents the views of the tribal leaders.
    Mr. Grijalva. But we heard on that trip that Mr. Lowenthal 
was mentioning, that he led into New Mexico and Chaco Canyon in 
particular--what we heard from tribal leadership across the 
board was a permanent protection for that significant site to 
Native people and to the history of the Nation.
    So, I am taking that to heart, that that is what the 
Secretary wanted. I think we should be about the business of 
giving him what he wants. But that is down the road.
    Thank you. I yield back.
    Ms. Haaland. Thank you, Chairman Grijalva. The Chair 
recognizes Mr. O'Halleran for 5 minutes.
    Mr. O'Halleran. Thank you, Madam Chair. I have been sitting 
here kind of in amazement, but I do have a couple questions. I 
wasn't going to ask this panel any questions, but I have to.
    Does the Department of the Interior have a full concept of 
the groundwater patterns under the Basin that is affected in 
Arizona?
    Mr. Nedd. Congressman, it is my understanding the USGS has 
been doing studies. I cannot speak specifically whether they 
have it full, but I know they have been doing studies for a 
number of years, and have a good idea of sort of what are the 
various aspects of that.
    Mr. O'Halleran. Well, my information coming from the USGS 
is no, they don't. They don't have it for the sea aquifer, the 
area around the Grand Canyon, or many other areas in that area. 
They have been trying to get money and funding to drill 
monitoring wells so they can get that understanding. They had a 
program, as part of a cleanup and restoration of the Navajo 
Nation uranium mines, to find out the contamination process in 
that area, and they have not started that process at all.
    And now it is going to be 2035 if we even get funding for 
them. Are you familiar with the Navajo reservation and the 
uranium mines on the Navajo reservation?
    Mr. Nedd. Peripherally, if I may say that, Congressman.
    Mr. O'Halleran. The 530-some mines that have not been 
reclamated.
    Mr. Nedd. I do not have the exact number, but----
    Mr. O'Halleran. Earlier we heard that 3 or 4 percent parts 
per billion was a dangerous level for uranium. Is that true?
    Mr. Nedd. Again, I do not have that specificity of detail, 
Congressman.
    Mr. O'Halleran. Well, the EPA, on all those 500 or some odd 
mines has indicated that none of them are safe. Not one of them 
is safe. And I have an issue, when it is has been over 70 years 
that these uranium mines have been exposed to our citizens, and 
yet nothing has been cleaned up.
    We had to go out and sue. Did you know that, in order to 
get the money to help clean up, that we had to go out and sue 
mining companies in order to get some of the money? Not all of 
it, just some of it, $1.7 billion. Did you know that?
    Mr. Nedd. Again, I don't have specifics on that, 
Congressman, that I can respond to.
    Mr. O'Halleran. Thank you. Do you know that the U.S. 
government is on the hook for the rest of it, the citizens of 
America, and that right now is running easily in the hundreds 
of millions of dollars, and with an unknown amount of money 
into the future? Because that only addresses about 200 mines of 
the 500-and-some-odd mines that need to be remediated. Did you 
know that?
    Mr. Nedd. Again, no, Congressman.
    Mr. O'Halleran. Have you ever been down to Havasupai?
    Mr. Nedd. I have.
    Mr. O'Halleran. What do you think of it?
    Mr. Nedd. Like much of the West--well, much of the United 
States--I think it is a beautiful area, and I enjoy visiting 
the various parts of the western United States.
    Mr. O'Halleran. Great. Well, welcome to Congressional 
District 1, and I am sure they like folks like you being down 
there.
    On the other case, do you know if that water is safe or 
not? Their main source of water, their only source of water, 
and a tremendous impact on their economy, do you know if that 
is safe or not?
    Mr. Nedd. Again, Congressman, I don't have the specific 
details. However, while I was in that area I drank water, so I 
am assuming the water I drank is safe.
    Mr. O'Halleran. Right now, but we don't know with 
additional uranium mining, we don't know if it is safe or not 
right now from uranium contamination.
    Do you know that there is a mine in production on and off? 
Because the prices in America are so low that that is why we 
are seeing so much import--or so high we are seeing so much 
import from outside the country on uranium.
    And we have heard statistics earlier about the amount of 
uranium on a total basis in America that is within the area 
that we are talking about. But that mine within 6 miles from 
the Grand Canyon has had a multitude of issues of not paying 
correct attention to the regulatory issues on how to address 
the mine in and of itself. It has taken water out of that mine 
and sprayed it all over the land up there. It has not 
appropriately addressed the issues to the Arizona Department of 
Environmental Quality, or to the Federal Government. And there 
appears to have not been enough thought in this whole process, 
as far as how much--and I will yield, I will get back to that 
later.
    Ms. Haaland. Thank you, Mr. O'Halleran. I thank the 
witnesses for their valuable testimony and the Members for 
their questions.
    Thank you very much, Mr. Nedd, for taking your time to be 
here with us today. And I now invite the second panel to take 
their places at the witness table.
    [Pause.]
    Ms. Haaland. As with the first panel, oral statements are 
limited to 5 minutes, but your entire statement will be part of 
the hearing record.
    The lights in front of you will turn yellow when there is 1 
minute left and red when time has expired.
    After the witnesses have testified, Members will be given 
the opportunity to ask questions.
    The Chair now recognizes Chairman Grijalva of the Natural 
Resources Committee.
    Mr. Grijalva. Thank you very much. I thank you, Chairwoman 
Haaland, I appreciate this hearing very much.
    I wasn't planning on making an opening statement on today's 
proceeding, but I feel the need to respond to some of the 
misinformation that has been put out about the legislation, 
H.R. 1373, the Grand Canyon Centennial Protection Act.
    I want to make sure we are all looking at the same bill 
text, because it seems there is some confusion between the bill 
and previous versions which included a national monument. This 
bill is a simple mineral withdrawal. It doesn't limit multiple 
use. It doesn't limit non-mining activities in the region, 
period.
    Letters of opposition submitted to the record already today 
oppose a monument. But bipartisan polling shows that 78 percent 
of Arizonans support a mineral withdrawal around the Grand 
Canyon. We have received letters of support from across the 
spectrum from tribal communities, from local governments, those 
governments most impacted by this ban, and the state has not 
taken a position on the proposal. To suggest the bill receives 
significant opposition is factually incorrect. We have received 
support from hundreds of businesses and community 
organizations, and thousands of Arizonans who recognize that 
these protections are the right path forward for northern 
Arizona and the Grand Canyon.
    This legislation only involves Federal land, not other 
public lands belonging to other jurisdictions, nor private 
land.
    I want to thank my colleague, Mr. O'Halleran, who 
represents the vast majority of the lands touched by this 
proposal, who has been a strong voice for advocating for these 
protections, and a good partner in putting this legislation 
together.
    The people of Arizona know the facts. Uranium mining is a 
threat to our precious water resources, to our tribal 
communities, and to one of our greatest national treasures.
    I strongly support the legislation, Madam Chair. I urge my 
colleagues to make sure they are looking at the most updated 
version of this proposal, and that they are considering the 
facts when they weigh in on the legislation.
    Again, Ms. Haaland, thank you and I look forward to today's 
proceeding. I appreciate the indulgence, and I yield back.
    Ms. Haaland. Thank you, Chairman.
    The Chair now recognizes Mr. O'Halleran for 30 seconds to 
introduce the Honorable Carletta Tilousi.
    Mr. O'Halleran. Thank you, Madam Chair. And let me get to 
that part of my notes, please.
    It is my pleasure to introduce Councilwoman Carletta 
Tilousi of the Havasupai Tribe. Councilwoman Tilousi has been a 
tireless advocate of the Havasupai Tribe and the Grand Canyon. 
She was born and raised in Supai Village at the bottom of the 
Grand Canyon, the Councilwoman is committed to ensuring that 
the Havasupai ancestral homeland remains a safe place to live. 
The Councilwoman has served on the Tribal Council for seven 
terms, and has served as a U.S. delegate. The Councilwoman is 
also president of the Red Rock Foundation, which focuses on 
tribal, educational, and environmental issues.
    Ms. Haaland. Thank you, Mr. O'Halleran.
    And Councilwoman, before you begin your testimony, I notice 
that you have a number of tribal members with you today, and I 
would like to acknowledge their presence and thank all of you 
also for coming today. Thank you so much.
    Councilwoman, you have 5 minutes.

STATEMENT OF THE HON. CARLETTA TILOUSI, COUNCILWOMAN, HAVASUPAI 
                     TRIBE, SUPAI, ARIZONA

    Ms. Tilousi. Good morning, Chairwoman Haaland, Ranking 
Member, and Subcommittee members. My name is Carletta Tilousi. 
I am an elected member of the Havasupai Tribal Council. I am 
here on behalf of the Havasupai Tribe to support H.R. 1373, the 
Grand Canyon Centennial Protection Act, which we understand 
will permanently ban new uranium mines on the rims of our 
canyon home, and any new mining claims.
    There are currently 831 uranium claims on Federal lands 
next to my reservation, the Havasupai Tribe, and also the Grand 
Canyon National Park.
    The Tribe supports the bill because it will permanently 
protect a million acres of public lands from mining that will 
contaminate Havasu Creek in my village.
    Our village also has beautiful waterfalls that attract 
millions of tourists from all around the world. However, many 
Americans feel falsely, or believe that the Grand Canyon is 
already protected from mining and development. However, the 
1872 Mining Law allows any mining company to come on to Federal 
public lands and stake claims and conduct mining operations on 
public lands.
    Uranium mining has already poisoned and will continue to 
poison the springs and waters of my Grand Canyon home. It will 
be poisoning the land, the plants, the animals, and the people 
that live there, including all the visitors that come visit the 
Grand Canyon.
    We, the Havasupai people, live in one of the most remote 
canyons in North America. Our village is located at the bottom 
of the Grand Canyon, only accessible by horse, helicopter, or 
hiking in.
    The Havasupai means ``people of the blue-green water.'' My 
family and my ancestors have lived in the canyon for thousands 
of years. Havasupai Creek is spring-fed and naturally flows 
through our village, year-round. It is our main source of water 
that has sustained my family, my people, the plants, and 
animals for many years. It has created beautiful blue-green 
waterfalls that we live and enjoy in our home.
    The Tribe has fought for over 30 years to protect our 
waters from current and proposed mining on Federal lands 
located on the rims of the Grand Canyon.
    Currently, a uranium mine called Canyon Mine is located 
right above Havasu Creek and in the flood plain of the canyon. 
Our village has recently experienced devastating floods that 
came right through our village, coming right off the rims of 
the canyon. There is a large potential of groundwater 
contamination from the mines that are being proposed on the rim 
of the Grand Canyon. The water from Havasu Creek flows directly 
through my village and drains right into the Colorado River, 
which is the primary source of water for millions of cities 
located downstream, such as Las Vegas, Phoenix, Tucson, and Los 
Angeles.
    The legacy of uranium mining has already caused radioactive 
contamination of the Colorado River, and any additional 
contamination will add further to the problem.
    The catastrophic effects of uranium mining is well known to 
Native Americans in the Southwest. There are hundreds of 
contaminated sites in Arizona and New Mexico that were left 
abandoned by uranium mining.
    After decades of struggling, Canyon Mine recently opened 
and immediately caused unanticipated contamination. Reports 
recently showed that Canyon Mine left and pierced a perched 
aquifer, causing 18 gallons of water per minute to leak into 
the mine shaft since early 2017.
    In 2018, 9.6 million gallons of groundwater spilled into 
the mining shaft at Canyon Mine.
    The mining company is supposed to store the contaminated 
water on site, per the plan of operations approved by the 
Kaibab Forest Service. They did not have the proper plan or the 
back-up plan to address this issue, so they started spraying it 
all over the site in attempts to evaporate the pond.
    Canyon Mine sits above the largest aquifer in the 
Southwest, a sole source for Havasu Creek and the Grand Canyon 
National Park.
    According to the National Academy of Science, there are no 
safe levels of consumption of ionizing radiation. The only safe 
level is zero. The Havasupai Tribe is on the front lines of 
uranium contamination. Every day, my people fear groundwater 
contamination. Once our water is contaminated, there will be no 
more Havasupai, and we will continue to affect all humans and 
animals living downstream.
    For these reasons we, the Havasupai, request your support 
for H.R. 1373 to permanently protect the natural resources of 
Grand Canyon that will include the animals, plants, and the 
people that live there, as well as millions of visitors around 
the world.
    I have lost direct family and friends because they were 
exposed to uranium. Every day I miss them, and I hope that 
nobody will experience the pain that I have went through.
    Thank you for allowing me to tell my story.

    [The prepared statement of Ms. Tilousi follows:]
Prepared Statement of Carletta Tilousi, Tribal Council of the Havasupai 
                           Tribe on H.R. 1373
    My name is Carletta Tilousi and I am an elected Member of the 
Havasupai Tribal Council. I am here on behalf of the Havasupai Tribe to 
support H.R. 1373, which will permanently ban uranium mining and the 
establishment of new mining claims on Federal lands located next to the 
Grand Canyon National Park and the Havasupai Indian Reservation. The 
Tribe supports the Bill because it will permanently protect 1 million 
acres of public lands from mining, including uranium mining that 
threatens Havasu Creek, which flows through our homeland and forms our 
famous waterfalls.
    The Grand Canyon is a world famous natural wonder and a national 
treasure. Millions of people visit the Grand Canyon every year. Many 
Americans falsely believe that public lands like the Grand Canyon, and 
the Federal lands surrounding the Grand Canyon, are already protected 
from development and mining. However, the 1872 Mining Law, that is 
still a valid U.S. law, allows mining companies to stake mining claims 
and conduct mining operations on public lands.
    Uranium mining has already poisoned and will continue to poison the 
Grand Canyon. It will poison the groundwater and aquifers that feed 
into the Colorado River. It will poison the land, the plants, the 
animals, the people that live there, and the visitors.
    The Havasupai Tribe is one of the most remote communities in North 
America. We are located at the bottom of the Grand Canyon in Supai 
Village, which is accessible only by horse, helicopter, or 8-mile hike. 
My people have lived in the canyon for thousands of years. There are no 
roads or cars in our Village. Havasu Creek is a natural, spring-fed 
creek that flows through our Village year-round. It is our only source 
of water--for our people, livestock, crops, and orchards. It creates 
beautiful blue-green waterfalls that are visited by thousands of 
tourists each year. It is the lifeblood of our Tribe. Havasupai means 
``People of the Blue Green Waters.'' The Tribe has fought for over 30 
years to save our waters from current and proposed mining operations on 
Federal lands next to the Grand Canyon National Park and the Havasupai 
Indian Reservation. Currently, a uranium mine, called Canyon Mine, is 
located above Supai Village in the Havasu Creek watershed and 
floodplain. In fact, our village has experienced several recent 
devastating floods.
    The water from Havasu Creek flows into the Colorado River, which is 
the primary source of water for millions of people in large cities 
located downstream including Las Vegas, Phoenix, Tucson, and Los 
Angeles. The legacy of uranium mining has already caused radioactive 
contamination of the Colorado River, and additional contamination will 
only add to the problem.
    The catastrophic effects of uranium mining are well-known to the 
Native Peoples of the Southwest. There are hundreds of contaminated 
mining sites in Arizona and New Mexico that have been abandoned by 
mining companies. After decades of struggle, the Canyon Mine recently 
opened and has immediately caused unanticipated contamination. For 
example, reports show that the mining shaft pierced a perched aquifer 
causing approximately 5 to 9 gallons of water per minute to leak into 
the mine shaft since early 2017. In 2018 alone, 96,000,000 gallons of 
groundwater spilled into the mining shaft at Canyon Mine. The mining 
company must store the contaminated water on site; however, they do not 
have enough capacity, so they spray the contaminated water into the air 
in an attempt to speed evaporation.
    Canyon Mine sits above the largest aquifer in the Southwest. This 
aquifer is the sole source of water for Havasu Creek, and Grand Canyon 
National Park. We share the same water. According to the National 
Academy of Sciences, there is no safe level of human consumption of 
ionizing radiation--the only safe level is zero. In total, as of 2018, 
there are 831 uranium mining claims on Federal lands surrounding the 
Grand Canyon. These cannot be allowed to proceed.
    The Havasupai Tribe is on the front line of any uranium mining 
contamination, but all people, all life downstream will be affected. 
For these reasons, the Havasupai Tribe requests your support for H.R. 
1373 to permanently protect the natural resources of the Grand Canyon 
including the animals, plants, and the people that live there as well 
as the millions of visitors from around the world.

                                 ______
                                 

    Ms. Haaland. Thank you, Councilwoman. The Chair now 
recognizes Mr. O'Halleran for 30 seconds to introduce the 
Honorable Coral Evans.
    Mr. O'Halleran. It is my pleasure to introduce Flagstaff 
Mayor Coral Evans. Mayor Evans is the third generation of her 
family to live in Flagstaff, where she is a tireless advocate 
for improving the lives of Flagstaff residents and ensuring the 
city's tourism economy remains strong.
    Mayor Evans has been recognized by numerous business groups 
for her efforts to strengthen Flagstaff's economy. These awards 
include the Greater Flagstaff Chamber of Commerce's Anthem 
Award, and she was named Arizona's Most Influential Woman in 
Business by Arizona Business Magazine.
    And she has a tireless concern about the safety and welfare 
of the citizens of Flagstaff.
    Thank you, Madam Chair.

 STATEMENT OF THE HON. CORAL EVANS, MAYOR, CITY OF FLAGSTAFF, 
                            ARIZONA

    Ms. Evans. Chairwoman Haaland, Ranking Member Young, 
Subcommittee members and guests, my name is Coral Evans. I am 
the Mayor of the city of Flagstaff, Arizona. Thank you for 
allowing me to be here today to testify on an issue that is 
very important to my community: H.R. 1373. I ask that my entire 
statement be included in the record.
    I would also like to say thank you to our Congressman, Tom 
O'Halleran, and Chairman Grijalva for their support and 
leadership on this issue.
    Flagstaff is known as the gateway to the Grand Canyon. It 
is the largest city in northern Arizona, with a growing 
population of over 75,000 people. It is the most popular 
starting point for those visiting the Grand Canyon National 
Park, one of the seven natural wonders of the world. Our city 
and businesses rely on the nearly 6 million visitors who come 
to the Grand Canyon each year and visit and stay in our 
community, which is only 85 miles from the national park.
    The Grand Canyon National Park is the lifeblood of our 
community and our economy, and protecting it now and for future 
generations is of paramount interest. For this reason we 
strongly support H.R. 1373, the Grand Canyon Centennial 
Protection Act. As you know, this legislation will enact a 
permanent moratorium on uranium mining for approximately 1 
million acres in and around Grand Canyon National Park.
    Let me be clear. Uranium mining is important in the United 
States and the world economy, but uranium contamination is not. 
Between 1956 and 2009, it is estimated that mining companies 
extracted almost 23 million pounds of uranium in the Grand 
Canyon region as a resource for nuclear power plants and 
weapons. Unfortunately, the history of uranium in northern 
Arizona is one of destruction and waste. It is estimated that 
there are nearly 500 abandoned uranium mines on the Navajo 
Reservation alone, and estimates of nearly 2,000 more mines 
abandoned in and around the Grand Canyon. These abandoned mines 
are permanently destroying natural water resources and land, 
and could have irreversible effects on the Grand Canyon 
watershed and the land around it. We cannot allow this to 
happen to one of nature's most beautiful landscapes.
    Water in Arizona is our most precious resource. It is life. 
For this reason, Madam Chair, the city of Flagstaff has passed 
a resolution in support of this bill. I ask that you 
unanimously consent that this resolution will be inserted into 
the hearing record.
    Chairman Grijalva has and continues to be a champion for 
our community and the Grand Canyon. His commitment to this 
issue is well known. We applaud his determination on this 
critical issue.
    Unfortunately, in 2017, the U.S. Forest Service began the 
process of lifting the uranium ban at the Grand Canyon. If the 
ban is lifted, what are some of the potential impacts on 
Flagstaff?
    First, our water supply could be permanently polluted. This 
is unacceptable. We have a limited water supply, and we work 
extremely hard to protect it.
    Second, the ban could also affect tourism. Most of our 
economy is based on tourism in the Grand Canyon and the 
surrounding areas. Many of the businesses and their staff, as 
well as support workers for the Grand Canyon and other tourist-
based industries, live and work in Flagstaff.
    Finally, the city is concerned that lifting the 20-year 
moratorium may lead to dangerous and harmful radioactive 
materials being transported through our community.
    Madam Chair, the Administration has the obligation to clean 
up the hundreds--potentially thousands--of abandoned mines in 
the region, some of which have permanently polluted aquifers, 
negatively impacting many in northern Arizona, including 
sovereign nations. Before the Administration considers lifting 
the ban, they need to clean up every single one of the legacy 
mines. This would be the right thing to do.
    Madam Chair, it is extremely important to enact H.R. 1373 
to permanently protect these lands and water that are so 
valuable and precious to Flagstaff, Arizona and surrounding 
communities. We are extremely thankful to Chairman Grijalva for 
championing this issue, and we thank you for your leadership in 
holding this hearing today. I am happy to answer any questions 
that you or any of the other Subcommittee members may have. 
Thank you for this opportunity.

    [The prepared statement of Ms. Evans follows:]
Prepared Statement of Coral Evans, Mayor, City of Flagstaff, Arizona on 
         H.R. 1373, the Grand Canyon Centennial Protection Act
    Chairwoman Haaland, Ranking Member Young, Subcommittee members and 
guests, I am Coral Evans, Mayor of Flagstaff, Arizona. Thank you for 
allowing me to be here today to testify on an issue that is so 
important to my community, H.R. 1373. I ask that my entire statement be 
included in the record. I also want to thank our Congressman, Tom 
O'Halleran, and Chairman Grijalva for their support and leadership on 
this issue.
    Flagstaff is known as the gateway to the Grand Canyon. It is the 
largest city in northern Arizona with a growing population of over 
75,000 and is the most popular launching point for those visiting Grand 
Canyon National Park, one of the seven natural wonders of the world.
    Our city and our businesses are reliant on the nearly 6 million 
visitors who come to the Grand Canyon each year and visit and stay in 
our community, which is only a short 85 miles to the National Park. We 
welcome these visitors with some of the finest amenities, including 
great hotels, eclectic restaurants and some of the finest craft 
breweries in the United States. All of this is housed in a community 
surrounded by some of the most beautiful peaks in the West and land 
that is 7,000 feet above sea level, which is a welcome respite from the 
desert heat.
    Grand Canyon National Park is the lifeblood of our community and 
economy and protecting it now and for future generations is of 
paramount interest. For this reason, we strongly support H.R. 1373, the 
Grand Canyon Centennial Protection Act. As you know, this legislation 
will enact a permanent moratorium on uranium mining for approximately 1 
million acres in and around Grand Canyon National Park.
    Let me be clear: uranium mining is important to the United States 
and world economy, but uranium contamination is not. Between 1956 and 
2009, it is estimated that mining companies extracted approximately 
23.3 million pounds of uranium in the Grand Canyon region as a resource 
for nuclear power plants and weapons. Unfortunately, its history in 
northern Arizona is one of degradation and waste. It is estimated that 
there are nearly 500 abandoned uranium mines on the Navajo Nation 
reservation alone and estimates of nearly 2,000 more abandoned in and 
around the Grand Canyon. These abandoned mines are permanently 
destroying water resources and land, and could have irreversible 
effects on the Grand Canyon watershed and land around it. We cannot 
allow this to happen to one of nature's most beautiful landscapes. In 
Arizona water is our most precious resource, it is life. We must 
protect this asset. The future of our communities is dependent on water 
and access to that water.
    For this reason, Madame Chair, the city of Flagstaff has passed a 
resolution in support of this bill. I ask for unanimous consent that 
this resolution be inserted in the hearing record: https://
naturalresources.house.gov/imo/media/doc/Flagstaff_2019 
_FinalResolution.pdf.
    Chairman Grijalva has, and continues to be, a champion for our 
community and the Grand Canyon. His commitment to this issue is well 
known over the years. In March 2008, Chairman Grijalva introduced his 
first bill to withdraw lands from mineral exploration near the Grand 
Canyon. Over the years, he has held several Committee hearings on this 
subject at the Grand Canyon and pressured both Republican and 
Democratic administrations to withdraw these sensitive lands from 
exploration. Because of his continued pressure, in January 2012, then-
Interior Secretary Ken Salazar ordered a 20-year moratorium on new 
mining claims in the approximately 1 million acres in and around the 
Grand Canyon. We applaud his determination on this critical issue. 
Unfortunately, however, in November 2017, the U.S. Forest Service began 
the process of lifting the uranium ban at the Grand Canyon.
    If the ban is lifted, what are some of the potential effects on 
Flagstaff? First, our water supply could be permanently polluted. This 
is unacceptable. We already have a limited water supply and we work 
incredibly hard to protect these resources. The City has gone so far as 
to purchase the Red Gap Ranch, 40 miles east of town, to secure an 
additional water source to ensure that we have a 100-year water supply. 
In addition, we have an aggressive water recycling program and other 
sustainability measures to ensure that we protect our water resources. 
Every summer our residents are requested to limit their water use to 
comply with our robust water conservation enforcement program. Water is 
a precious commodity to the City and if we somehow poison our aquifers, 
we simply can't survive.
    Second, lifting the uranium ban will also effect tourism. Most of 
Flagstaff's economy is based on tourism to the Grand Canyon and 
surrounding areas. For instance, we have several rafting outfits and 
other tour operators that conduct business out of the City. Many of 
these businesses and their staffs, as well as support workers for the 
Grand Canyon and these tourist-based industries, live and work in 
Flagstaff. If tourists are reluctant to visit the Grand Canyon because 
of potential exposure and/or opposition to uranium mining, this could 
negatively impact some of our businesses and economy.
    Finally, the City is concerned that lifting the 20-year moratorium 
may lead to dangerous and harmful radioactive materials being 
transported through the City. Again, Flagstaff has very limited water 
supplies and a catastrophic accident or leak in and around Flagstaff 
may permanently and negatively affect the water supply that is so 
critical to the City's existence. We can't allow this to happen.
    Madame Chair, the Administration has an obligation to clean up the 
hundreds, potentially thousands, of abandoned mines in the region some 
of which have permanently polluted aquifers that have negatively 
impacted many in northern Arizona including sovereign nations. Before 
the Administration considers lifting the ban, they need to clean up 
every one of the legacy mines. It is the right thing to do.
    Madame Chair, it is critically important to enact H.R. 1373 to 
permanently protect these lands and water that are so valuable and 
precious to Flagstaff and surrounding communities. We are incredibly 
thankful that Chairman Grijalva is championing this issue and we thank 
you for your leadership in holding this hearing today. I'm happy to 
answer any questions you or the other Subcommittee members may have. 
Thank you for the opportunity to be here today.

                                 ______
                                 

    Ms. Haaland. Thank you very much, Mayor Evans.
    The Chair now recognizes Ms. Amber Reimondo, Energy Program 
Director at the Grand Canyon Trust.

  STATEMENT OF AMBER REIMONDO, ENERGY PROGRAM DIRECTOR, GRAND 
                CANYON TRUST, FLAGSTAFF, ARIZONA

    Ms. Reimondo. Good morning. Thank you, Chairwoman and 
Ranking Member Curtis, and all the Committee members for this 
opportunity to speak in support of the Grand Canyon Centennial 
Protection Act.
    I am Amber Reimondo, the Energy Program Director for the 
Grand Canyon Trust. I am truly honored to be here to speak 
today alongside my hometown mayor, the Honorable Coral Evans, 
and the Honorable Carletta Tilousi, Councilwoman of the 
Havasupai Tribe. We are allied members of diverse communities 
who are directly and adversely affected by ongoing uranium 
mining in the Grand Canyon region. We are united in support of 
permanently protecting the Grand Canyon from uranium mining.
    The Grand Canyon Trust is a regional conservation 
organization based in Flagstaff, Arizona. The trust's mission 
is to safeguard the wonders of the Grand Canyon and the 
Colorado plateau, while supporting the rights of its Native 
peoples. We have been working to protect the Grand Canyon from 
uranium mining and other threats since the trust was founded in 
1985.
    The Grand Canyon Trust supports Havasupai's fight to 
prevent their sole source of drinking water from being 
permanently contaminated by the Canyon Mine. We support 
protecting the watershed, ecosystems, and cultural heritage of 
the Grand Canyon region for current and future generations.
    For seven decades, uranium mining has left a deadly legacy 
of air, water, and soil contamination across Utah, Colorado, 
New Mexico, and Arizona. In 2005, the Navajo Nation banned 
uranium mining on their land, encompassing nearly 18 million 
acres located in three of the Four Corners states. The 
Havasupai, Hopi, and other Grand Canyon-affiliated tribes have 
also banned uranium mining, and are unified in supporting the 
administrative 20-year ban on new claims on more than a million 
acres of public lands surrounding Grand Canyon National Park.
    Despite the temporary ban ordered by the Secretary of the 
Interior in 2012, pre-existing mines have already demonstrated 
the risks of uranium mining on public lands within the 
withdrawal area. Since the spring of 2017, miners have needed 
to continually remove contaminated water from the mine shaft at 
Canyon uranium mine.
    When re-opening the Pinenut Mine in 2009, where the mine 
shaft was supposedly capped and safe from water intrusion, the 
company discovered that the mine shaft had actually flooded 
with nearly 3 million gallons of contaminated water that was 
contaminated by being exposed to uranium ore.
    And at the nearby Kanab North Mine, located on the Grand 
Canyon's north rim, radioactive dust has contaminated soils 
well beyond its fenced perimeter.
    Uranium mining in the Grand Canyon region is an unnecessary 
threat to our tourism-based economies and the people who depend 
on the Grand Canyon. The Grand Canyon Trust supports 
communities, businesses, and hundreds of education, science, 
and other organizations that are sustained by the Grand 
Canyon's enduring assets of clean air and water, and by its 
natural human heritage.
    The National Park Service recently reported that 6.3 
million visitors to Grand Canyon National Park in 2018 spent 
$947 million in communities near the park. The spending 
supported 12,558 jobs in the local area, and had a cumulative 
benefit to the local economy of $1.2 billion.
    Breccia pipe uranium mining supports few and temporary 
jobs. Permanently contaminating the Grand Canyon threatens the 
loss of billions of dollars to the backbone of our regional 
economy.
    Through the Grand Canyon Centennial Protection Act we have 
an opportunity to prevent new uranium mining on 1 million acres 
of critically important public lands that border Grand Canyon 
National Park, and in so doing the opportunity to safeguard the 
Grand Canyon region and the people, wildlife, and economies 
that depend upon it. In this Grand Canyon National Park 
Centennial year, we proudly join with citizens of many 
political persuasions and personal histories to stand with one 
united voice in supporting the Grand Canyon Centennial 
Protection Act.
    In conclusion, we want to thank the Havasupai people for 
being the Grand Canyon's guardians since time immemorial. We 
also want to thank Chairman Grijalva for his years of 
leadership in defending the Grand Canyon. And last, we thank 
the bill's co-sponsors and the majority of Arizona voters who 
support permanently protecting the Grand Canyon from uranium 
mining.
    I will be happy to answer any questions.

    [The prepared statement of Ms. Reimondo follows:]
 Prepared Statement of Amber Reimondo, Energy Program Director, Grand 
                       Canyon Trust on H.R. 1373
    Thank you, Chairwoman Haaland, Chairman Grijalva, and Committee 
members for this opportunity to speak in support of the Grand Canyon 
Centennial Protection Act.
    I am Amber Reimondo, the energy program director for the Grand 
Canyon Trust. I am truly honored to speak today, alongside my hometown 
mayor, the Honorable Coral Evans, and the Honorable Carletta Tilousi, 
Councilwoman of the Havasupai Tribe. We are allied members of diverse 
communities who are directly and adversely affected by ongoing uranium 
mining in the Grand Canyon region. We are united in support of 
permanently protecting the Grand Canyon from uranium mining.
    The Grand Canyon Trust is a regional conservation organization 
based in Flagstaff, Arizona. The Trust's mission is: ``To safeguard the 
wonders of the Grand Canyon and the Colorado Plateau, while supporting 
the rights of its Native peoples.'' We have been working to protect the 
Grand Canyon from uranium mining and other threats since the Trust was 
founded in 1985.
    The Grand Canyon Trust supports Havasupai's fight to prevent their 
sole source of drinking water from being permanently contaminated by 
the Canyon Mine. We support protecting the watershed, ecosystem, and 
cultural heritage of the Grand Canyon region for current and future 
generations.
    For seven decades, uranium mining has left a deadly legacy of air, 
water, and soil contamination across Utah, Colorado, New Mexico, and 
Arizona. In 2005, the Navajo Nation banned uranium mining on their 
land, encompassing nearly 18 million acres located in three of the Four 
Corners states. The Havasupai, Hualapai, Hopi, and other Grand Canyon-
affiliated tribes have also banned uranium mining and are unified in 
supporting the administrative 20-year ban on new claims on more than a 
million acres of public lands surrounding Grand Canyon National Park.
    Despite the temporary ban ordered by the Secretary of the Interior 
in 2012, pre-existing mines have already demonstrated the risks of 
uranium mining on public lands within the withdrawal area. Since the 
spring of 2017, miners have needed to continually remove contaminated 
water from the mineshaft at Canyon uranium mine. When re-opening 
Pinenut Mine in 2009, where the mineshaft was supposedly capped and 
safe from water intrusion, the company discovered that the mineshaft 
was flooded with nearly 3 million gallons of water contaminated by 
exposed uranium ore. And at the nearby Kanab North Mine, located on the 
Grand Canyon's north rim, radioactive dust has contaminated soils well 
beyond its fenced perimeter.
    Uranium mining in the Grand Canyon region is an unnecessary threat 
to our tourism-based economies and the people who depend on the Grand 
Canyon. The Grand Canyon Trust supports communities, businesses, and 
hundreds of education, science, and other organizations that are 
sustained by the Grand Canyon's enduring assets of clean air and water 
and by its natural and human heritage.
    The National Park Service recently reported that ``6.3 million 
visitors to Grand Canyon National Park in 2018 spent $947 million in 
communities near the park. That spending supported 12,558 jobs in the 
local area and had a cumulative benefit to the local economy of $1.2 
billion.'' \1\
---------------------------------------------------------------------------
    \1\ https://www.nps.gov/grca/learn/news/grand-canyon-economic-
benefit.htm.
---------------------------------------------------------------------------
    Breccia pipe uranium mining supports few, and temporary jobs. 
Permanently contaminating the Grand Canyon threatens the loss of 
billions of dollars to the backbone of our regional economy.
    Through the Grand Canyon Centennial Protection Act, we have an 
opportunity to prevent new uranium mining on 1 million acres of 
critically important public lands bordering Grand Canyon National Park, 
and in so doing, the opportunity to safeguard the Grand Canyon region, 
and the people, wildlife, and economies that depend on it.
    In this, Grand Canyon National Park's centennial year, we proudly 
join with citizens--of many political persuasions and personal 
histories--to stand with one united voice in supporting the Grand 
Canyon Centennial Protection Act.
    In conclusion, we want to thank the Havasupai people for being the 
Grand Canyon's guardians since time immemorial. We also want to thank 
Chairman Grijalva for his years of leadership in defending the Grand 
Canyon. And last, we thank the bill's co-sponsors and the majority of 
Arizona voters \2\ who support permanently protecting the Grand Canyon 
from uranium mining.
---------------------------------------------------------------------------
    \2\ https://www.grandcanyontrust.org/sites/default/files/resources/
Grand_Canyon_Arizona_Poll_ Key_Findings_Aug_2018.pdf.

---------------------------------------------------------------------------
    I'll be happy to answer any of your questions.

                                 ______
                                 

    Ms. Haaland. Thank you so much, Ms. Reimondo.
    The Chair now recognizes the Honorable Buster Johnson, 
District 3 Supervisor on the Mohave County Board of 
Supervisors.
    You have 5 minutes, Mr. Johnson.

STATEMENT OF THE HON. BUSTER D. JOHNSON, SUPERVISOR DISTRICT 3, 
 MOHAVE COUNTY BOARD OF SUPERVISORS, LAKE HAVASU CITY, ARIZONA

    Mr. Johnson. Thank you, Madam Chair. It is an honor to 
appear before you to represent Mohave County, the county most 
impacted by the Chairman's bill.
    Public service is a noble calling. After nearly 23 years of 
service, the one thing upon which I pride myself more than 
anything else is keeping my word, honoring the commitments 
which others and I have made to the people of Arizona, which 
brings you to the bill before us. Fundamentally, it is a direct 
attempt to undo the commitment given in 1984 to the people of 
Arizona.
    Senator McCain shared that Chairman Udall required of both 
industry and environmentalists compromises that led to the 
creation of over 1 million acres of BLM and Forest Service 
wilderness as buffers to the Grand Canyon National Park in 
exchange for release of lands to multiple use. Validation of 
the 1984 compromise comes from the statements of numerous 
individuals who were privy to, including two witnesses who were 
stakeholders upon whom Chairman Udall relied to gain passage of 
the 1984 compromise: Mr. Russ Butcher, who served as Southwest 
Director of the National Park and Conservation Society; and 
Bill Lamb, who served as a BLM area manager of the Arizona 
Strip.
    But this agreement was real, as evidenced by the fact that 
hardrock mining was allowed in every subsequent Federal land 
management plan until the withdrawal. This is what District 
Manager Bill Lamb said about his role in opening it up--I 
quote:

    ``In 1982, I was assigned to be the District Manager for 
the BLM's Arizona Strip. At that time there were serious 
negotiations going on with environmental organizations, uranium 
mining proponents, and the BLM to work out an arrangement where 
lands could be designated for wilderness, and yet provide for 
responsible uranium development. I worked closely with 
congressional delegations in both Utah and Arizona, the Sierra 
Club, National Parks and Recreation Associations, and other 
groups, including the local residents, to find a workable 
solution to the wilderness-vs.-uranium issue.
    With a clear understanding by all stakeholders that any 
conflict between wilderness and mining would be resolved, a 
wilderness bill was passed creating the Arizona Wilderness Act. 
After some 27 years it seems that those negotiations and 
agreements have been forgotten, where the long hours, days, and 
months of negotiation through field trips, face-to-face 
meetings, conference calls, and written communications brought 
a compromise that provided a balanced use of the Arizona Strip. 
These efforts would be lost with the mineral withdrawal 
proposed for the area.
    The responsible uranium mining after establishment of the 
wilderness in 1984 has not had any negative impacts on the 
wilderness areas or the Grand Canyon National Park. A trip to 
the mining sites has shown that restoration is complete and 
natural where any evidence of mining cannot be found. A 
withdrawal from mining entry is in direct conflict with the 
good-faith effort put forth by stakeholders, and a mockery of 
the stakeholder negotiation process. I believe a withdrawal 
would have a negative effect on the local economy, where 
uranium mining would create jobs during a time when the economy 
is in need of a boost. Uranium mining poses no threat to the 
pristine nature of the Arizona Strip or the mining operations, 
and breccia pipe formations can be restored to their natural 
condition after a short extraction time frame.'' End of quote.

    The testimony of Mr. Butcher is also compelling. Quote:

    ``. . . To sum up the personal opinion regarding breccia 
pipe uranium mining on public lands surrounding Grand Canyon 
National Park, while such activities must be carried out with 
extreme care and due diligence, as was demonstrated by EFN in 
the late 20th century, I continue to view such activities as 
posing no credible threat of environmental harm to either the 
Grand Canyon National Park or the Colorado River that flows 
through it. . . . Consequently, on the merits, I can see no 
credible justification for a 1.1 million acre withdrawal from 
mineral entry of lands to the north and south of the park. 
Furthermore, such a withdrawal from mineral entry directly 
contradicts the good-faith negotiations of the 1984 agreement. 
. . . The wilderness study areas not placed in the National 
Preservation System were released back to multiple use status, 
including the mining of uranium. As one of the persons who 
actively participated in that collaborative process, I can 
state unequivocally that we achieved the negotiated compromise 
on the basis of allowing such activities as mineral extraction 
to go forward under appropriate Federal oversight of released 
lands.'' That is the end of the quote.

    As we meet today, this Nation's nuclear power plants are 
importing 98 percent of the fuel needed to run these plants 
from foreign sources. Nuclear power provides 20 percent of this 
country's requirement for energy.
    What I don't understand is why America's utilities are 
importing so much, though we have such vast supplies right here 
in our own backyard in northern Arizona. Arizona is part of the 
solution to America's nuclear fuel imbalance, and we should 
prepare to play a constructive role.
    As a supervisor who represents the county where the uranium 
and the Grand Canyon are located, I can tell you that if I had 
even the slightest indication that mining would affect the 
Canyon or the health of the people I represent, I would be 
adamantly opposed to it. But the canyon, the people, over $29 
million worth of economic benefit, and the security of our 
Nation is what is at stake.
    Thank you for your time.

    [The prepared statement of Mr. Johnson follows:]
Prepared Statement of Buster D. Johnson, Supervisor District 3, Mohave 
                County Board of Supervisors on H.R. 1373
    Chairman Grijalva, Ranking Member Bishop, it is an honor to appear 
before you to represent Mohave County, the county most impacted by the 
Chairman's bill.
    Public service is in my view, a noble thing. After nearly 23 years 
of service to the people of my county, the one thing upon which I pride 
myself more than anything else is keeping my word; honoring the 
commitments which others and I have made to the people of Arizona and 
to the United States.
    Keeping your word as a public official is more important than 
taking a stand or being ''right'' on an issue. There are two 
professions where you don't have to be right and you can still keep 
your job at least for a season--one is predicting the weather and the 
other is politics. I respect two things as a Supervisor: the 
commitments and promises made by others, some of whom served before me 
and honoring my own commitments and promises.
    Which brings me to the bill before us. Fundamentally, it is a 
direct attempt to undue the commitment given in 1984 to the people of 
Arizona by former House Interior Committee Chairman Morris Udall, 
Senator Barry Goldwater, Senator Dennis DeConcini, Congressman Bob 
Stump, then-freshmen House Member and later Senator John McCain along 
with Utah's former Senators Jake Garn and Orrin Hatch and former 
Chairman of this Committee, James V. Hansen, also from Utah.
    Before his death, Senator McCain shared that Chairman Udall 
required of both industry and environmentalists compromises that lead 
to the creation of over 1 million acres of BLM and Forest Service 
Wilderness as buffers to the Grand Canyon National Park in exchange for 
releasing lands to multiple use those BLM lands north of the Colorado 
River outside the Park on the Arizona Strip in Mohave County and 
National Forest lands south of the Grand Canyon National Park in 
Coconino County.
    Validation of the 1984 compromise comes from the statements of 
numerous individuals who were privy to it including two witnesses who 
were stakeholders upon whom Chairman Udall relied to gain passage of 
the 1984. Mr. Russ Butcher, who served as Southwest Director of the 
National Park and Conservation Society and Bill Lamb who served as BLM 
Area Manager of the Arizona Strip shared testimony, which I 
respectfully request be included in the record of this Hearing.
    That this agreement was real is evidenced by the fact that hard 
rock mining was allowed in every subsequent BLM and Forest Service 
Resource Management Plan (RMP) and Forest Plan up until the withdrawal.
    Here is what the District Manager, Bill Lamb said about his role in 
opening up these lands for mining as part of this 1984 Agreement which 
lead to passage of the 1984 Arizona Wilderness Act:

    Arizona Strip 1984 Wilderness Designation Negotiation
    By Bill Lamb
    Former District Manager of the Arizona Strip BLM District from 1982 
        to 1992
        In 1982 I was assigned to be the District Manager for the BLM 
        Arizona Strip District. At that time there were serious 
        negotiations going on with the environmental organizations, 
        uranium mining proponents and the BLM to work out an 
        arrangement where lands could be designated for wilderness and 
        yet provide for responsible uranium development. I worked 
        closely with the Congressional Delegations in both Utah and 
        Arizona, the Sierra Club, National Parks and Recreation 
        Associations and other groups, including the local residents to 
        find a workable solution to the wilderness vs. uranium issue. 
        With a clear understanding by all stakeholders that any 
        conflict between wilderness and mining would be resolved, a 
        wilderness bill was passed creating the Arizona Wilderness Act 
        of 1984. After some 27 years, it seems that those negotiations 
        and agreements have been forgotten where the long hours, days 
        and months of negotiations through field trips, face to face 
        meetings, conference calls and written communications brought 
        about a compromise that provided a balanced use of the Arizona 
        Strip. These efforts would be lost with the mineral withdrawal 
        proposed for the area.

        The responsible uranium mining after establishment of the 
        wilderness in 1984 has not had any negative impacts on the 
        wilderness areas or the Grand Canyon National Park. A trip to 
        the mining sites has shown that restoration is complete and 
        natural where any evidence of mining cannot be found. A 
        withdrawal from mining entry is in direct conflict with the 
        good-faith effort put forth by the stakeholders and a mockery 
        of the stakeholder negotiation process. I believe a withdrawal 
        would have a negative effect on the local economy where uranium 
        mining would create jobs during a time when the economy is in 
        need of a boost. Uranium mining poses no threat to the pristine 
        nature of the Arizona Strip where the mining operations in 
        breccia pipe formations can be restored to their natural 
        condition after a short extraction time frame.
    Bill Lamb
    Centerville, Utah

    The testimony of National Parks and Conservation Association 
Southwest Regional Director Butcher is likewise, so compelling that I 
want to share portions of it with the Committee:

    Testimony submitted to the House Subcommittee on National Parks, 
        Forests and Public Lands--April 8, 2010
        My name is Russell D. Butcher. I reside in San Diego County, 
        California. For more than 45 years, my career, which has 
        focused on parkland and wildlife conservation and on 
        environmental negotiating, has included serving on the staffs 
        of such nonprofit advocacy organizations as the National Parks 
        Conservation Association (NPCA), National Audubon Society, and 
        Save-the Redwoods League. From 1984-1990, I served as a member 
        of the U.S. Bureau of Land Management's Arizona Strip District 
        Advisory Council. And I have authored a number of books, most 
        recently including guidebooks to the national park system and 
        the national wildlife refuge system.

        In the early 1980s, as the Pacific Southwest regional director 
        for NPCA, I became concerned about alleged threats to the 
        integrity of Grand Canyon National Park and the Colorado River 
        from uranium mining activities near the park on the ``Arizona 
        Strip''--a New Jersey-size area that extends northward from the 
        canyon to the Utah state line.

        Following a first-hand examination of mine sites in the Kanab 
        Creek area being developed by the then active company, Energy 
        Fuels Nuclear (EFN), I was convinced that these particular 
        activities were extremely unlikely to pose any credible risk of 
        environmental harm to either the park or the river. Two reasons 
        stood out: (1) Contrary to my preconception, development of 
        these sites did not involve open-pit mining operations, as 
        typically occurs in copper mining, for example. Instead, only a 
        small footprint of surface disturbance, encompassing perhaps as 
        much as 20 acres, was associated with accessing a subsurface, 
        narrow, vertically aligned uranium ore-bearing geological 
        structure known as a breccia pipe. (2) EFN officials expressed 
        an unqualified and emphatic commitment to raising the bar 
        extremely high in terms of conducting their mineral extraction 
        and post-mining reclamation activities in the most 
        environmentally sensitive and exemplary manner possible. 
        Judging by what I saw--both on the ground and from the air, 
        their words of reassurance were borne out by their actions. In 
        short, there was no justification, in my opinion, for becoming 
        alarmed over these relatively small-scale resource extraction 
        activities on public lands administered by the U.S. Bureau of 
        Land Management (BLM).

        Late in 1980, I revisited the most active EFN site--the Pigeon 
        Mine. What I saw came as a pleasant surprise: Not only was the 
        entrance to the mine itself completely sealed, but all visual 
        evidence of the limited mine-related surface disturbances and 
        the access road had been superbly well restored. In fact, I 
        felt that if I were to bring someone who knew nothing about the 
        former mining activities to the site, that person would 
        logically assume that this was undisturbed wilderness. More 
        than 20 years have since elapsed. By now I have to assume that 
        the shrubby high-desert vegetation has continued to grow and 
        thrive, making the area appear even more as if it had never 
        been disturbed by man.

        Now here we are at the start of the second decade of the 21st 
        century, with alarm again being raised over the renewed 
        commercial interest in extracting high-grade uranium on BLM and 
        U.S. Forest Service lands adjacent to Grand Canyon National 
        Park. The new sense of alarm, I believe, is in large part based 
        upon the sheer number of mineral claims--totaling approximately 
        5,000--that have been filed with the federal government.

        It is important, however, to factor in the answer to what I 
        believe is a relevant question: What percentage of those 
        mineralized claims would ever likely prove to contain an 
        economically viable deposit of uranium ore? The answer: Only a 
        very small percentage--roughly one out of every 35 claims for a 
        total of perhaps 125 sites containing uranium of sufficient 
        quality and quantity to merit a company's financial investment 
        to extract the uranium ore. Add to this small percentage the 
        fact that the footprint of surface disturbance is both on a 
        small scale and capable of being easily reclaimed after the 
        mining activity has ceased.

        Regarding a risk of dissolved uranium contamination of 
        underground waters caused by mining activity, it is worth 
        noting a statement in a February 18, 2010, news release issued 
        by the U.S. Geological Survey: ``Analysis of historical water-
        quality data for more than 1,000 water samples from 428 sites 
        in northern Arizona shows that dissolved uranium concentrations 
        in areas without mining were generally similar to those with 
        active or reclaimed mines.''

        To sum up my personal opinion regarding breccia pipe uranium 
        mining on public lands surrounding Grand Canyon National Park, 
        while such activities must be carried out with extreme care and 
        due diligence, as was demonstrated by EFN in the late 20th 
        century, I continue to view such activities as posing no 
        credible threat of environmental harm to either Grand Canyon 
        National Park or the Colorado River that flows through it. In 
        the unlikely event that a particular mine proposal appears to 
        pose a specific risk of degrading the quality of visitor 
        experience or impairing the quality of waters or other natural 
        resources within the park, every effort should then be made by 
        the land-management agency, in close consultation and 
        cooperation with the National Park Service, to avoid any such 
        potentially harmful impacts.

        Consequently, on the merits I can see no credible justification 
        for a 1.1 million-acre withdrawal from mineral entry of lands 
        to the north and south of the park. Furthermore, such a 
        withdrawal from mineral entry directly contradicts the good-
        faith intentions and understandings of all the stakeholders who 
        in 1984 met and successfully negotiated the designation of BLM 
        and Forest Service wilderness areas on the Arizona Strip that 
        were ultimately approved by Congress and signed into law. The 
        wilderness study areas not placed in the National Wilderness 
        Preservation System were released back into multiple use 
        status, including the mining of uranium. As one of the persons 
        who actively participated in that collaborative process, I can 
        state unequivocally that we achieved the negotiated compromise 
        on the basis of allowing such activities as mineral extraction 
        to go forward under appropriate federal oversight on the 
        released lands.

    Respectfully submitted,
    Russell D. Butcher
    In summary, As we meet here today, this Nation's nuclear power 
plants are inexplicably importing 98 percent of the fuel needed to 
power those plants from foreign sources; much of it from Russia and 
Kazakhstan Nuclear power provides 20 percent of this country's daily 
requirement for energy. As one who is deeply concerned about climate 
change, I know the Chairman shares my view that nuclear power is a 
clean safe way to provide electricity to our people. What I do not 
understand is why America's utilities are importing so much even though 
we have vast supplies of it right in our own back yard in northern 
Arizona. The U.S. military and our domestic uranium producers have 
raised this issue with the Commerce Department and the President is 
expected to make a decision shortly to address that imbalance and 
restore health to our domestic industry. Such a finding would mean that 
this Arizona resource would be needed simply to protect legitimate 
American National Security concerns. Arizona is thus part of the 
solution to America's nuclear fuel imbalance and we should prepare to 
play a constructive role. As the supervisor who represents the county 
where the uranium and Grand Canyon are located I can tell you that if I 
had even the slightest indication that mining would affect the Canyon 
or the health of the people I represent I would be adamantly opposed to 
it but the Canyon and people are protected and the economic benefit of 
over $29 billion and the security of our Nation are what is at stake.

                                 ______
                                 

    Questions Submitted for the Record to the Hon. Buster Johnson, 
       Supervisor, District 3, Mohave County Board of Supervisors
                   Questions Submitted by Rep. Gosar

    I want to respond to something Mr. Lowenthal said at the hearing 
there being little to no uranium in the withdrawal area in H.R. 1373. 
If there weren't significant mining deposits in the area, Rep. Grijalva 
wouldn't have introduced a form of this bill every year since 2008.

    Question 1. There were a lot of lies and misinformation thrown 
around at the hearing alleging harm from uranium mining to the Grand 
Canyon. The Grand Canyon National Park is already protected by the 
Grand Canyon Protection Act, Clean Air Act, Clean Water Act, numerous 
other state and Federal regulations, the 1.02 million acre Grand 
Canyon-Parashant National Monument, two other national monuments, two 
national recreation areas and seven wilderness areas. The proposed 
withdrawal is miles away from the actual Grand Canyon itself. Any 
uranium operation will also have to comply with all state and Federal 
environmental laws and go through the normal NEPA process correct?

    Answer. Yes, you are correct.

    Question 2. No one in this room wants to harm the Grand Canyon or 
the Colorado River. And lifting the arbitrary, political ban 
unilaterally implemented by the Obama administration won't contaminate 
the Colorado River or cause harm to the Grand Canyon. And actual 
science supports these facts. The Arizona Geological Survey published a 
report finding that uranium mining would not contaminate the Colorado 
River, the Grand Canyon or surrounding watersheds. The study concluded 
that under an absolute ``worst-case, mining-related uranium spill into 
the Colorado River, an increase of 0.02 ppb uranium would be trivial in 
comparison to the EPA drinking water Maximum Containment Level of 30 
ppb uranium.'' Are you aware of this report and is it legitimate?

    Answer. Yes, I am aware of this report and I find it to be 
thoroughly researched and legitimate.

    Question 3. Republican Leader Bishop asked for the Arizona Land 
Trusts previous comment letter on the proposed withdrawal. I would like 
to also submit the State Land Trusts comment letter from 2011 (see 
other attachment). The comment letter describes losses to the state 
land trust in the range of $1.5 million to $18.5 million for each 
individual mine in a breccia pipe. Are you concerned about the loss of 
those state revenues and the harm this will cause to education in 
Arizona?

    Answer. Yes, I am concerned about the loss of the state revenues 
and the damages this will have on our educational system that relies on 
this money not only for today's expenditure but for the future of our 
educational system.

    Question 4. Industry studies have shown direct adverse impacts from 
the current Obama withdrawal to rural portions of six counties in 
Arizona (Mohave, Coconino) and Utah (Kane, Garfield, San Juan and 
Washington) of between 2,000-4,000 lost jobs and $29 billion in overall 
economic activity in the region at peak production. Are you concerned 
about these job losses and can you elaborate on what a permanent 
withdrawal would do to employment in Mohave County?

    Answer. Since the withdrawal, Mohave County and the surrounding 
areas affected have seen a number of miners leave the area to seek 
employment elsewhere. A permanent ban will only make things worse. We 
have already seen the trickle-down effect of what happens when this 
occurs. Other supporting businesses in the area have had to scale back 
their businesses and some have outright closed down. You see some head 
of households able to find employment in neighboring states which 
leaves some families broken as the children and wife will stay behind 
to try and maintain the home front. This leads to problems in the 
schools as well as children seem to act up without a father figure 
around. As families move out of some of these once prominent areas, the 
enrollment rate in the schools are falling which in turn brings less 
revenue to the educational districts. What we are seeing is once 
thriving, stable communities are becoming deserted places with vacant 
houses and businesses. If a permanent ban is put into place, it will 
only get worse and some of the towns and cities near the Arizona Strip 
could become ghost towns in under 10 years. When this occurs the 
chances of bringing back a viable community is oftentimes nonexistence.

                                 ______
                                 

    Ms. Haaland. Thank you very much, Mr. Johnson.
    Thank you all for your valuable testimony. The Chair will 
now recognize Members for questions. Under Committee Rule 3(d), 
each Member will be recognized for 5 minutes. I would like to 
first recognize Mr. O'Halleran for 5 minutes.

    Mr. O'Halleran. Thank you, Madam Chairwoman. I appreciate 
your willingness to welcome me here today, and in Committee. As 
you know, I am honored to represent Arizona's 1st Congressional 
District, including the Grand Canyon.
    The Grand Canyon is like any place in the world: home to 
some of my constituents, sacred to some of my constituents, and 
respected for the wonder it is around the world.
    I am proud to be a champion of the Grand Canyon Centennial 
Protection Act, because it will ensure the canyon remains safe 
and vibrant, protect northern Arizona's economy, and protect 
the water supply of the Southwest.
    I proudly represent Coconino County on both the north and 
south rims of the Grand Canyon. For over a decade, Coconino 
County has been supportive of protecting the health of the 
Canyon's residents, the downstream water supply, and northern 
Arizona's recreation economy, having passed two separate 
resolutions in support of the mineral withdrawal bill.
    Uranium mining has a toxic legacy in northern Arizona. My 
constituents still suffer from the effects of the mining that 
occurred during the cold war over 70 years ago, and still an 
impact. Cancer rates, which are directly linked to uranium 
mining activity in the region, are at a troubling high level. 
Today, the Federal Government is still compensating miners, 
millers, and haulers for their exposure to uranium. We cannot 
allow this to become normal.
    Water is essential to communities of all sizes around the 
Southwest. This is especially true for communities like 
Havasupai, where there is a single water supply, and uranium 
contamination would be disastrous. Similarly, communities above 
the Canyon's rim and the park itself rely on groundwater pumped 
from the local aquifers. Contamination of these aquifers would 
mean that cities and towns would have no water.
    There is a superfund site at the edge of the Grand Canyon 
right now. It has 300 parts per billion at the base of the 
stream right there. And in the worst scenario, if uranium found 
its way into the Colorado River itself, it would jeopardize the 
water supplies of major western cities, including Las Vegas, 
Phoenix, and Los Angeles.
    Tourism forms the backbone of northern Arizona's economy, 
and the Grand Canyon forms the heart of that sector. The 
National Park Service recently released a report indicating 
that visitors to the Grand Canyon spent $1.2 billion in the 
local economy in 2018. Grand Canyon National Park supports over 
12,000 jobs. Downstream, Lake Mead supported an additional $336 
million a year in economic benefit. If the Canyon or the river 
were endangered by contamination, these economic benefits could 
disappear overnight. Conversely, prohibiting uranium mining 
would strengthen the tourism economy by ensuring that the 
Canyon and river remain the center of the state's tourism 
economy for generations to come.
    The Grand Canyon is simply too special to mine in or near, 
and I am proud to support legislation that will preserve the 
park, protect citizens of northern Arizona, downstream 
communities, and strengthen the economy.
    With that, Madam Chair, I yield.
    Ms. Haaland. Thank you, Mr. O'Halleran. The Chair now 
recognizes Mr. Bishop for 5 minutes.
    Mr. Bishop. Supervisor Johnson, thank you for coming all 
the way from Arizona to do this.
    I understand there are basically two congressional 
districts that would be impacted by this particular piece of 
legislation, that Mr. O'Halleran has a portion of it, but the 
majority of the mines would actually be in Mr. Gosar's 
district.
    Mr. Johnson. Yes, sir.
    Mr. Bishop. All right. You are the supervisor of this 
particular area. I understand there are about 4,000 acres that 
are not Federal land, they are owned by the Arizona State Land 
Department.
    Mr. Johnson. Yes, sir.
    Mr. Bishop. And that the State of Arizona Land Department--
at least last time this bill was introduced--had actually done 
a study as to the effectiveness of the development of these 
resources and the impact that they would have.
    Mr. Johnson. Yes, sir.
    Mr. Bishop. Have you introduced that as part of your 
written statement?
    Mr. Johnson. No, I haven't, sir.
    Mr. Bishop. It would be nice. There is some time before we 
get that. If we could get, once again, a copy of what the state 
of Arizona had said, as far as the impact that these potential 
mines would have, if we could get a copy of that, that would be 
very helpful, I think, could be part of the record.
    Mr. Johnson. I will get it for you, sir.
    Mr. Bishop. If those 4,000 acres that are not owned by the 
Federal Government were indeed locked up by this particular 
piece of legislation, what impact will that have on your 
county?
    Mr. Johnson. It has a tremendous impact not only on my 
county, but on Utah, also, just for the fact that the money 
that comes from state land goes into the school system. So, 
that is a big bonus there, plus the jobs that are created.
    A lot of people are talking about tourism being a driving 
force. Tourism has always worked side by side, when uranium was 
going on there. And actually, the biggest concentration of 
visitors was during the uranium boom. But the jobs for mining 
are well superior to the jobs from the tourism industry.
    Mr. Bishop. So, it is not an either-or situation. It has 
worked together in the past, and it could work together in the 
future, as well.
    Mr. Johnson. Yes, sir.
    Mr. Bishop. One could complement the other. And, as you 
say, the money that comes from these resources actually goes 
into funding the education system of the entire state of 
Arizona, just as money comes in from Federal lands that helps 
the entire state of Utah and their education system. What about 
for emergency services in your county?
    Mr. Johnson. We get the public land, PILT money comes in 
that goes to the county that pays for our sheriffs and response 
crews.
    Mr. Bishop. So, would you lose some money that would go to 
essential services if the state land was locked up within this 
area?
    Mr. Johnson. I don't believe we would on that one, sir, I 
don't.
    Mr. Bishop. When we talk about mining we have preconceived 
notions, either of what deep-shaft mining would be doing, or 
open pit mining would be doing, and a lot of people think it is 
open pit. Is the uranium mining process in your area--is that 
done differently than the traditional open-pit approach would 
be?
    Mr. Johnson. Yes, sir. It basically looks like an 
hourglass, a big one. It is a small footprint. The footprint of 
the whole process may be 10 to 20 acres. They go down beside--
say if this glass of water was the breccia pit, they go down 
beside it and take the rock out from below, and then transport 
it to the mill, and then bring back the rock that is of no use 
for uranium, and put it back in the hole. So, it is a very 
small footprint.
    Mr. Bishop. So, unlike a copper pit in my state, which is 
huge--and it is actually enjoyable to look at right now, you 
can see it from outer space--these would be a small footprint. 
You go down. Once they have extracted the uranium, then you 
will once again fill it up again.
    And is it really visible on where that footprint was, once 
it has been reclaimed?
    Mr. Johnson. No, they have pretty strict laws on the 
reclamation, and they have taken miners back out who have 
actually worked in some of these mines, and they can't locate 
it, where it is at, after a few years, sir.
    Mr. Bishop. All right. If I remember right from the years 
past, when we have talked about this particular issue, the 
state of Arizona did conduct a survey. Did they conclude that 
there was a danger to the Grand Canyon if you do any of this 
kind of activity?
    Mr. Johnson. They concluded there was no danger, sir.
    Mr. Bishop. And no danger to the drinking water, despite 
what newspapers in Las Vegas said at the time, there is no 
danger to the drinking water that would be going down, as well?
    Mr. Johnson. No, sir. And there is uranium naturally 
occurring in the Grand Canyon and in the Colorado River water.
    Mr. Bishop. Well, we should get rid of that, shouldn't we?
    Mr. Johnson. We should try.
    Mr. Bishop. I yield back.
    Ms. Haaland. Thank you, Mr. Bishop. The Chair recognizes 
Chairman Grijalva for 5 minutes.
    Mr. Grijalva. Thank you, Madam Chair.
    Ms. Reimondo, page 39 of the Administration's Critical 
Minerals Strategy Report released yesterday very explicitly 
includes a goal. This is the goal: ``To complete a thorough 
review of withdrawals from applicable mining laws and areas 
restricted from mineral exploration and development on the 
Federal mineral estate, including reducing the size of or 
revoking an existing withdrawal.'' I am concerned that the 
Grand Canyon withdrawal moratorium would be targeted under this 
policy, which is one of the reasons that I appreciate so much 
Madam Chair expediting the hearings on this.
    Could you maybe elaborate a bit on why uranium mining near 
the Grand Canyon does little to address any real or imagined 
supply concerns that we keep hearing about.
    Ms. Reimondo. Sure. Thank you, Mr. Chairman. The uranium 
supplies that are available around the Grand Canyon that are 
known, recognized as being valid by the Federal Government are 
an extremely small portion of the total amount of known uranium 
reserves around the entire country. In fact, they are about 
0.29 percent of the entire known minable reserves in the entire 
country.
    Mr. Grijalva. Which begs the question that, with that 
limited uranium supply in the area, under any scenario, why 
take the risk, and not----
    Ms. Reimondo. We would agree.
    Mr. Grijalva. Councilwoman Tilousi, I was going to ask you. 
Your community, Hopi, Navajo, Inter-Tribal Council of Arizona, 
American Indian Congress, and tribes and nations from across 
the country have all supported this legislation, the withdrawal 
in the past, the monument in the past as a permanent protection 
for the Grand Canyon.
    The role and the presence of Indian Country in this 
discussion--your tribe, in particular--why is that something 
that members of this Committee should take into consideration 
as we go forward in examining this legislation?
    Ms. Reimondo. I believe the support from the Subcommittee 
is very important because we are talking about human life. We 
are talking about a small population of Native Americans such 
as the Havasupai of 776 people still left. And we deserve clean 
water. That is why it is important.
    Mr. Grijalva. Mayor, the community of Flagstaff, a 
beautiful community, and thank you for your hospitality on the 
occasion that I had the pleasure of being there.
    We talked about the economy, and we talked about the 
essential role that mining, according to your colleague, plays 
in the whole economy of the region. You mentioned it in your 
statement, the tourism, the visitors, and what that means, and 
how that drives not only the revenue for the city, but the 
employment and other business activities that go on in 
Flagstaff.
    Ms. Evans. Thank you, Chair Grijalva. Tourism is the No. 1 
industry in Flagstaff, and the No. 1 industry in northern 
Arizona. There are approximately 13,000 jobs in northern 
Arizona that are directly tied to tourism, and that tourism is 
directly tied to the Grand Canyon.
    Lifting the ban, we think, will affect tourism. We have 
several rafting outfits, as well as tour operators that conduct 
business in the Grand Canyon that are based out of Flagstaff. 
If tourists are reluctant to visit Flagstaff or the Grand 
Canyon because of the potential exposure--our opposition to 
uranium mining--that will negatively impact some of our 
businesses, and definitely our economy.
    Mr. Grijalva. Madam Chair, as we go forward with this, I 
appreciate the hearing and look forward to moving the 
legislation. I yield back.
    Ms. Haaland. Thank you, Chairman Grijalva. The Chair 
recognizes Mr. Gallego for 5 minutes.
    Mr. Gallego. Thank you to our witnesses for being here 
today, and thank you to Chairman Haaland for calling this 
hearing. I want to recognize Chairman Grijalva's leadership of 
introducing the Grand Canyon Centennial Protection Act, which I 
am proud to be an original co-sponsor of.
    This bill is critical, not only to Arizonans, but those who 
travel from around the country and the world to visit the Grand 
Canyon, many of whom fly into Sky Harbor International Airport 
in my district. Even more importantly, however, this bill 
safeguards Arizona's ecosystems, environment, and a critical 
watershed used by millions of Arizonans.
    Councilwoman Tilousi, indigenous communities in particular 
rely on this watershed as the sole source of drinking water for 
their people, which is why I am happy to have Councilwoman 
Tilousi from the Havasupai Tribe here to testify. Councilwoman 
Tilousi, can you describe your tribe's historical relationship 
to the Grand Canyon watershed, especially Havasu Creek and its 
importance to your tribe's access to clean water?
    Ms. Tilousi. Our relationship to the water goes as far as 
our name. Havasupai means people of the blue-green water. What 
we do is we farm with the water, and we also sustain ourselves 
by utilizing the water in ceremonial activities, such as the 
sweat lodge, and use it for blessings. And we are also 
consuming it directly. And that is our main concern, is keeping 
it clean and keeping it protected. And we would like to protect 
everybody, not just the Havasupai, but all the people that are 
living downstream.
    Mr. Gallego. What previous impacts have mining operations--
what have they done, in terms of your watershed or other 
negative impacts in your areas?
    Ms. Tilousi. Our village is supplied by the largest 
groundwater aquifer in the Southwest, which is the Redwall-Muav 
Aquifer. When Canyon Mine started operating, they started 
piercing into the aquifer, and it started spraying all over the 
place, and it is already contaminating animals at the Canyon 
Mine site. And it is also spraying into the air, and there is 
no control over that, or monitoring by the mining companies or 
the Forest Service. And we deeply fear about the further 
contamination that is going to happen.
    Mr. Gallego. If this Administration were to succeed in 
ending the emergency mineral withdrawal around the Canyon, what 
impact could increased uranium mining operations have on 
Havasupai's tourism economy?
    Ms. Tilousi. The impacts to our tourism economy, if 
approved, will be beneficial to the tribe. We are not a gaming 
tribe. We are solely dependent on tourism. And we open our 
canyon homes to visitors to enjoy our waterfalls. And we would 
like to continue to be an independent tribe, as far as economic 
development. And we would like to protect all our visitors.
    Mr. Gallego. Thank you.
    Ms. Reimondo, many arguments against a permanent mineral 
withdrawal rest on the claim that uranium can be mined safely, 
posing no threat to water resources. In your experience with 
this sort of mining, can a guarantee that water will not be 
contaminated--can they make that guarantee? Can you name any 
examples of mines in this region or beyond where this has not 
been the case, and water resources were impacted?
    Ms. Reimondo. No. The short answer is that they cannot 
guarantee that in the Grand Canyon region, namely because there 
is not required groundwater monitoring at every mine site. So, 
if groundwater contamination were to occur, or perhaps already 
has occurred from a mine that operated in the 1980s, it is very 
possible that we just wouldn't know about it, because we don't 
have adequate monitoring systems in place.
    Mr. Gallego. And is there any historic example of some type 
of groundwater contamination that occurred from a mining 
operation in your memory?
    Ms. Reimondo. Yes. An older operation was the Orphan Mine 
on the south rim. And there is very likely contamination of 
Horn Creek due to that operation.
    And then, on the north rim, pretty recently, Pinenut 
uranium mine had been on standby for a couple of decades. 
During that time, the mine shaft was thought to be safely 
capped and no water infiltration was supposed to happen. 
Unfortunately, in 2009, the mining company went back to reopen 
that mine, lifted the cap, and found 3 million gallons of 
radioactive water--surprise--inside of the mine shaft.
    Mr. Gallego. And to your memory, at that point, while they 
were going through the permitting process, any guarantees that 
there would be no way that this could be contaminated?
    Ms. Reimondo. I think the mining companies have said that, 
but nobody knows. So, they can't say that with truthfulness.
    Mr. Gallego. Thank you. I yield back.
    Ms. Haaland. Thank you, Mr. Gallego. And I will recognize 
myself for 5 minutes.
    Thank you all so much for being here today. We appreciate 
you taking this time.
    Councilwoman Tilousi, proponents of extraction and mineral 
development often highlight the economic benefits that these 
activities generate. But experience tells us that dollars and 
jobs aren't reflective of the true costs of these activities, 
which include lasting impacts to public and individual health, 
as well as land, air, and water quality.
    For example, my own Laguna Pueblo has experienced 
devastating social and economic effects from the Jackpile 
uranium mine. As an elected official of a tribe that has lived 
in and around the Grand Canyon for hundreds, if not thousands 
of years, including the time since this area has been targeted 
for uranium mining, can you speak to how the Havasupai have 
been impacted by mining in this area?
    Ms. Tilousi. One of our most sacred sites called Red Butte, 
Wii'i Gdwiisa, is located right next to Canyon Mine. And that 
is a religious site to my people, it is the site of our 
creation stories, and we feel that it is piercing the lungs of 
our Mother Earth.
    Red Butte is already being threatened and contaminated, and 
that is where we gather our cedar, our sage, and go there for 
pilgrimages and prayer. And that has already been impacted, and 
our hearts have been broken to watch this uranium mining 
company come onto Federal lands and start staking claims, and 
start mining uranium. We see that, and it really hurts our 
culture, our religion, and our identity, and that is what has 
deeply affected my community.
    Ms. Haaland. Have you had to delay or postpone or just all 
together cancel pilgrimages to this area because of the mining?
    Ms. Tilousi. We fear to go to Red Butte. We understand that 
there is already radiation exposure because of the disturbance 
of the earth. We go there with no choice but risking our lives 
to do our ceremonial duties. And we just recently went back 
there in November, and we were fully aware that we may be 
exposed, but we also had to do our duty as Native Americans, 
and continue our ceremonial duties. And, yes, we fear that we 
will be contaminated.
    Ms. Haaland. And without exposing anything that you don't 
want to expose about your culture and traditions, for the 
record can you help us to understand how important it is that 
you perform these cultural and traditional duties throughout 
the year, and what it means to the future of your people?
    Ms. Tilousi. It is very important for us to continue our 
religious and ceremonial duties, even though we have to risk 
our lives. We feel that our next generation has to take the 
steps of continuing our ceremonial duties.
    We also know that the mountain is not only sacred to the 
Havasupai, but it is also sacred to Navajos, Hopis, and other 
tribes that come there to gather their medicinal purposes. That 
is why many of the traditional practitioners from other tribes 
do not go there anymore to get their herbal plants to continue 
their ceremonies, because they are aware that there is 
radiation already being exposed.
    Ms. Haaland. Thank you. One last question. In light of the 
impacts that we have kind of discussed here today, the impacts 
of uranium mining, why is it particularly important that the 
Federal Government engage in consultation with tribal 
communities that will be impacted by these decisions? And do 
you feel that it is enough?
    Ms. Tilousi. Canyon Mine was grandfathered in as a claim in 
the 1980s. They are currently operating on a 30-year mining 
operation plan. During that time, we were not consulted and 
were still not consulted, along with the neighboring tribes. 
Canyon Mine does exist there because it was already 
grandfathered in, and that is why we are very concerned that 
tribal sovereignty is not being recognized in that our tribal 
governments deserve to know what is happening on our aboriginal 
territories. And there needs to be further consultation on 
Canyon Mine, specifically.
    Ms. Haaland. Thank you, Councilwoman. I yield my time, and 
the Chair recognizes Mr. Gosar for 5 minutes.
    Dr. Gosar. I thank the Chair.
    Supervisor Johnson, in your testimony you discuss the 
landmark passage of the 1984 Arizona Wilderness Act, and the 
historic bipartisan cooperation that ushered it through 
Congress. What significant stakeholders were also at the table 
when this legislation was formulated? Were environmental groups 
there?
    Mr. Johnson. Yes, sir.
    Dr. Gosar. Can you elaborate which ones?
    Mr. Johnson. I would have to look back at my notes, I don't 
have all the lists of them--it would take up too much of your 
time here.
    Dr. Gosar. Let's go on to the next one--within this 
withdrawal area there are 4,204 acres of state-owned land. Is 
that true?
    Mr. Johnson. Yes, sir.
    Dr. Gosar. How about the 19,000 acres of private land. Is 
that true?
    Mr. Johnson. Yes, sir.
    Dr. Gosar. Interesting. And most of these mine sites are in 
Coconino County or Mohave County?
    Mr. Johnson. Mohave County.
    Dr. Gosar. Are they close to the edge of the Grand Canyon?
    Mr. Johnson. No, not at all.
    Dr. Gosar. Can you see them from the Grand Canyon?
    Mr. Johnson. No.
    Dr. Gosar. What type of method of mining actually happens? 
Is this one of those big, open-pit mines like they use with 
copper that you see down in southern Arizona?
    Mr. Johnson. No, sir. It is a very small footprint, 10 to 
20 acres, at the most. That is with reclamation, parking, and 
everything else.
    Dr. Gosar. Are there tailings associated with this type of 
mining technique?
    Mr. Johnson. No, sir. All the uranium is removed and taken 
to Blanding, Utah, and the rock that is not uranium is brought 
back and placed back inside the hole.
    Dr. Gosar. Let me get this straight. We have precipitation 
in the form of snow, rain. We have exposed breccia pipes, which 
allows that to go into solution. Does it not?
    Mr. Johnson. Yes, sir.
    Dr. Gosar. So, the profile of the Grand Canyon has side 
vents and then springs that come out. Is that true?
    Mr. Johnson. Yes, sir.
    Dr. Gosar. So, there has been a constant leach of uranium 
in the water supply.
    Mr. Johnson. Yes.
    Dr. Gosar. Naturally?
    Mr. Johnson. Naturally.
    Dr. Gosar. It seems to me like we would want to get this 
material out.
    Mr. Johnson. That would seem obvious to me, too.
    Dr. Gosar. And it would also actually permeate refilling of 
aquifers, subsurface aquifers. Is that true?
    Mr. Johnson. It could, yes, sir.
    Dr. Gosar. Are you aware that a 2011 study conducted by the 
U.S. Geological Survey shows a hypothetical worst-case 
scenario, a uranium mining spill, would have virtually no 
effect on water quality?
    Mr. Johnson. Yes, sir.
    Dr. Gosar. Have you seen a decrease in mining because of 
this withdrawal in Mohave County?
    Mr. Johnson. It has pretty much stopped the mining up there 
in that area. Yes, sir.
    Dr. Gosar. Besides mining, are other things forbidden in 
this withdrawal? Like, say, for impugning the economic impact 
of Mohave County?
    Mr. Johnson. Yes, sir. I believe it will affect us greatly.
    Dr. Gosar. What percentage of the Nation's uranium deposits 
are located in this area?
    Mr. Johnson. I don't know the percentage, but I know that 
we have the richest uranium in the United States, and the sixth 
or fifth richest in the world. The quantity we can bring out is 
over 300 million pounds of uranium, and some say as high as 500 
million pounds.
    Dr. Gosar. Yes, there is enough even in this area to supply 
over 22 years for the whole state of California. That is how 
compact it is.
    In this mining process, do they use the leaching 
techniques, where they actually use water?
    Mr. Johnson. No, sir.
    Dr. Gosar. No water?
    Mr. Johnson. No, sir.
    Dr. Gosar. Interesting, interesting. So, I would like to 
have entered in the record a study on water quality from the 
Arizona Geological Survey.
    Ms. Haaland. Without objection.
    Dr. Gosar. Mr. Johnson, you were at the hearing that we had 
out in Mohave County.
    Mr. Johnson. Yes, sir.
    Dr. Gosar. Did you see a vocal minority against the mining?
    Mr. Johnson. I saw a very small percentage of people 
against it.
    Dr. Gosar. That were against it?
    Mr. Johnson. Yes, sir.
    Dr. Gosar. So, everybody was for it. Right?
    Mr. Johnson. Yes, sir.
    Dr. Gosar. OK.
    Mr. Johnson. Overwhelmingly.
    Dr. Gosar. And how long have you been a supervisor in 
Mohave County?
    Mr. Johnson. Going on 23 years, sir.
    Dr. Gosar. So, you have seen the good times and the bad.
    Mr. Johnson. Yes, sir.
    Dr. Gosar. Supervisor Johnson, thank you for coming all 
this way. We are blessed. Thank you. I hope you are not in too 
much pain. Thank you.
    Mr. Johnson. Thank you, sir.
    Ms. Haaland. Thank you, Mr. Gosar. Before we move on to the 
next panel, I would like to submit for the record the USGS 
report, ``Informing Future Decision-Making on Uranium Mining: A 
Coordinated Approach to Monitor and Assess Potential 
Environmental Impacts from Uranium Exploration and Mining on 
Federal Lands in the Grand Canyon Region, Arizona.''
    There is a general lack of understanding regarding the 
local and regional groundwater flow systems, so I would like, 
without objection, to enter this into the record.
    Dr. Gosar. Chairwoman?
    Ms. Haaland. Yes?
    Dr. Gosar. Could I also have ``Northern Arizona Uranium is 
Key to US National Security'' put in the record, as well?
    Ms. Haaland. Without objection.
    Dr. Gosar. Thank you.
    Ms. Haaland. Thank you, Mr. Gosar.
    I thank the witnesses for your valuable testimony. Thank 
you so very much, and the Members for your questions.
    I now invite the third panel to take their places at the 
witness table.
    [Pause.]
    Ms. Haaland. As with the first two panels, oral statements 
are limited to 5 minutes, but your entire statement will be 
part of the hearing record.
    The lights in front of you will turn yellow when there is 1 
minute left, and they will turn red when time has expired.
    Thank you all for being here today. I am truly 
appreciative, and welcome you wholeheartedly into this hearing 
room.
    The Chair now recognizes the Honorable E. Paul Torres, 
Chairman of the All Pueblo Council of Governors, an 
organization that is comprised of the 20 governors of the 
sovereign Pueblo Nations of New Mexico, and one in Texas.
    Chairman Torres has also served as the Governor of Isleta 
Pueblo for two terms, and has been a champion for the welfare 
and socio-economic prosperity of his people.
    Chairman Torres has also been a strong advocate for the 
protection of tribal sovereignty and the preservation of 
traditional practices and ceremonial places.
    Thank you for being here today to share your perspectives 
on the importance of the Greater Chaco Region. Chairman, you 
have 5 minutes.

  STATEMENT OF THE HON. E. PAUL TORRES, CHAIRMAN, ALL PUEBLO 
         COUNCIL OF GOVERNORS, ALBUQUERQUE, NEW MEXICO

    Mr. Torres. Thank you, Madam Chair.
    [Speaking Native language.] Good afternoon.
    My name is Paul Torres, and I am the Chairman of the All 
Pueblo Council of Governors, or APCG. I thank the Committee for 
addressing the important matter of irreplaceable Pueblo 
cultural resources in the Greater Chaco Region currently at 
risk from oil and gas development.
    For over 2,000 years, Pueblo people lived in Chaco Canyon. 
Eventually they moved outward, into the land they now occupy, 
like spokes moving away from the eye of a wheel. Their time in 
Chaco Canyon and their movement between Chaco and their 
eventual Pueblo land left behind many cultural resources. By 
cultural resources, I am referring to vast Pueblo structures, 
shrines, or other sacred sites and natural formations with 
culturally relevant modifications. This landscape is called the 
Greater Chaco Region, and you can feel the heartbeat of our 
people when you are in it.
    Many Pueblos maintain a significant connection to the 
Greater Chaco Region. Our people still remember it as a vital 
part of our present identity through song, prayer, and 
pilgrimage. It is hard to put into words how important Chaco is 
to us, as Pueblo people. Even those outside Indian Country, 
including within the field of archeology, recognize Chaco 
Canyon's importance in telling the story of the people of this 
continent.
    But the Greater Chaco Region sits atop an oil field that is 
under tremendous pressure for development from the oil and gas 
industry, and this is where the problem lies.
    Today, the major center point of Chaco Canyon is protected 
by the boundaries of the Chaco Culture National Historical 
Park, which is recognized as a UNESCO World Heritage site. But 
many important cultural resources in the Greater Chaco Region 
are located outside these boundaries, and much of the Greater 
Chaco Region has not been studied for cultural resources.
    APCG's position regarding oil and gas development in the 
Greater Chaco Region is two-part. First, APCG takes the 
position that no oil and gas development should take place 
within a designated withdrawal area, consisting of 
approximately 10 miles surrounding the park. Second, APCG takes 
the position that, even for development outside the withdrawal 
area but within the Greater Chaco Region, rigorous 
identification and analysis of cultural resources, in 
accordance with Federal statutes, must take place before any 
steps toward oil and gas development occur.
    Until recently, the Department of the Interior deemed the 
withdrawal area around the park unavailable for oil and gas 
development. This Administration reversed the policy. Since 
reversal, the BLM has held quarterly oil and gas lease sales 
that include parcels in the withdrawal area and throughout the 
Greater Chaco Region. Despite our concerns and offers of 
assistance, the BLM has not conducted anything close to the 
type of studies required by law, or to effectively protect our 
cultural resources.
    APCG has a number of requests for you.
    First, this Committee has before it the Chaco Cultural 
Heritage Area Protection Act, which would legislatively remove 
Federal land in the withdrawal area from future oil and gas 
development. We ask that you vote in favor of this important 
bill. After a recent trip to see Chaco, DOI Secretary Bernhardt 
has said DOI will defer leasing within the withdrawal area 
during the coming year. Passage of this legislation would make 
this permanent.
    Second, we ask that you, as a Committee, encourage DOI to 
conduct sufficient cultural resource studies for development 
outside the withdrawal area, but within the Greater Chaco 
Region.
    Thank you for your time.

    [The prepared statement of Mr. Torres follows:]
 Prepared Statement of E. Paul Torres, Chairman, All Pueblo Council of 
                         Governors on H.R. 2181
    The All Pueblo Council of Governors (``APCG'') \1\ thanks the 
Committee for the opportunity to testify on the Chaco Cultural Heritage 
Area Protection Act of 2019, H.R. 2181. The bill was introduced by 
Representative Lujan, and its companion bill was introduced by Senator 
Udall--true champions for Indian Country. We thank them for their 
steadfast support.
---------------------------------------------------------------------------
    \1\ APCG is comprised of the New Mexico Pueblos of Acoma, Cochiti, 
Isleta, Jemez, Laguna, Nambe, Ohkay Owingeh, Picuris, Pojoaque, San 
Felipe, San Ildefonso, Sandia, Santa Ana, Santa Clara, Santo Domingo, 
Taos, Tesuque, Zia, and Zuni, and one Pueblo in Texas, Ysleta Del Sur.
---------------------------------------------------------------------------
                               Background
Cultural Resources
    For over 2,000 years, Pueblo people lived in Chaco Canyon, 
eventually moving outward into the land the Pueblos currently occupy--
like spokes moving away from the eye of a wheel. Their time in Chaco 
Canyon, movement outward across the landscape, and continued 
interaction with Chaco Canyon after departure left behind many cultural 
resources. These include vast pueblo structures, shrines and other 
sacred sites, and natural formations with culturally relevant 
modifications and meanings. This landscape is now called the Greater 
Chaco Region and includes all of the San Juan Basin.\2\
---------------------------------------------------------------------------
    \2\ In some instances, the term ``Greater Chaco Landscape'' has 
been used, but it refers to the same area of land.
---------------------------------------------------------------------------
    Many Pueblos maintain a significant and ongoing connection to the 
Greater Chaco Region. Our people still remember it as a vital part of 
our present identity through song, prayer, and pilgrimage. It is hard 
to put into words how important the Greater Chaco Region is to us as 
Pueblo people. Even those outside Indian Country, including within the 
field of archaeology, recognize Chaco Canyon's importance in telling 
the story of the people of this continent.
    Today, the major center point of Chaco Canyon is protected from oil 
and gas development by the boundaries of the Chaco Culture National 
Historic Park (``Park''), which is recognized as a UNESCO World 
Heritage Site.
    However, many important cultural resources in the Greater Chaco 
Region are located outside the boundaries of the Park. And, as much of 
this area has not been studied, many cultural resources' locations 
remain unknown. Even the cultural resources that fall within the 
boundaries of the Park suffer the effects of activity taking place 
outside.
Oil and Gas Development
    On top of being a place of great cultural importance, the Greater 
Chaco Region sits atop an oil field that is under tremendous pressure 
for development from the oil and gas industry, and this is where the 
problem lies. Upwards of 90 percent of the land in the Greater Chaco 
Region is already leased for oil and gas development, and the remaining 
land comes dangerously close to Chaco Canyon itself.\3\
---------------------------------------------------------------------------
    \3\ The BLM--Farmington District Office is the primary agency 
regulating the San Juan Basin, and portions of the San Juan Basin also 
extend into the BLM--Rio Puerco Field Office's district boundary. The 
majority of available land in the Farmington District Office has been 
leased.
---------------------------------------------------------------------------
    Until recently, the Department of the Interior (``DOI'') deemed the 
area surrounding the Park--now called the withdrawal area--unavailable 
for oil and gas development. This Administration reversed the policy, 
including allowing fracking. Since reversal, DOI has held quarterly oil 
and gas lease sales that include parcels within the withdrawal area and 
throughout the Greater Chaco Region. DOI has not conducted the type of 
cultural resource identification and analysis that would be required to 
protect cultural resources from the effects of oil and gas development 
or to comply with its Federal statutory obligations.
    However, DOI seems to be coming to the understanding that oil and 
gas development in the withdrawal area is not appropriate. Despite 
including parcels located within the withdrawal area in lease sales, 
after significant pressure from the Pueblos and others, DOI has 
withdrawn them before the lease sales take place.\4\ And Secretary 
Bernhardt's recent announcement after a visit to the Greater Chaco 
Region that DOI will take appropriate action to defer leasing within 
the withdrawal area during the coming year was welcome news. The New 
Mexico State Land Office also recently issued a moratorium on future 
mineral development within the withdrawal area.
---------------------------------------------------------------------------
    \4\ This has meant protesting parcels under the BLM Farmington and 
Rio Puerco Field Offices.
---------------------------------------------------------------------------
    But DOI has permitted parcels that are just outside the withdrawal 
area to be sold during lease sales despite Pueblo protests, signaling 
that DOI may not slow down development outside the withdrawal area 
despite lacking necessary cultural resource studies.
                            APCG's Position
No Development in Withdrawal Area
    APCG takes the position that no oil and gas development should take 
place within a designated withdrawal area--defined in the Chaco 
Cultural Heritage Area Protection Act \5\ and consisting of 
approximately 10 miles surrounding the Park. This is because any parcel 
located within this area is likely to contain or impact important 
cultural resources and because development in this area is likely to 
affect cultural resources in the Park.
---------------------------------------------------------------------------
    \5\ APCG and DOI have until recently discussed a general area of 
approximately 10 miles surrounding the Park as making up the withdrawal 
area. In recent years, as part of work on the Chaco Cultural Heritage 
Area Protection Act, congressional members, with input from DOI and the 
Pueblos, have created more clarity on the boundaries of the withdrawal 
area by specifying its parameters and producing an associated map. The 
Act's boundaries are now the best description of the withdrawal area--
which has shifted slightly over time.
---------------------------------------------------------------------------
Rigorous Cultural Resource Studies for Development Outside Withdrawal 
        Area and Within Greater Chaco Region
    For development outside the withdrawal area but within the Greater 
Chaco Region--and specifically within the jurisdictions of the Bureau 
of Land Management's (``BLM'') Farmington and Rio Puerco Field 
Offices--DOI must conduct rigorous and Pueblo-led identification and 
analysis of cultural resources before any steps toward oil and gas 
development occur, including lease sales. This is because the Greater 
Chaco Region undeniably contains significant cultural resources, which 
Pueblo experts are best situated to identify.
    In a big-picture sense, we ask that DOI work with the Pueblos to 
study where cultural resources are likely to be located across the 
landscape so that DOI can make more informed decisions about 
development early on, as required by the Federal Land Policy and 
Management Act and other laws. In a parcel-by-parcel sense, we ask that 
DOI identify and analyze the cultural resources that would be affected 
by oil and gas development on a particular parcel before listing it in 
a lease sale, as required the National Historic Preservation Act 
(``NHPA''), the National Environmental Policy Act (``NEPA''), and other 
laws.
    Such studies would benefit everyone. First, they would help protect 
irreplaceable cultural resources and carry out DOI's statutory 
obligations. Second, if done properly and early in the oil and gas 
development process, these studies would also save DOI, developers, and 
the Pueblos time and money.
                           Legal Deficiencies
    DOI in its sale of leases on parcels in the Greater Chaco Region is 
violating the NHPA and NEPA, which require sufficient study of cultural 
resources before DOI takes any steps toward oil and gas development. 
Because of the cultural significance and concentration of cultural 
resources in the Greater Chaco Region, these studies must be especially 
rigorous and must incorporate qualified experts, such as Pueblo 
representatives, able to identify our cultural resources. Thus far, DOI 
has not conducted any studies sufficient to identify our cultural 
resources before holding lease sales in the Greater Chaco Region and is 
therefore in breach of the NHPA and NEPA.
    DOI has argued that a literature review is sufficient to meet its 
requirements. This involves reviewing existing records and studies 
available to the BLM. But there is a significant gap in existing 
literature about the Greater Chaco Region because much of the land has 
not been surveyed and the surveys that have taken place are often 
outdated and absent contribution from Pueblo people. While 
archaeologists are trained to identify archaeological features, they 
often lack the cultural expertise of Pueblo representatives. Because 
Pueblo representatives are able to identify their cultural resources, 
which can include natural features, that archaeologists overlook, they 
must be included in cultural resource studies. In fact, when the BLM 
took Pueblo representatives on a sample field investigation leading up 
to the March 2018 lease sale, Pueblo representatives identified 
important cultural resources of which the BLM had not been aware. This 
lead to the deferral of the BLM Farmington Field Office's oil and gas 
lease sale citing cultural resource study adequacy concerns.
    DOI has also argued that, for purposes of the Section 106 process 
of the NHPA (and similarly NEPA), the primary time for conducting 
cultural resource studies is at a later step in the oil and gas 
development process. But, as a lessee gains a property interest in a 
purchased lease, this commitment of Federal resources to a lessee is 
out of step with the legal processes mandated in the NHPA and NEPA.
    Additionally, DOI has acted arbitrarily and capriciously by its ad 
hoc removal of some parcels but not others from particular lease sales. 
In the March and December 2018 lease sales, DOI withdrew all of the 
protested parcels, both in and out of the withdrawal area, due to 
concerns that sufficient study of cultural resources under the NHPA and 
NEPA had not taken place.\6\ Then, in the March 2019 lease sale, DOI 
for no discernable reason withdrew only parcels located within the 
withdrawal area and permitted the sale of leases on protested parcels 
outside. These parcels were located very near or adjacent to parcels 
that had been previously withdrawn. As no cultural resource studies 
were conducted in the interim, the decision to move forward leasing 
those parcels was arbitrary and capricious under the Administrative 
Procedure Act.
---------------------------------------------------------------------------
    \6\ See for example, the BLM's Press Release and statement on its 
March 2018 deferral: https://www.blm.gov/press-release/blm-defers-oil-
and-gas-lease-sale-parcels-new-mexico.
---------------------------------------------------------------------------
    Beyond these legal deficiencies are likely many others, including 
DOI's failure to live up to its trust responsibility to tribes.
                                Requests
    APCG has a number of requests for you that we believe together will 
help protect the cultural resources in the Greater Chaco Region.
    First, we ask that you support the Chaco Cultural Heritage Area 
Protection Act, which will legislatively remove minerals owned by the 
U.S. Government in the withdrawal area from future leasing and 
development. This will make permanent DOI's past and now current 
position that land in this area is unavailable for development due to 
the cultural resources that would be harmed. And it will respond to 
Secretary Bernhardt's recent statement regarding the Greater Chaco 
Region that DOI will respect Congress's role in determining how Federal 
lands should be managed.
    Second, we ask that you put pressure on DOI to prospectively 
identify and analyze the cultural resources that would be affected by 
oil and gas development outside the withdrawal area but within the 
Greater Chaco Region, as required by Federal law. Related to this 
request, we ask that you urge DOI, as part of fulfilling its statutory 
obligations, to increase cultural resource inventories by partnering 
with Pueblos on a cultural resource study outside of the withdrawal 
area in the Greater Chaco Region. APCG asks this Committee to encourage 
DOI to move forward with a study and to request that it necessarily 
include the area of reasonable foreseeable development outside the 
withdrawal area.\7\
---------------------------------------------------------------------------
    \7\ This is a discrete area where development is likely to occur, 
and the BLM has released a map for reasonable foreseeable development 
in the jurisdiction of its Farming Field Office.

                                 *****

                              Attachment 1

         Location of Chaco Canyon, Pueblos, and the Hopi Tribe
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    .Map Credit--Archaeology Southwest

                                 ______
                                 

    Ms. Haaland. Thank you very much, Chairman Torres. The 
Chair now recognizes Vice President Myron Lizer of the Navajo 
Nation.
    Welcome, Mr. Vice President. You have 5 minutes.

   STATEMENT OF THE HON. MYRON LIZER, VICE PRESIDENT, NAVAJO 
                  NATION, WINDOW ROCK, ARIZONA

    Mr. Lizer. Thank you. Good morning, Chairwoman Haaland and 
members of the Subcommittee. My name is Myron Lizer, and I am 
the Vice President of the Navajo Nation. I appreciate the 
opportunity to testify in support of H.R. 2181, the Chaco 
Cultural Heritage Area Protection Act of 2019, to permanently 
protect the sacred Chaco landscape for our children and future 
generations whose culture and history is intimately connected 
to this special place.
    As Native people, we are connected to the land, and it is 
important to preserve sacred landscapes. Chaco Canyon is a very 
special place. It is truly impressive, with stone walls 
standing at least 30 feet into the sky, large round kivas in 
every great house, and thousands of artifacts dating back 
thousands of years.
    It is also widely understood that the Chaco Canyon region 
was a special gathering place where many indigenous peoples and 
clans converged to trade and share goods, stories, ceremonies, 
traditions, and knowledge.
    Aside from Chaco's contributions to the field of 
archaeology and history, this place is sacred and deserves 
permanent protection. It is important that we continue to 
protect sacred sites in places like Chaco so indigenous people 
can continue to teach and share their history. Oftentimes our 
culture and stories are told through landscapes such as Chaco. 
The knowledge held by the land, structures, and artifacts need 
to live on for future generations.
    For many tribes in the Greater Chaco Region, this place 
holds great cultural significance. The sun dagger, ball courts, 
petroglyphs, great houses, and over 430,000 other artifacts 
have greatly informed our past and existence.
    With any type of development, especially oil and gas, the 
risk for disturbances of any structures and artifacts that 
surround the development is always increased. Oil and gas 
development activities will also increase the amount of 
emissions, such as particulate matter, methane, and volatile 
organic compounds.
    Furthermore, with more than 90 percent of the public lands 
in northwest New Mexico already leased for energy development, 
there should not be a need to lease more Federal lands in the 
areas near the park.
    Recently, on May 28, 2019, now Navajo Nation President, 
Jonathan Nez, along with other local tribes, accompanied 
Secretary of the Interior David Bernhardt, who visited the 
Chaco Culture National Historical Park to discuss protection of 
the park from natural resource development. Based on that 
visit, we understand that Secretary Bernhardt has agreed to 
hold off on issuing any new leases for natural resource 
extraction in the area for 1 year for the purpose of updating 
its resource management plan. We applaud the Secretary's 
decision.
    However, we also need to have a more permanent solution 
provided by H.R. 2181 and Senate Bill 1079.
    H.R. 2181 would provide long-term protection for this 
critically important landscape, but it should not also act in 
lieu of the Bureau of Land Management's responsibility to 
listen to our community and protect these lands through the 
administrative process.
    President Nez and I also want to make clear that we oppose 
any talk of potential uranium mining in the area, and we want 
to make sure that it cannot be developed.
    Uranium mining has been detrimental to the Navajo people, 
and we want to make sure that it does not harm anyone again. 
Navajo law also supports a moratorium on uranium mining, 
processing, and transportation activity on the Navajo Nation. 
For the protection of the cultural, historic knowledge, public 
health, and our environment, the Navajo Nation supports the 
Chaco Cultural Heritage Area Protection Act, sponsored by 
Congressman Ben Ray Lujan, as well as Senator Udall's companion 
Senate bill.
    The Greater Chaco Region is a living landscape meant to be 
accessible for tribal communities to support the continuance of 
cultural practices vital to our present identity. The bill also 
protects the land, structures, and environment from any 
unanticipated adverse effects associated with unchecked oil and 
gas development in the region.
    I appreciate the invitation and the opportunity to testify 
before the Committee.
    [Speaking Native language.] Thank you.

    [The prepared statement of Mr. Lizer follows:]
Prepared Statement of Myron Lizer, Vice President, The Navajo Nation on 
                               H.R. 2181
    Good Morning Chairwoman Haaland, Ranking Member Young and members 
of the Subcommittee. My name is Myron Lizer and I am the Vice President 
of the Navajo Nation. I appreciate the opportunity to testify in 
support of H.R. 2181, the Chaco Cultural Heritage Area Protection Act 
of 2019, to permanently protect the sacred Chaco landscape for our 
children and future generations whose culture and history is intimately 
connected to this special place.
    As native people, we are connected to the land and it is important 
to preserve sacred landscapes. Chaco Canyon is a very special place--it 
is truly impressive with stone walls standing at least 30 feet into the 
sky, large round kivas in every great house, and thousands of artifacts 
dating back thousands of years--it is a splendor to see. It is also 
widely understood that the Chaco Canyon region was a special gathering 
place where many indigenous peoples and clans converged to trade and 
share goods, stories, ceremonies, traditions, and knowledge. Our people 
have long settled in the area and many of our traditional stories are 
connected to Chaco and the surrounding region. Aside from Chaco's 
contributions to the field of archeology and history, this place is 
sacred and deserves permanent protection.
    It is important that we continue to protect sacred sites and places 
like Chaco so indigenous people can continue to teach and share their 
history. Often times, our culture and stories are told through 
landscapes such as Chaco. The knowledge held by the land, structures, 
and artifacts need to live on for future generations. For many tribes 
in the greater Chaco region, this place holds great cultural 
significance. The Sun Dagger, ball courts, petroglyphs, great houses, 
and over 430,000 other artifacts have greatly informed our past and 
existence. We should all appreciate and honor the contributions of 
great societies, one of which is Chaco.
    With any type of development, especially oil and gas, the risk for 
disturbances of any structures and artifacts that surround the 
development is always increased. Whether confirmed or not, our people 
living in this region talk about slight tremors that are increasing in 
frequency and they are concerned. Oil and gas development activities 
will also increase the amount of emissions such as particulate matter, 
methane, and volatile organic compounds which can also affect the 
surrounding environment but more important, affect our people living in 
the area along with their livestock. The Navajo Nation has an ugly 
history with uranium mining and its long-lasting effect on human life, 
our animals, and our environment. We cannot go through another 
environmental disaster if we can prevent it now.
    Furthermore, with more than 90 percent of the public lands in 
Northwest New Mexico already leased for energy development, there 
should not be a need to lease more Federal lands in the areas near the 
park.
    Recently, on May 28, 2019, Navajo Nation President Jonathan Nez 
along with Pueblo tribal leaders and Senator Martin Heinrich, met with 
Secretary of Interior David Bernhardt at the Chaco Culture National 
Historic Park to discuss protection of the park from natural resource 
development. This was the first visit by Secretary Bernhardt to the 
park. Based on that visit, we understand that Secretary Bernhardt has 
agreed to hold off on issuing any new leases for natural resource 
extraction in the area for 1 year for the purpose of providing the 
Bureau of Land Management time to complete its updated resource 
management plan. We support the development of sustainable management 
so long as it prevents Federal oil and gas extraction within the area 
designated in H.R. 2181 located in and around the Chaco Cultural 
National Historic Park. We applaud the Secretary's decision, however we 
also need a more permanent solution provided by H.R. 2181 and S. 1079.
    H.R. 2181 would provide long-term protection for this critically 
important landscape filled with cultural objects and sacred sites, but 
it should not also act in lieu of BLM's responsibility to listen to our 
communities and protect these lands through the administrative process. 
Furthering the partnership between agencies and Indian tribes will help 
ensure that tribes will be consulted and that a scientific and 
archaeological analysis would be conducted to guarantee cultural 
sensitivity, even on leases that may have already been executed within 
the Chaco region.
    President Nez and I also want to make clear that we oppose any talk 
of potential uranium mining in the area and we want to make sure that 
it cannot be developed. Uranium mining has been detrimental to the 
Navajo people and we want to make sure that it does not harm any 
families again. Navajo law also supports a moratorium on uranium 
mining, processing, and transportation activity on the Navajo Nation.
    For the protection of the cultural and historic knowledge, public 
health and our environment, the Navajo Nation supports the Chaco 
Cultural Heritage Area Protection Act sponsored by Congressman Ben Ray 
Lujan as well as Senator Udall's companion Senate bill. The Greater 
Chaco Region is a living landscape, utilized by our ancestors and meant 
to be accessible for tribal communities to support the continuance of 
cultural practices vital to our present identity. The bill also 
protects the land, structures and environment from any unanticipated 
adverse effects associated with unchecked oil and gas development in 
the region.

    I appreciate the invitation and the opportunity to testify before 
the Committee. Ahehee'.

    Thank you.

                                 ______
                                 

    Ms. Haaland. Thank you, Mr. Vice President.
    The Chair now recognizes the Honorable Timothy Menchego, 
Governor of the Pueblo of Santa Ana.
    Welcome, Governor.

  STATEMENT OF THE HON. TIMOTHY MENCHEGO, GOVERNOR, PUEBLO OF 
                     SANTA ANA, NEW MEXICO

    Mr. Menchego. [Speaking Native language.] Thank you, Madam 
Chair, members of the Committee. I appreciate the time and the 
opportunity to be able to speak my comments in my language. 
That is the total importance of our identity.
    Language is an identifier, a total identifier for Native 
people, and not only Native people, but indigenous people, the 
minority people around the world.
    I talked about emergence, how we were led, our stories of 
migration, the patterns, the pathways of how we made it to 
Chaco Canyon. From that point, tribes split, separated, but we 
still were led by leadership, spiritual, traditional 
leadership. Regardless of how far our settlements have taken 
us, we still have a tie, we still have our heart with Chaco 
Canyon.
    It is important, as some of my previous brothers have 
mentioned, for the future the longevity, our identity. Granted, 
time has happened and occurred; granted, we have had 
encroachment and settlement. There is a foundation. It is our 
people. It is our Pueblo people that are the basis, that are 
the foundation. We are still living descendants. We are still 
actual remnants of what Chaco Canyon was. Visit any Pueblo in 
New Mexico. Speaking for Santa Ana Pueblo, you can see the 
patterns of the buildings, the structures, the way they are 
built, the way they are designed, the representation of the 
kivas that are also found in Chaco, as well as Mesa and other 
outliers.
    Today, we are here to talk about H.R. 2181 and the definite 
need for this bill to be implemented for permanent protection. 
As with APCG and their comments--and being part of APCG, we do 
support what APCG has proposed and presented.
    The 10-mile buffer needs to be protected almost 
immediately, if not yesterday. We don't know the facts. We 
don't know the aftermath. For example, sometimes there are 
concerns of seismic activity for proposed and potential 
fracking. We don't want to open that little bit of Pandora's 
box to see what the aftermath and after-effects are. Curiosity, 
as they say, is what killed the cat. We don't want to be 
curious. We want to know and we want to do what we know is 
right immediately for the future generation of our people, so 
they can continue to have their identity, to understand, and to 
know where they came from, where they settled, and what 
direction they need to continue forward in the future.
    Thank you for the opportunity to speak.

    [The prepared statement of Mr. Menchego follows:]
Prepared Statement of Timothy Menchego, Governor of the Pueblo of Santa 
                            Ana on H.R. 2181
    The Pueblo of Santa Ana thanks the Committee for the opportunity to 
testify on the Chaco Cultural Heritage Area Protection Act of 2019, 
H.R. 2181. The bill was introduced by Representative Lujan, and its 
companion bill was introduced by Senator Udall--true champions for 
Indian Country. We thank them for their steadfast support.
                               Background
Cultural Resources

    The Pueblo of Santa Ana, hereinafter referred to by our traditional 
name of ``Tamaya,'' is located in north-central New Mexico along the 
Rio Grande River. Our reservation encompasses approximately 150,000 
acres in Sandoval County. Our Pueblo nation currently has over 800 
enrolled members.
    Although the Tamayame have occupied their current site in central 
New Mexico since at least the late 1400s, our ancestry can be traced 
back to Chaco Canyon (850 A.D.), a major trading and cultural center of 
the ancestral Pueblo world.
    The Greater Chaco Region, which includes all of the San Juan Basin, 
describes the vast archaeological, cultural, and natural landscape(s) 
emanating from Chaco Canyon through the Four Corners Regions to the 
existing Pueblo nations of today. The existence of Chaco Canyon and the 
Greater Chaco Region is important to who we are as Pueblo people even 
today, helping us connect with our ancestors, reminding us where we 
came from, and teaching us about why we do the things we do. As 
Tamayame, Chaco Canyon and the Greater Chaco Region are intimately tied 
to the experiences of our ancestors and intimately connected to our 
collective memory. The Greater Chaco Region is where our ancestors 
lived for generations developing the foundations of our current 
cultural practices, traditions, and beliefs that continue to define our 
identity as Tamayame today. To lose these sacred places would be to 
erase our identity as Pueblo people.
    Therefore, the Greater Chaco Region is a living landscape, depended 
on by all generations of many of our Pueblo nations and communities. 
When our people left Chaco, we moved outward across the landscape to 
our current lands. These migration paths left many cultural resources 
behind, and they are themselves part of the story of who we are. As 
Tamaya, we have an inherent responsibility to protect these life-
affirming resources for the continuity of our identity. Many of these 
cultural resources remain unidentified in the Greater Chaco Region. 
While archaeologists are adept at recognizing many types of 
archaeological resources, including potsherds, room blocks, and 
pithouses, many of our vital cultural resources important to the 
Pueblos are outside the domain of archaeology. For example, many of 
these cultural resources which are not archaeological include natural 
formations with culturally relevant uses, modifications, and/or 
meanings. For Tamaya, and for other Pueblos, all ancestral Pueblo 
archaeological resources are cultural resources, but not all cultural 
resources are archaeological in nature. Therein lies the major issue.
    Although our tribal representatives at Tamaya have the expertise in 
identification and analysis and the inherent responsibility to protect 
the integrity of our cultural resources, we are forced to rely on 
Federal agencies, as our trustees, to safeguard these resources in a 
period of unchecked oil and gas development. Unfortunately, these 
agencies are often unable or unwilling to take the necessary first step 
needed to engage with our tribal experts to identify these significant 
cultural resources. This necessary first step includes providing us 
with the opportunity to survey nominated lease parcels and potential 
drilling sites before Federal action is taken.\1\
---------------------------------------------------------------------------
    \1\ See ``Uncited Preliminary Brief (Deferred Appendix Appeal) of 
Amici Curiae All Pueblo Council of Governors and National Trust for 
Historic Preservation, in Support of Appellants,'' Dine Citizens 
Against Ruining Our Environment, et al v. Ryan Zinke, et al, Civ. No. 
18-2089 (Sept. 7) (10th Cir. 2018) (describing violations of the 
National Historic Preservation Act and implementing regulations in 
failing to consult with Pueblo tribal governments when considering 
applications for permits to drill (``APDs''), in order to gather 
required information about potentially affected historic properties, 
including traditional cultural properties (``TCPs''), and how approving 
the APDs would adversely affect Pueblo TCPs).
---------------------------------------------------------------------------
Oil and Gas Development
    Today, the major center point of the Greater Chaco Region, Chaco 
Canyon, is protected by the boundaries of the Chaco Culture National 
Historic Park, which is recognized as a UNESCO World Heritage Site. 
Unfortunately, the location of Chaco Canyon and the Greater Chaco 
Region is also its greatest peril. The Greater Chaco Region sits atop 
an oil field that is under tremendous pressure for development from the 
oil and gas industry. Upwards of 90 percent of the land in the region, 
primarily managed by the BLM Farmington District and Rio Puerco Field 
Offices, is already leased for oil and gas development, and the 
remaining land comes dangerously close to Chaco Canyon itself.
    Currently, oil and gas development is overwhelming this fragile and 
sacred landscape. The BLM Farmington Field Office, whose boundaries 
include the primary bulk of the New Mexico portions of the Greater 
Chaco Region, has exhausted nearly all available lands for leasing. Due 
to developments in oil and gas technology, previously inaccessible 
reaches of oil are now open, dangerously encroaching upon Chaco Canyon. 
This renewed interest by industry has spilled east into a portion of 
the neighboring BLM Rio Puerco Field Office that juts into the Greater 
Chaco Region. Under the guise of ``streamlining,'' \2\ the BLM issued 
Instruction Memorandum 2018-034, ``Updating Oil and Gas Leasing 
Reform--Land Use Planning and Lease Parcel Reviews,'' which has made an 
already fraught situation worse by strictly adhering to a mandatory 
quarterly leasing schedule, dismantling many land management processes, 
and all but ensuring oil and gas leases are sold within a minimum 6-
month time frame. This rush to sell leads to incomplete and inadequate 
analyses under the National Environmental Policy Act (``NEPA'') and the 
National Historic Preservation Act (``NHPA'').\3\
---------------------------------------------------------------------------
    \2\ See BLM Instruction Memorandum 2018-034, ``Updating Oil and Gas 
Leasing Reform--Land Use Planning and Lease Parcel Reviews.''
    \3\ Under the NHPA and its implementing regulations, Pueblo 
cultural resources may be considered historic properties or traditional 
cultural properties under proper analysis and may be eligible for 
listing on the National Register of Historic Places. Under the NHPA, 
when a Federal undertaking takes place, a process, often referred to as 
the Section 106 process, begins. Section 106 is a critical, step-driven 
process, meant to determine: (1) the area of potential effects; (2) the 
identification of historic properties; (3) the assessment of adverse 
effects; and (4) the resolution of adverse effects. The Section 106 
process is where meaningful tribal consultation is required to advise 
the agency on the identification and evaluation of historic properties, 
including those of traditional religious and cultural importance. NEPA 
incorporates the NHPA analysis into its environmental assessments and 
environmental impacts statements, requiring simultaneous analyses in 
order to assess the full impact of an undertaking.
---------------------------------------------------------------------------
    Until recently, the Department of the Interior (``DOI'') deemed the 
area surrounding the Park--now called the withdrawal area--unavailable 
for oil and gas development. This Administration reversed the policy, 
including allowing fracking. Since reversal, DOI has held quarterly oil 
and gas lease sales that include parcels within the withdrawal area and 
throughout the Greater Chaco Region. DOI has not conducted the type of 
cultural resource identification and analysis that would be required to 
protect cultural resources from the effects of oil and gas development 
or to comply with its Federal statutory obligations.
    However, DOI seems to be coming to the understanding that oil and 
gas development in the withdrawal area is not appropriate. Despite 
including parcels located within the withdrawal area in lease sales, 
after significant pressure from the Pueblos and others, DOI has 
withdrawn them before the lease sales take place. Secretary Bernhardt's 
recent announcement after a visit to the Greater Chaco Region that DOI 
will take appropriate action to defer leasing within the withdrawal 
area during the coming year was welcome news. The New Mexico State Land 
Office also recently issued a moratorium on future mineral development 
within the withdrawal area.
                   The Pueblo of Santa Ana's Position
    Like APCG, the Pueblo of Santa Ana firmly believes no oil and gas 
development should take place within the withdrawal area. For this 
reason, we support the Chaco Cultural Heritage Area Protection Act of 
2019, which would legislatively remove United States land in the 
withdrawal area from oil and gas development. And we ask that you as a 
Committee support this legislation.
    In addition to protecting the withdrawal area from oil and gas 
development, and despite the future of H.R. 2181 and the 
Administration's temporary moratorium in the region, we must complete 
cultural resource studies outside the withdrawal area. Like APCG, the 
Pueblo of Santa Ana takes the position that, for development outside 
the withdrawal area but within the Greater Chaco Region, rigorous 
identification and analysis of cultural resources must take place 
before any steps toward oil and gas development occur. Because the 
Greater Chaco Region undeniably contains significant cultural 
resources, which Pueblo experts are best situated to identify, the 
Pueblo of Santa Ana maintains that the identification and analysis of 
cultural resources must incorporate Pueblo representatives.
                                Requests
    First and foremost, we ask that this Committee support the Chaco 
Cultural Heritage Area Protection Act of 2019, which will help protect 
the withdrawal area from oil and gas development.
    Additionally, we ask that this Committee help amplify the Pueblos' 
requests for cultural resource studies outside the withdrawal area but 
within the Greater Chaco Region. As previously outlined, the migration 
paths of our Pueblo people are deeply important to who we are today and 
contain cultural resources, many of which only Pueblo people will be 
able to identify. For this reason, cultural resource studies must be 
Pueblo-led.
    More holistically, we ask that DOI work with the Pueblos to study 
where cultural resources are likely to be located across the landscape 
so that DOI can make more informed decisions about development early 
on, as required by the Federal Land Policy and Management Act and other 
laws.
    In a parcel-by-parcel lens, we ask that DOI work with Pueblos to 
identify and analyze the cultural resources that would be affected by 
oil and gas development on a particular parcel before listing it in a 
lease sale, as required the NHPA, NEPA, and other laws. To reiterate, 
we are most concerned about land within the jurisdictions of the BLM 
Farmington and Rio Puerco Field Offices at this time.
    To facilitate cultural resource studies, and at the invitation of 
DOI, the Pueblos submitted to DOI a proposal to conduct a Pueblo-led 
study of the cultural resources in the Greater Chaco Region. Pueblo 
leadership has since met with officials from the BLM and the Assistant 
Secretary-Indian Affairs' Office, who have stated they will offer a 
counter proposal for a pilot project that would cover less land. I ask 
that this Committee encourage DOI to move forward with this study and 
urge DOI to include the area of reasonable foreseeable development 
outside the withdrawal area.\4\
---------------------------------------------------------------------------
    \4\ See Attachment 1 ``Map--Oil and Gas Development Potential 
within the Farmington Field Office Administrative Boundary, 2018-2037.
---------------------------------------------------------------------------
    Such studies would benefit everyone. They would help protect 
irreplaceable cultural resources and carry out DOI's statutory 
obligations. If done properly and early in the oil and gas development 
process, these studies would also save DOI, developers, and the Pueblos 
time and money.

                                 *****

                              Attachment 1

  Map--Oil and Gas Development Potential within the Farmington Field 
               Office Administrative Boundary, 2018-2037
               
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]               



    Map Credit--U.S. Department of the Interior, Bureau of Land 
Management--New Mexico State Office, ``Reasonably Foreseeable 
Development Scenario for Oil and Gas Activities--Mancos Gallup RMPA 
Planning Area, Farmington Field Office, Northwestern New Mexico''

                                 ______
                                 

    Ms. Haaland. Thank you very much, Governor.
    The Chair now recognizes Mr. Samuel Sage, Community 
Services Coordinator of the Counselor Chapter House.
    Mr. Sage.

   STATEMENT OF SAMUEL SAGE, COMMUNITY SERVICES COORDINATOR, 
        COUNSELOR CHAPTER HOUSE, FARMINGTON, NEW MEXICO

    Mr. Sage. Thank you. Chair Haaland and also Chair Grijalva, 
thank you for this opportunity to share with you why I support 
H.R. 2181, Chaco Cultural Heritage Area Protection Act of 2019.
    I also appreciate the collaboration with the All Pueblo 
Council of Governors and the Navajo Nation, ensuring that 
tribal trusts and allotment lands within the 10-mile buffer are 
not impacted.
    [Speaking Native language.] My name is Samuel Sage. I am a 
U.S. Army military police veteran, and I am also an allotment 
landowner with my siblings. We receive royalty payments from 
time to time, but they are decreasing.
    In 2003, when I was a chapter president of a counselor 
chapter, I found out that BLM, Bureau of Land Management, was 
not consulting with our local chapter government. BLM was ready 
to approve their resources management plan, which they had 
revised without tribal consultation.
    In 2004, the counselor chapter which I was the president of 
at that time, joined a lawsuit with San Juan Citizens Alliance 
versus DOI Gale Norton for BLM failing to consult with Native 
American government and communities. The outcome of the lawsuit 
did not go in our favor, but at the time, under the leadership 
of Farmington field office manager Steve Henke, an agreement to 
consult with Navajo Nation communities was drawn up and agreed 
upon. To this date, the agreement has not been honored. BLM is 
still failing to engage in meaningful tribal consultation, and 
continuing to ignore the impacts of drilling on our landscape, 
and the concern of the Navajo Nation and local residents.
    In 2013, full-scale horizontal drilling and hydraulic 
fracking over-ran our community under the title ``Exploratory 
Drilling.'' Soon there were more than 100 wells. This 
devastated our community with increasing traffic, truck drivers 
who had no regard for the safety of the local communities, 
school buses, and emergency vehicles. The dirt roads used to be 
wagon trails. They were never built for heavy truck traffic. 
The roads became worse during inclement weather, and were 
unpassable. After the drilling, the pump jacks that went up, 
the air quality changed. A majority of the wells leaked, and 
the smell of rotten eggs because of the hydrogen sulfide. 
Certain valleys became worse.
    And, in 2019, the allotment landowners and their heirs were 
approached by BLM-contracted land agents to sign to consent for 
oil and gas development. The land agents would say, ``I need 
your signature for oil and gas development. If you sign, this 
is how much money you will get.'' Anywhere from 10K to 100-
400K+. No explanations were given at the time, and also that 
this was a one-time thing.
    The BLM turned families and community members against each 
other. Some people regret that they agreed to lease their 
lands, and to the new type of hydraulic fracking. And also 
every day we see oil and gas pump trucks from the ground pump, 
and then there is water spill contamination, cattle walking in 
the wastewater pits, and elderlies and children getting sick.
    I thank you at this time that I can offer you this really 
short oral testimony. I believe that the Chaco Protection Act 
is a good step that will help to protect ancient lands, as well 
as our lives of the community. Although there are various 
opinions on oil and gas development among allotment landowners, 
many also strongly support this bill. Thank you.

    [The prepared statement of Mr. Sage follows:]
  Prepared Statement of Samuel Sage, Community Services Coordinator, 
                  Counselor Chapter House on H.R. 2181
    Chair Haaland and distinguished members of the Subcommittee, thank 
you for this opportunity to share with you why I support H.R. 2181--
Chaco Heritage Area Protection Act of 2019. Thank you as well for 
taking the time to visit Chaco Cultural National Historical Park and 
the surrounding Greater Chaco Region on April 14, 2019. I applaud your 
commitment to learning firsthand about the issues facing this leaguered 
cultural landscape and dedicating to exploring solutions to ensure 
meaningful protections for this area.
    To'di'ch'ii'nii (Bitter Water clan), Bit'ahnii (Within-his-cover). 
My name is Samuel Sage. I am a U.S. Army Military Police Veteran. I am 
from Counselor Chapter community. Counselor Chapter is where I work.
    Growing up on my homeland was wonderful, clean and noise free. 
Early mornings sun raise, cool breeze from the east would bring the 
smell of rain, wet dirt. It was quiet. You could hear a vehicle off in 
the distance, along roosters crowing from your neighbors, who were 5 
miles away. Nights were beautiful, stars were bright and sparkling. It 
seems like you could actually reach up and touch the stars. Navajo 
traditional medicine people and herbalists had no problems gathering 
plants for medicinal purpose. The plants grew every year and wildlife 
were abundant.
    In 2003, I found out the Bureau of Land Management (BLM) were not 
consulting with our local chapter government. BLM were ready to approve 
their Resources Management Plan, which they had revised without tribal 
consultation.
    In 2004, Counselor Chapter, which I was the President at the time, 
joined a Lawsuit with San Juan Citizen Alliance v. U.S. DOI Gale Norton 
for BLM failing to consult with Native American Government and 
communities.
    In 2006, the outcome of the lawsuit did not go our way. The judge 
stated BLM did everything correctly. Later, BLM-Farmington Field Office 
under the leadership of Steve Henke made a 10-point agreement to 
consult with Navajo Nation and communities. To this day the agreement 
was not honored and has gone nowhere.
    In 2013, full scale hydraulic fracturing over ran our community 
under the title ``Exploratory Drilling.'' This event devastated our 
community. The sudden increase in truck traffic; truck drivers had no 
regard for the safety of the local community members, school buses, 
emergency vehicles. The local dirt roads were never built for heavy 
truck traffic. They were wagon trails turned into bladed gravel roads. 
Increase in dust was being stirred up by the traffic. The conditions 
became worst during inclement weather and impassable. After the 
drillings and pump jacks were set up the quality of the air changed. 
Because the majority of the wells were leaking, the air smelled like 
rotten eggs. Certain valleys became worst. Bright lights from the 
flaring were so bright and the noise of the drilling rigs was constant. 
None of these impacts were explained to the community members by BLM. 
Industry just quietly moved into the community and started their 
destructions.
    In 2014, Indian Allotment Landowners and their heirs were 
approached by BLM Contracted Land Agents to obtain signatures for 
consent for Oil & Gas Development. The Land Agents' conversation with 
the Allotment Landowner and Heirs would go like, ``I need your 
signature for Oil & Gas Development. If you sign this is how much money 
you are going to get.'' (10K-400+K)
    Of course, when money is mentioned people jump to sign. No 
explanation was ever given that this was a one-time thing. This type of 
event by BLM & Industry turned families against each other, along with 
community members.
    Some of the community elders were abused, threatened--with bodily 
harm over the money they received by their own family members. One 
elderly lady had a hard time cashing a large amount on her check. Bank 
wouldn't help her. She ended up at car dealership. She was thinking if 
she purchased a vehicle she would get some cash back. Instead the 
dealership took the check and she ended up with six (6) vehicles. Some 
adult children and grandchildren got power of attorney to handle their 
finances, which turned out the money being all spent. Little or none 
went to benefit the parents. There are approximately four killings 
unresolved as a result of money. The saddest thing was the people that 
received a large amount of money went back to the Farmington Field 
Office-Indian Individuals Minerals Office asking when they will receive 
another check, after all their money was spent.

    In March 2018, BLM deferred the sale of 25 lease parcels covering 
more than 4,000 acres in Rio Arriba, San Juan, and Sandoval Counties. 
Citing Cultural resources concerns, BLM stated in a press release:

        Secretary of the Interior Ryan Zinke announced Thursday that he 
        directed the BLM to defer its scheduled Farmington Field Office 
        lease sale so the agency could complete an ongoing analysis of 
        more than 5,000 cultural sites in the proposed leasing area.

    To date, BLM has yet to complete its analysis of cultural sites in 
the Greater Chaco region. What's more, BLM has proceeded to lease in 
the region despite its acknowledged need for more rigorous cultural 
surveys.
    In December 2018, BLM proposed to lease additional lands for oil 
and gas development in the Greater Chaco region. After public uproar, 
BLM withdrew selling lands in the Farmington Field Office. They kept 
selling lands in Sandoval County, which is part of the Rio Puerco Field 
Office, many of which are within 20 miles of Chaco Cultural National 
Historical Park. BLM did this after previously deferring the sale of 
lands in Sandoval County. BLM sold leases even though it had yet to 
complete the analysis of cultural sites BLM indicated it needed to 
complete in to justify leasing in the Greater Chaco area.
    In March 2019, BLM proposed to lease more than 11,000 acres in the 
Greater Chaco region, including Farmington and Rio Puerco Field Offices 
for oil and gas development. The public responded with another 
opposition, including the filing of more than 30,000 protest letters. 
BLM deferred only nine parcels totaling 1,500 acres that happened to be 
within 10 miles of Chaco Cultural National Historical Park. Again, BLM 
proceeded to sell lands that it previously deferred in the Farmington 
and Rio Puerco Field offices. BLM sold these leases even though it had 
yet to complete the analysis of cultural sites that BLM indicated it 
needed to complete in order to justify leasing in the Greater Chaco 
area. BLM continues to push to open up more lands for oil and gas 
development in Greater Chaco.
    Today, BLM is moving forward with this lease sale despite 
acknowledging a need to pause in order to fully account for the impacts 
to cultural sites in the region.
    BLM has failed to properly follow their own process in obtaining 
informed consent for oil development, they failed to consult with 
families and the community in the leasing process, and there were no 
ethnographic studies or cultural resources inventories of the area 
before leasing.
    Above all, BLM and Industry tells us how safe fracking is. There 
have been television commercials stating how safe fracking is. We had a 
large 36-storage tank facility holding oil and produced water explode 
and catch fire. The fire burned for five (5) days, spewing toxic smoke. 
Industry conducted their own investigation. Their findings were never 
made public or to the community members living in the area.
    In April 2019, it was discovered of 2 WPX pipeline failures in 
Southwestern area of Counselor community in the Greater Chaco area. 300 
barrels of oil and 100 barrels of produced water were spilled. The 
neighboring Navajo Chapter and Counselor were not notified. Industry, 
again investigated the cause and reports not made the local Navajo 
governments.

    The life of our community has been changed and is now unbalanced. 
People now regret they agreed to lease their land for this new type of 
fracking and drilling. Everyday, we see the oil and gas being pumped 
from the ground, the water spilling out and contaminating the land, our 
cattle walking in the waste-water pits and the elders and children 
getting sick more. There are much the oil companies should do to 
mitigate this damage:

    --To restore our roads

    --To save and protect our water

    --To fence off wastewater

    --To stop leaks and reduce toxic air emissions

    --To be honest with every allotment owner and explain the dangers 
            and risks they are taking.

    Today, our traditional medicine people and herbalist are having a 
hard time locating and gathering plants for medicinal purposes. The 
plants are no there, in the area. They have to travel to the mountains 
to gather the plants. Early mornings are no longer quiet, you can hear 
truck traffic, pump jacks, drilling rigs and clinking of metal pipes. 
Bright lights, dust in the air, along with the smell of rotten eggs. 
Wildlife have left the area. In some areas the vegetations are drying 
up. Community members are complaining about the ground rumbling and 
shaking after midnight to early in the morning. While the cities are 
enjoying the benefits of the extraction and we are left with the 
negative impacts.
    I believe the Chaco Protection Act will help our ancient land as 
well as our living communities.

    Thank you.

                                 ______
                                 

    Ms. Haaland. Thank you very much, Mr. Sage. And thank you 
for your service to our country.
    The Chair now recognizes Ms. Delora Hesuse, a Navajo Nation 
Indian allottee.
    You have 5 minutes, Ms. Hesuse.

 STATEMENT OF DELORA HESUSE, NAVAJO INDIAN ALLOTTEE, NAGEEZI, 
                           NEW MEXICO

    Ms. Hesuse. I would like to thank Chairwoman Haaland and 
the Ranking Member of the Subcommittee. Thank you for the 
opportunity to bring voice to those Navajo tribal members who 
are being forgotten with this bill: Indian allottees.
    I am Delora Hesuse, a citizen of the Navajo Nation Nageezi 
Chapter of the people born for the Mexican clan. My chapter is 
in the Greater Chaco Region, and near the Chaco Culture 
National Historical Park. My grandmother was a councilwoman for 
the Nageezi Chapter for 8 years, and my father was a Navajo 
Nation Council Delegate for the Nageezi chapter for 20 years.
    Many people don't understand our Native American heritage, 
and the fact that many individuals, Navajo Nation members such 
as I, own private land and minerals underneath them. This is a 
steadfast personal property right that sustains our livelihoods 
and way of life. H.R. 2181 would put many of our mineral rights 
off limits, and stop much-needed source of income to feed, 
shelter, clothe, and protect our families. This income is 
important to us.
    In 2015, the Federal Indian Mineral office distributed $96 
million to 20,835 allottees. That is a huge source of income to 
us. My ancestors were allotted the land and mineral rights by 
the U.S. government many generations ago. It pains me to see 
that my own leaders, both tribal and in Congress, are 
supporting a bill that would put my oil and natural gas rights 
off limits and prevent my family from receiving income from a 
valuable energy resource that we own.
    I am not alone. Many other Indian allottees in the Greater 
Chaco Region agree with me. In fact, I have a petition signed 
by 131 of us allottees opposing this buffer bill.
    I also have my other petition signed by many allottees that 
state that the environmentalist voice is not our voice. Our 
voices as allotted landowners are being silenced by the 
environmentalists claiming to speak for all of us.
    These lands were given to our great-great-grandparents to 
exchange for citizenship, and we have rights as citizens and 
landowners to develop our lands for oil and gas as we see fit.
    I have two resolutions for the Heurfano and Nageezi 
chapters signed by our chapter president supporting us Navajo 
allotment owners, and recognizing our opposition to this bill. 
These chapter resolutions call for a meeting with Senator Udall 
and Heinrich so that we can express our concerns with the bill 
and how it would limit our rights.
    I am disappointed that the Interior Department, which is 
supposed to manage our mineral rights entrusted to benefit of 
allottees, has stopped leasing for a year. This action delays 
income to us allottees in the short term. But, more 
importantly, sends a strong signal to oil and gas companies 
that investment in the area is risky and uncertain in the long 
term.
    I am participating actively in the Resource Management 
Planning process, which is under pressure from the 
environmentalist groups and others opposed to responsible oil 
and natural gas development in the area. I continue to feel 
that the Department of the Interior and Members of Congress are 
ignoring the voice of Indian allottees and listening only to 
the environmental groups like Dine Care and other outside 
groups that will keep oil and gas from being developed.
    Besides not being realistic, it would deprive my family of 
income to sustain our way of life. Our voices should and must 
be heard equally, along with environmental specialist interest 
groups. In fact, with the Interior Department's trust 
responsibility, our voices should carry more weight than the 
outside special interests, but that is not the case.
    The bill would put off my mineral rights and the mineral 
rights of thousands of allottees. While the bill claims to not 
affect my mineral rights, in fact, many allottee lands are 
surrounded by Federal lands that would be withdrawn by this 
bill. If BLM lands are withdrawn around our allotments, oil and 
gas companies cannot access our land. They will be destroyed 
from developing the minerals on my behalf, because it just 
doesn't make sense to pinpoint my small amount of minerals 
stranded amongst Federal minerals. What will be small to them, 
however, is not small to me.
    I, too, care deeply about the Chaco culture heritage. After 
all, I am a Navajo who lives right in the Greater Chaco Region. 
But the Chaco Culture National Historical Park already protects 
the great houses. Artifacts that might be outside the park are 
protected through the National Historic Preservation Act. Any 
developments of my minerals and minerals of other allottees----
    Ms. Haaland. Ms. Hesuse, I am so sorry, your time has 
expired.
    Ms. Hesuse. OK. Thank you.

    [The prepared statement of Ms. Hesuse follows:]
 Prepared Statement of Delora Hesuse, Navajo Indian Allottee, Nageezi 
                          Chapter on H.R. 2181
    Chairwoman Haaland, Ranking Member Young and members of the 
Subcommittee, thank you for the opportunity to bring voice to those 
Navajo tribal members who are being forgotten with this bill--Indian 
allottees.
    I am Delora Hesuse, a citizen of the Navajo Nation, Nageezi 
Chapter. My chapter is in the Greater Chaco Region and near the Chaco 
Culture National Historic Park. My grandmother was a Councilwoman for 
the Nageezi Chapter for 8 years, and my father was a Navajo Nation 
Council Delegate for the Nageezi Chapter for 20 years.
    Many people don't understand our Native American heritage and the 
fact that many individual Navajo Nation members such as I own private 
lands and the minerals underneath them. This is a steadfast personal 
property right that sustains our livelihoods and way of life. H.R. 2181 
would put many of our mineral rights off limits and stop a much-needed 
source of income to feed, shelter, clothe and protect our families. I'm 
not exaggerating the importance of this income. In 2015, the Federal 
Indian Minerals Office distributed $96 million to 20,835 allottees.\1\ 
That's a significant source of income in an area that continues to 
struggle with unemployment.
---------------------------------------------------------------------------
    \1\ Final Audit Report: Bureau of Indian Affairs' Federal Mineral 
Office, Office of the Inspector General, U.S. Department of the 
Interior, February 3, 2017.
---------------------------------------------------------------------------
    My ancestors were allotted the land and mineral rights by the U.S. 
Government many generations ago, and it pains me to see that my own 
leaders, both tribal and in the U.S. House of Representatives and 
Senate, are supporting a bill that would put my oil and natural gas 
rights off limits and/or seriously prevent my family from receiving 
income from the valuable energy resources that we own.
    I am not alone. Many other Indian allottees in the Greater Chaco 
Region agree with me. In fact, I have here a petition signed by 131 of 
us allottees opposing this buffer zone bill.
    I also have with me another petition signed by many allottees that 
states that the environmentalists' voice is not our voice. Our voices 
as Allotted landowners are being silenced by environmentalists claiming 
to speak for all of us. These lands were given to our great, great 
grandparents in exchange for citizenship, and we have rights as 
citizens and landowners to develop our lands for oil and gas as we see 
fit.
    I also have two resolutions from the Huerfano and Nageezi chapters 
signed by our chapter presidents supporting us Navajo Allotment 
landowners and recognizing our opposition to this bill. These chapter 
resolutions call for a meeting with Senators Udall and Heinrich so that 
we can express our concerns with the bill and how it will limit our 
rights.
    I am disappointed that the Department of the Interior, which is 
supposed to manage our mineral rights in trust to the benefit of my 
family and all other allottees, has stopped leasing for a full year. 
This action delays income to us allottees in the short term, but more 
importantly, sends a strong signal to oil and gas companies that 
generate the income on our behalf that investment in the area is risky 
and uncertain in the long term.
    I have been participating actively in the Resource Management 
Planning (RMP) process which is under pressure from environmental 
groups and others opposed to responsible oil and natural gas 
development in the area. I continue to feel that the Interior 
Department and Members of Congress are ignoring the voice of Indian 
allottees and listening only to environmental groups like Dine Care and 
other outside groups that want to keep oil and natural gas from being 
developed at all.
    Besides not being realistic, it would deprive my family of income 
to sustain our way of life. Our voices should and must be heard equally 
along with the environmental special interest groups. In fact, with the 
Interior Department's trust responsibility, our voices should carry 
much more weight than that of outside special interests, but that is 
not the case with this bill.
    The bill would put off limits my mineral rights and the mineral 
rights of thousands of allottees. While the bill claims not to affect 
my mineral rights, in fact, many allottee lands are surrounded by 
Federal lands that would be withdrawn by this bill. If BLM lands are 
withdrawn around our allotments, that means oil and gas companies 
cannot access our lands, because they won't be able to access the 
Federal lands.
    Furthermore, since the oil and gas is accessed using horizontal 
drilling, putting the Federal lands and minerals off limits will mean 
my minerals are also off limits. Because of the checkerboard pattern of 
lands, where allottee lands are often surrounded by BLM lands, 
particularly in the northeast segment of the buffer, if companies 
cannot access all minerals along the lateral of a horizontal well, they 
will not access any.
    Companies will simply be discouraged from developing the minerals 
on my behalf because it just doesn't make sense economically or 
technologically to pinpoint my small amount of minerals stranded 
amongst Federal minerals. What may be small to them, however, is not 
small to me. Companies will be discouraged from developing in all areas 
of the buffer at all, even on allottee lands.
    I too care deeply about the Chaco cultural heritage. After all, I'm 
a Navajo who lives right in the Greater Chaco Region. But the Chaco 
Culture National Historic Park already protects the Great Houses. 
Artifacts that may be outside the park are protected through the 
National Historic Preservation Act. Any development of my minerals and 
the minerals of other allottees is done in strict accordance with the 
Act, to make sure they are protected. Not only do we insist upon it, 
but that is the law of the land.
    I urge the Committee not to pass this bill. Thank you for the 
opportunity to testify today.

                                 ______
                                 

  Questions Submitted for the Record to Delora Hesuse, Navajo Indian 
                                Allottee
                   Question Submitted by Rep. Curtis

    Question 1. Chairwoman Haaland read a statement from Representative 
Lujan to you during the hearing: ``The BLM has testified that this 
legislation would not affect tribal interests or allottees, while the 
bill itself includes language that recognizes the rights of Navajo 
allottees such as yourself, Ms. Hesuse, to continue to develop their 
lands.'' Representatives Haaland and Lujan are referring to testimony 
from BLM's Mike Nedd on May 16 before the Senate Committee on Energy 
and Natural Resources, Subcommittee on Public Lands, Forest and Mining 
regarding S. 1079. However, what they're referring to is an answer to a 
specific question from Senator Mike Lee: ``Do you know how tribal 
allottees and horizontal dlilling on allotted lands might be affected 
by the protection zone and by this legislation?'' Mr. Nedd answered 
``It is my understanding that Tribal and allottees would not be 
affected by this withdrawal. However, there will be challenges given 
the intermixing of public, tribal and private land and of course the 
geography of the lands.'' Taken in context, it appears that Mr. Nedd 
was not saying that BLM had studied the impacts of the bill, but was 
just referring to the plain language of the bill. He appears to be 
agreeing with your testimony about how it will be difficult to develop 
allottee minerals if Federal lands are closed off. Could you elaborate 
on why it will be difficult to develop allottee minerals if an 
exclusionary zone is enacted by this bill?

    Answer. The ``bill'' would put off limits to mineral rights of 
thousand allottees. While the ``bill'' claims not to affect mineral 
rights, in fact, many allottee lands are surrounded with Federal lands 
and other lands.

    If BLM lands are withdrawn around our allotments, that means oil 
and gas companies cannot access our lands, because they won't be able 
to access the Federal lands. No need for a Buffer Zone--companies are 
in compliance.

    Currently, numerous Navajo Allotment Lands in Nageezi, NM are 
leased for new oil and gas development, but no development has taken 
place on these allotment lands due to leases not being approved for new 
oil and gas development on BLM lands in Nageezi, NM. Majority of BLM 
lands are adjacent to Navajo allotment lands. Navajo allotment owners 
are being told that proposed leases on BLM lands are not being approved 
due to proposed amendments to Range Management Plan have not been 
approved. Proposed amendments to the Range Management Plan not being 
approved has dramatically impacted new oil and gas development on 
Navajo allotment lands that have been leased out for new oil and gas 
development. Creating the 10 miles buffer zone will have the same 
impact as the proposed amendments not being approved to the Range 
Management Plan. New oil and gas development on just Navajo allotment 
lands in Nageezi, NM will not be economical for oil and gas companies. 
Basically it means, if the buffer zone is created there will be no new 
oil and gas development in Nageezi, NM.
                    Question Submitted by Rep. Gosar

    Question 1. Chair Haaland read a statement from Representative 
Lujan to you during the hearing: ``The BLM has testified that this 
legislation would not affect tribal interests or allottees, while the 
bill itself includes language that recognizes the rights of Navajo 
allottees such as yourself, Ms. Hesuse, to continue to develop their 
lands.'' Representatives Haaland and Lujan are referring to testimony 
from BLM's Mike Nedd on May 16 before the Senate Committee on Energy 
and Natural Resources, Subcommittee on Public Lands, Forest and Mining 
regarding S. 1079. However, what they're referring to is an answer to a 
specific question from Senator Mike Lee: ``Do you know how tribal 
allottees and horizontal drilling on allotted lands might be affected 
by the protection zone and by this legislation?'' Mr. Nedd answered 
``It is my understanding that Tribal and allottees would not be 
affected by this withdrawal. However, there will be challenges given 
the intermixing of public, tribal and private land and of course the 
geography of the lands.'' Taken in context, it appears that Mr. Nedd 
was not saying that BLM had studied the impacts of the bill, but was 
just referring to the plain language of the bill. He appears to be 
agreeing with your testimony about how it will be difficult to develop 
allottee minerals if Federal lands are closed off. Could you elaborate 
on why it will be difficult to develop allottee minerals if an 
exclusionary zone is enacted by this bill?

    Answer. The ``bill'' would put off limits to mineral rights of 
thousand allottees. While the ``bill'' claims not to affect mineral 
rights, in fact, many allottee lands are surrounded with Federal lands 
and other lands.

    If BLM lands are withdrawn around our allotments, that means oil 
and gas companies cannot access our lands, because they won't be able 
to access the Federal lands. No need for a Buffer Zone--companies are 
in compliance.

    Currently, numerous Navajo Allotment Lands in Nageezi, NM are 
leased for new oil and gas development, but no development has taken 
place on these allotment lands due to leases not being approved for new 
oil and gas development on BLM lands in Nageezi, NM. Majority of BLM 
lands are adjacent to Navajo allotment lands. Navajo allotment owners 
are being told that proposed leases on BLM lands are not being approved 
due to proposed amendments to Range Management Plan have not been 
approved. Proposed amendments to the Range Management Plan not being 
approved has dramatically impacted new oil and gas development on 
Navajo allotment lands that have been leased out for new oil and gas 
development. Creating the 10 miles buffer zone will have the same 
impact as the proposed amendments not being approved to the Range 
Management Plan. New oil and gas development on just Navajo allotment 
lands in Nageezi, NM will not be economical for oil and gas companies. 
Basically it means, if the buffer zone is created there will be no new 
oil and gas development in Nageezi, NM.

                                 ______
                                 

    Ms. Haaland. Thank you. They will ask questions as we go 
along. I appreciate all of you being here. I am very grateful.

    Before I start Member questions, I would like to, on behalf 
of Assistant Speaker Ben Ray Lujan, read this statement because 
he couldn't be here with us today.

Ben Ray Lujan Statement

    ``The BLM has testified that this legislation would ``not 
affect'' tribal interests or allottees, while the bill itself 
includes language that recognizes the rights of Navajo 
allottees to continue to develop their lands.

    Let me read Section 6 of the bill here, which states:

        Nothing in this Act----

        (1) affects the mineral rights of an Indian Tribe or 
        member of an Indian Tribe to trust land or allotment 
        land; or,

        (2) precludes improvements to, or rights-of-way for 
        water, power, or road development on, the Federal land 
        to assist communities adjacent to or in the vicinity of 
        Federal land.

    These are protections of sacred lands that would benefit 
the health and safety of many and the BLM has said it would not 
impact the rights of allottees.
    This legislation would only withdraw over 900,000 acres, 
but would only withdraw 316,076 acres of oil, natural gas, 
coal, and other minerals. The remainder of these minerals in 
this area are owned by private, state, and tribal entities and 
are not changed by this legislation.''

    We will enter this statement into the record, without 
objection.

    Thank you, all of you, for that valuable testimony. The 
Chair will now recognize Members for questions. Under Committee 
Rule 3(d), each Member will be recognized for 5 minutes. I will 
recognize Chairman Grijalva for 5 minutes.
    Mr. Grijalva. Thank you, Madam Chair. And thank you, all of 
you, for coming. And again, thank you for your hospitality when 
we visited Chaco, a very moving and very important visit for 
those of us who went. Thank you for the time all of you took to 
educate some of us, and reinforce the importance all through 
it.
    Chairman Torres, Governor Menchego, or Mr. Vice President 
Lizer, I don't know if you were part of the meeting with 
Secretary Bernhardt, but I was at that meeting. Could you 
relay, either one of you or all three of you, the sense that 
you had from that meeting, and the fact that there is a pause 
for a year on any further development around Chaco?
    Mr. Torres. Thank you, Mr. Chairman. Yes, I was at the 
meeting with Secretary Bernhardt and Senator Heinrich, along 
with four other tribal leaders. And I thought that the meeting 
went well, and I was happy that Secretary Bernhardt did that 
moratorium for a year, because it is a start.
    We have been addressing this Chaco issue for years and 
years, and at least we have made a dent in it, in one way. So, 
we are happy for that.
    Mr. Grijalva. I think it should be noted, too, that in the 
big lands package that was passed at the beginning of this 
year, the Yellowstone Gateway was withdrawn for protection from 
mineral extraction. The Mato Valley in Washington State, 
withdrawn from mineral extraction. And those were public lands. 
My point being that this is not something that we are creating 
a precedent here. This has been done, and that is why the 
application to this case, the case at the Grand Canyon, is so 
important. It is something that has been done in the past.
    All of you mentioned identity, both the significance as a 
sacred site for Chaco, and also the significance of identity 
for members. If any one of you would care to just elaborate a 
little more on that, because I think people think we are just 
talking about an abstract piece of old building. We are not. We 
are talking about something much more profound and deep. And I 
think that needs to be stated.
    Mr. Menchego. Thank you for the question, Chairman Grijalva 
and members of the Committee.
    Identity is understanding who we are as indigenous people, 
particularly for the Pueblos. We teach our children at an early 
age customs, practices, traditions. The identity spans to a 
place of emergence in our stories, emergence pathways, 
migrations. We understand where we came to places of 
settlement, why we settled there, and why we migrated and moved 
forward.
    We come to a new era, a new age where we have permanent 
settlements now. They are no longer temporary. But the 
identity, the correlation with Mesa Verde, Bears Ears, Chaco 
Canyon, smaller outliers and current settlements, such as the 
village at Santa Ana Pueblo, the identity and the relation is 
our pattern of building, our use of structure.
    At one point in time it has been said and identified to 
have had a mother language. The Keres-speaking people are a 
unique language that have no linguistic ties to outer regions 
or outer areas. We all talked, we all shared, we all equally 
lived on a daily basis. And we still have that consideration, 
that need, that desire and practice for community to be one, to 
know each other, to wake and sleep with each other, to make 
sure we understand that our actions from the previous day or 
the day of carries on to the next day.
    We all dwell with one another. We are all brothers and 
sisters. That is the type of cultural and humanitarian identity 
that we strive to provide to our younger generation for the 
future.
    Mr. Grijalva. Thank you.
    Madam Chair, before I yield back, I just want to say that 
these two pieces of legislation address something that I am 
sure we will continue to debate to some extent in this 
Committee. But the fact of the matter remains that, with Chaco 
Canyon, this is about preserving a sacred site, yes, primarily. 
But it is also about preserving for this Nation and all of us 
an understanding of what our identity is in relationship to our 
Nation and to our countries. It is vital and it is profound, 
and it needs to be preserved. I am glad we have a 1-year pause. 
I think this gives us the opportunity to make it permanent.
    And with regard to the Grand Canyon, sometimes I want to 
rip my hair out and yell, ``It is the Grand Canyon, stupid.'' I 
mean you can't jeopardize this resource that has all these 
cross-overs, from indigenous people to the reliance on that 
source of water to bring life to 40 million people in this 
country. And to jeopardize it because of, primarily, an agenda 
that is driven more by greed than by need. I think it is a 
mistake.
    So, I appreciate it very much, Madam Chair. Thank you for 
the hearing, and I look forward to working with you and moving 
these items. I yield back.
    Ms. Haaland. Thank you, Chairman Grijalva. The Chair 
recognizes Ranking Member Curtis for 5 minutes.
    Mr. Curtis. Thank you, Madam Chair. Thank you to all of our 
witnesses for being here. I am going to direct my questions 
primarily to Ms. Hesuse.
    Am I correct in assuming that you and your peers are 
opposed to this bill, not because you don't care about Chaco 
culture or the land that your family has been on for decades, 
but because of your rights as a private landowner?
    Ms. Hesuse. Correct.
    Mr. Curtis. What options, if any, does this bill leave for 
you to access the minerals that are rightfully yours?
    Ms. Hesuse. We cannot access our minerals because of the 
surrounding lands that are near our allotment lands.
    Mr. Curtis. The bill specifically says that the prohibition 
of leasing and development applies only to Federal lands, not 
tribal lands. Won't your land and the lands of the other 
allottees still be available for leasing and development?
    Ms. Hesuse. No, we won't, because we need this BLM land--
tribal and private lands. And you cannot access drilling and 
mineral rights with just allotted land. We need other lands to 
get our resources.
    Mr. Curtis. Proponents of this bill claim that tribal lands 
will not be affected, only Federal lands. But if what they say 
is true, that development on Federal lands will harm cultural 
resources and air quality near the park, then why is 
development fine on Indian lands, not on Federal lands? Is 
development done any differently on your lands, compared to 
Federal lands?
    Ms. Hesuse. No.
    Mr. Curtis. That is very good. Thank you, and thanks to all 
of you.
    Madam Chair, I yield my time.
    Ms. Haaland. Thank you, Ranking Member Curtis. Thank you so 
much, all of you, again for being here and taking the time.
    I will start with you, Chairman Torres. My understanding is 
that you and other tribal leaders met with Secretary Bernhardt 
last week. Is that correct?
    Mr. Torres. Yes, that is.
    Ms. Haaland. After visiting Chaco Canyon, Secretary 
Bernhardt stated that he, ``walked away with a greater sense of 
appreciation of the magnificent site managed by the National 
Park Service, and better understanding of the tribal leaders' 
views of its cultural significance.''
    Do you believe that Secretary Bernhardt's 1-year moratorium 
on oil and gas leases is adequate to protect the significant 
cultural and natural resources in the Greater Chaco Region?
    Mr. Torres. Well, as I stated earlier, it is a step 
forward. It is not adequate for 1 year. We all know that. We 
need something permanent there, and that is what we have been 
working on for years. One year is not adequate, Madam Chair.
    Ms. Haaland. Thank you. And I guess, for those of us who 
feel that we have a cultural and traditional tie to Chaco 
Canyon, I guess I--you know, somebody mentioned that it is not 
just a pile of rocks. No, it is a carefully thought-out 
community that our ancestors planned and executed over 
centuries.
    When I think about the time and effort it took to build one 
of those walls, it is astounding to think that they could have 
sustained that effort in building that grand scheme over that 
many years. And I guess I am interested and I will just ask 
each of you. When you have someone like Secretary Bernhardt at 
this sacred place, how do you talk about the importance of 
protecting this? What do you say, exactly, to him if you only 
had one thing to say about Chaco Canyon, essentially, what 
would it be?
    Mr. Torres. And you are asking me?
    Ms. Haaland. Yes, and I will ask each of you, and we will 
just go down.
    Mr. Torres. I think that the most important part is to 
leave it for the generations that are coming behind us, and 
that we also need it to remember where we come from, who we 
are, and where we are going. Thank you.
    Ms. Haaland. Thank you, Chairman.
    Vice President Lizer?
    Mr. Lizer. Madam Chair, thank you. Thank you for that 
question and the opportunity to respond. I wasn't present 
there, our honorable President Nez was there. Maybe to some, 
Secretary Bernhardt's response was surprising, but I think he 
saw the need. And those that are not innate to this culture, 
they use the words ``magical,'' ``uplifting,'' ``positive,'' 
and ``energy.'' But, I think, for our people that are innate to 
this site, the need to protect it is well documented in our 
laws, our preservation.
    I would like to offer preservation of the voices of the 
past to teach us of our future. To further echo the Honorable 
Torres' words here.
    It has been said that our Native cultures, or our Native 
traditions of the past will tell us of our future. But being an 
oral society, being an oral culture, much of our Native people 
here, the stories must continue to go on as we tell to our next 
generation and our next generation. It tells us of where we 
came from, who we are, and those tribes that are very adept at 
holding on to their culture, more power to them. Those that are 
willing to progress more, pass maybe, say, economic 
development, you know, to each their own.
    I would like to also recognize the fact that this is all 
affecting Federal land, and we would balance the rights of the 
allottees on their portions. So, we are respectful of that, as 
well.
    Ms. Haaland. Thank you. Thank you, Mr. Vice President.
    Governor Menchego?
    Mr. Menchego. Thank you, Madam Chair, for the inquiry. If 
there was a way we could tell Secretary Bernhardt, or one 
statement that we could make to help him understand what Chaco 
is, I would offer him the comment to be able to close his eyes 
for a moment, stand in a location within one of the ruins, and 
try to feel that place being alive at one point in time. The 
smell of smoke. The sound of commotion, people talking amongst 
each other, and knowing that the ruins weren't in rubble as 
they are now, and with some of the walls and the room blocks 
still standing, but they were fully erected structures that 
served a purpose.
    So, as Native people, it is hard to relay to an individual 
that is not born or integrated into the culture.
    As young kids--using myself as an example--at the village I 
grew up going into our kivas, I grew up being integrated into 
the cultural homes, seeing how our homes and our rooms are 
built side by side. The first time that I went to Chaco, it 
amazed me to see the multitude of kivas, to see the multitude 
of room blocks, and further extend my knowledge, because I 
learned song and dance and practice and action, how to go into 
a kiva, how to come out of a kiva, what it represented.
    It is kind of hard to help an individual that is not born 
of our culture and our tradition, but the only thing I could 
offer, and the only comment I feel that I would be able to 
offer to Secretary Bernhardt and anybody else that visited 
Chaco for the first time, or without knowledge or 
understanding, is to close their eyes and try to imagine what 
that place felt like when it was active. And it is still alive. 
All our places of religion and places of power remain alive, 
but for the fact that it was inhabited and once a bustling city 
that moved, it was a livelihood for our ancestors. Thank you.
    Ms. Haaland. Thank you very much, Governor.
    Mr. Sage?
    Mr. Sage. Thank you, Chair. I am grateful that the 
Secretary made a trip out there with Senator Heinrich. Many 
times that is what it takes for somebody from this side of the 
river to understand exactly what we are talking about, and to 
understand what the individuals up here are expressing. We know 
it is alive, and he felt it. So, we were very grateful for 
that.
    But as far as for the 1-year moratorium, we were cautiously 
still trying to accept that. Is it really going to happen, or 
not? But a lot of times that is what it takes, is a face-to-
face, in-person, on-site visit for them to really understand 
what is being discussed and what the challenges and struggles 
are that the people living there are experiencing.
    And I think many times in the past, many things were 
written and passed without even making any contact with the 
surroundings as it was being described. Thank you.
    Ms. Haaland. Thank you, Mr. Sage.
    Ms. Hesuse, what would you tell someone about how you feel 
about Chaco Canyon?
    Ms. Hesuse. Hello again. Thanks for hearing us out. I 
respect Chaco Canyon. I am a Native, and that is the way we are 
brought up. And I think we should all respect our monuments. I 
see what everyone is saying, and I do have respect. Then I also 
want to say that I come from a family of healers. My 
grandmother was a medicine woman. My uncle was a hand trembler.
    I don't know where--just through media and everything, 
somehow we became the bad person. But I am just speaking for an 
allottee, that I had the opportunity to lease my allotment.
    But I do respect all the monuments, and I am glad he went 
out to see the monument because I do. And who wouldn't?
    But I really appreciate you hearing me out. Thank you.
    Ms. Haaland. Thank you very much, Ms. Hesuse.
    Thank you all very much. Thank you, Governor, all of you, 
for speaking your Native language here in my Subcommittee room. 
It is a blessing to all of us, and I am very grateful.
    I thank the witnesses for their valuable testimony and the 
Members for their questions.
    The members of the Committee may have some additional 
questions for the witnesses, and we will ask you to respond to 
these in writing.
    Under Committee Rule 3(o), members of the Committee must 
submit witness questions within 3 business days following the 
hearing, and the hearing record will be held open for 10 
business days for these responses.
    If there is no further business, without objection, this 
Committee stands adjourned. Thank you.

    [Whereupon, at 1:24 p.m., the Subcommittee was adjourned.]

            [ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD]

   ACHP--Advisory Council on Historic Preservation,
                                             Washington, DC

                                                     April 30, 2019

Hon. Deb Haaland, Chairman
Hon. Don Young, Ranking Member
House Subcommittee on National Parks, Forests, and Public Lands
1324 Longworth House Office Building
Washington, DC 20515

    Dear Chairman Haaland and Ranking Member Young:

    I am writing to the Subcommittee to convey the support of the 
Advisory Council on Historic Preservation (ACHP) for H.R. 2181, the 
Chaco Cultural Heritage Area Protection Act of 2019. The ACHP has a 
long history of concern for the protection of the unique resources of 
the Greater Chaco region and is pleased to see the Congress take steps 
to promote their long-term preservation.

    Charged by the National Historic Preservation Act of 1966 (NHPA) to 
advise the President and the Congress on historic preservation matters, 
the ACHP's perspective on the challenges facing Chaco is twofold. 
First, a primary mission of the ACHP is to oversee and frequently 
engage in the federal historic preservation review process, established 
by Section 106 of the NHPA. In that capacity, the ACHP has been 
involved in Section 106 reviews for oil and gas development in the 
Chaco region for over two decades. We are fully aware of the threats 
that such development can pose to the fragile historic properties that 
comprise the Chacoan cultural heritage. Recently, I wrote to the acting 
Secretary of the Interior, stressing the need for a comprehensive 
approach to protection and sound management that has long been unmet, 
as evidenced by the continued recurrence of proposed lease sales that 
threaten to damage these sites and encroachment from approved 
development.

    Similarly, the NHPA directs the Secretary of the Interior to 
coordinate participation by the United States in the World Heritage 
Convention in cooperation with the Secretary of State, the Smithsonian 
Institution, and the ACHP. To meet this statutory responsibility, the 
ACHP brings its expertise in the protection of historic properties, 
taking particular note of the treaty obligations of the United States 
government to protect and preserve the nation's World Heritage Sites 
for future generations. Chaco Culture National Historical Park and 
associated properties managed by the National Park Service and the 
Bureau of Land Management were inscribed in the World Heritage List in 
1987 as the Chaco Culture World Heritage Site in recognition of their 
``Outstanding Universal Value.'' It is one of only 23 such sites in the 
United States.

    The official ``Statement of Outstanding Universal Value'' for the 
Chaco Culture World Heritage Site, updated by the United States in 
2014, states:

        . . . threats to its integrity from adjacent development 
        (including associated utilities and roads), energy exploration, 
        extraction, as well as transportation projects and proposals 
        have increased.

        . . . A long-term goal for the property is to ensure that 
        interventions that may occur within or adjacent to the 
        property--including development, energy exploration, 
        extraction, and transportation projects--do not have a negative 
        impact on the property's Outstanding Universal Value, 
        authenticity and integrity.

    Chaco also is a place of transcendent spiritual and traditional 
cultural importance to Indian tribes of the region. Many Pueblos and 
Indian Tribes in the Four Corners region recognize that the Chaco 
Culture area is rich with sacred sites of utmost importance to them. 
The threats posed by continued development are not merely physical 
impacts on historic properties; they can impair the traditions and 
tribal way of life that has endured for centuries.

    H.R. 2181 would take great strides in addressing these concerns and 
ensuring the long-term protection of this unique resource. By creating 
the ``Chaco Cultural Heritage Withdrawal Area,'' the legislation would 
remove development threats on federal lands within and adjacent to the 
Chaco National Historical Park and other portions of the World Heritage 
Site. It should be noted that by doing so the Congress would be 
fulfilling the obligations of the World Heritage Convention for states 
party to protect their World Heritage Sites and, where necessary, to 
create buffer zones for that purpose. The Operational Guidelines for 
the Implementation of the World Heritage Convention state:

        103. Wherever necessary for the proper protection of the 
        property, an adequate buffer zone should be provided.

        104. For the purposes of effective protection of the nominated 
        property, a buffer zone is an area surrounding the nominated 
        property which has complementary legal and/or customary 
        restrictions placed on its use and development to give an added 
        layer of protection to the property. This should include the 
        immediate setting of the nominated property, important views 
        and other areas or attributes that are functionally important 
        as a support to the property and its protection . . .

    The provisions of H.R. 2181 would in large part meet the threats 
identified in the Chaco Culture World Heritage Site Statement of 
Outstanding Universal Value.

    The ACHP urges the Subcommittee to support this important step. At 
the same time, we would note that other actions, such as a 
comprehensive management plan for lands under the control of both the 
National Park Service and the Bureau of Land Management, the protection 
from development for non-federal lands within the Chaco landscape, and 
the engagement of local Indian tribes in the management of the greater 
Chaco Culture area, are desirable to further protect and preserve these 
important resources. The ACHP would welcome the opportunity to work 
with the Congress and the Administration in the future to advance these 
goals.

            Sincerely yours,

                                   Milford Wayne Donaldson,
                                                          Chairman.

                                 ______
                                 

                         RESOLUTION NO. 2019-13
    A RESOLUTION OF THE MAYOR AND COUNCIL OF THE CITY OF FLAGSTAFF 
   SUPPORTING CONGRESSMAN RAUL GRIJALVA'S PROPOSED HOUSE BILL TITLED 
``GRAND CANYON CENTENNIAL PROTECTION ACT'' WHICH WILL ENACT A PERMANENT 
BAN ON URANIUM MINING ON MORE THAN ONE MILLION ACRES OF LAND AROUND THE 
                              GRAND CANYON

RECITALS:

WHEREAS, advocating for and supporting actions that lead to the 
advancement of social and environmental justice for the Indigenous 
community is a City Council goal; and

WHEREAS, the Mayor and City Council of Flagstaff have historically 
opposed actions furthering radioactive pollution in the region, 
including the adoption of Resolution No. 2010-74, which expressed 
support for Secretary of Interior Salazar's proposal to withdraw 
approximately one million acres of federal lands surrounding Grand 
Canyon National Park from uranium mining for 20 years; Resolution No. 
2245, which urged President Clinton and Congress to not transport 
radioactive waste from contained storage until scientific decisions are 
made concerning permanent nuclear waste storage and declaring Flagstaff 
a Nuclear Free Zone; and Resolution No. 2018-06 reaffirming Council's 
support of the Secretary of the Interior's 2012 order to withdraw 
1,006,545 acres of federal land surrounding the Grand Canyon National 
Park from new uranium mining for 20 years; and

WHEREAS, the Coconino County Board of Supervisors Resolution No. 2008-
09 opposes ``Uranium development on lands in the proximity of the Grand 
Canyon National Park and its watersheds;'' and

WHEREAS, the Tusayan Town Council Resolution No. 2011-03-2302 supports 
the 2012 Grand Canyon Mineral Withdrawal; and

WHEREAS, the Hualapi Tribal Council Resolution No. 67-2009 opposes 
uranium exploration and mining; and

WHEREAS, the Flagstaff City Council adopted Resolution No. 2017-38, 
which expresses the Council's opposition to uranium mining and the 
transportation of uranium ore through the city of Flagstaff and 
Indigenous lands in the region, and reaffirms Flagstaff as a nuclear 
free zone; and

WHEREAS, during the Cold War, 30 million tons of uranium ore were mined 
on or adjacent to the Navajo Nation leaving more than 500 abandoned 
mines; and

WHEREAS, many Indigenous community members already affected by living 
in close proximity to abandoned uranium mines are still seeking relief 
from radioactive waste in these areas that have remained for decades at 
many of the mines creating elevated levels of radiation;

WHEREAS, potential health effects of uranium mining include lung cancer 
from the inhalation of radioactive particles, as well as bone cancer 
and impaired kidney function from exposure to radionuclides in drinking 
water; and

WHEREAS, Congress acknowledged that radiation exposure from the mining, 
transport and processing of uranium has affected and continues to 
affect thousands of individuals and in 1990 passed the Radiation 
Exposure Compensation Act (RECA) to provide compensation to individuals 
who have developed and are developing cancers and other serious 
diseases caused by uranium mining; and

WHEREAS, uranium mining threatens the Havasupai Tribe, which relies 
heavily upon clean and safe water of surrounding springs and the 
integrity of the land to sustain the physical, cultural, religious an 
economic needs of its people.

WHEREAS, the exploration and mining of uranium is known to cause 
serious, detrimental and irreversible human health and environment 
impacts that directly conflict with the federal government's duty to 
manage the public lands for the protection and preservation of the 
places that possess cultural, religious and historic importance to the 
Native people; and

WHEREAS, uranium mining in the Grand Canyon region has left a toxic 
legacy of polluted water, air, and soil at more than 500 highly 
containment mine and mill sites that remain un-reclaimed within the 
Navajo Nation and these sites increase the risk of disease and death of 
people living in communities throughout Northern Arizona; and

WHEREAS, to protect, for current and future generations, the watershed, 
ecosystem, and cultural heritage of the Grand Canyon region in the 
State of Arizona, and for other purposes is vital for the health and 
well-being of all; and

WHEREAS, the Grand Canyon National Park, a world heritage site located 
85 miles north of the city of Flagstaff, Arizona, is an integral part 
of the Northern Arizona landscape and plays an integral role in the 
tourism economy of the city of Flagstaff; and

WHEREAS, the Grand Canyon National Park attracts nearly six million 
visitors per year who contribute significantly to the Flagstaff tourism 
economy; and

ENACTMENTS:

NOW, THEREFORE, BE IT RESOLVED BY THE CITY COUNCIL OF THE CITY 
FLAGSTAFF, AS FOLLOWS:

That the Flagstaff City Council affirms its support of for Congressman 
Raul Grijalva's proposed house bill titled ``Grand Canyon Centennial 
Protection Act,'' which will enact a permanent ban on uranium mining on 
more than one million acres of land around the Grand Canyon.

PASSED AND ADOPTED by the City Council of the city of Flagstaff this 
19th day of March, 2019.

                                                       ----------------
                                                                  MAYOR

ATTEST:

                                                       ----------------
                                                             CITY CLERK

APPROVED AS TO FORM:

                                                       ----------------
                                                          CITY ATTORNEY

                                 ______
                                 

Submissions for the Record by Rep. Grijalva

                  COCONINO COUNTY BOARD OF SUPERVISORS
                           RESOLUTION 2019-08
          A RESOLUTION OF THE BOARD OF SUPERVISORS OF COCONINO
        COUNTY, ARIZONA, IN SUPPORT OF THE PERMANENT WITHDRAWAL
         OF THE GRAND CANYON AND SURROUNDING WATERSHED ACREAGE
             FROM MINING AND OTHER FORMS OF WITHDRAWAL AND
                     APPROPRIATION OF PUBLIC LANDS

WHEREAS, Coconino County previously adopted a resolution (No. 2008-09) 
which stated clearly that the County ``opposes uranium development on 
lands in the proximity of the Grand Canyon National Park and its 
watersheds''; and

WHEREAS, U.S. Rep. Raul Grijalva, along with 27 cosponsors including 
Rep. Tom O'Halleran, introduced H.R. 1373, the Grand Canyon Centennial 
Protection Act, on February 26th, 2019 which will prohibit all mining 
and other extractions within the Grand Canyon National Park and its 
watershed, protecting over one-million acres from mining contamination; 
and

WHEREAS, the negative health impacts of uranium mining are evident 
throughout the County and within the Grand Canyon National Park and its 
watershed with radioactive waste from uranium mining;

NOW THEREFORE BE IT RESOLVED, that the Coconino County Board of 
Supervisors reaffirms Resolution 2008-09 and opposes uranium mining in 
the Grand Canyon National Park and its watershed;

AND BE IT FURTHER RESOLVED, that Coconino County supports and urges 
passage of legislation that will permanently prohibit future mining and 
other forms of withdrawal and appropriation of public lands in the 
Grand Canyon National Park and its watershed.

PASSED and ADOPTED this 2nd day of April, 2019.

AYES: 4

NO'S: 1

ABSENT: 0

                       COCONINO COUNTY BOARD OF SUPERVISORS

                               ____________________________

                                      Art Babbott, Chairman

        ATTEST:                       APPROVED AS TO FORM:

        _________________________     _________________________
        Lindsay Daley                 Rose Winkeler
        Clerk of the Board            Deputy County Attorney

                                 ______
                                 

                            HAVASUPAI TRIBE
                        HAVASUPAI TRIBAL COUNCIL
                             SUPAI, ARIZONA

                          Resolution No. 12-19
             Resolution to Support H.R. 1373 to Permanently
                      Ban Mining near Grand Canyon

WHEREAS, The Havasupai Tribe is a federally recognized sovereign Indian 
Tribe organized on June 8, 1880 by Presidential Executive Order and 
subsequently by Section 16 of the Indian Reorganization Act (the 
``Tribe''); and

WHEREAS, The Amended Constitution of the Havasupai Tribe of the 
Havasupai Reservation (the ``Constitution'') provides, at Article V, 
Section 2 ``The Havasupai Tribal Council may take any and all actions 
necessary and proper for the exercise of the foregoing powers and 
duties, including those powers and duties not enumerated above, and all 
other powers and duties now or hereafter delegated to the Tribal 
Council, or vested in the Tribal Council through its inherent 
sovereignty''; and

WHEREAS, The Constitution further provides at Article XI, ``Mining, 
exploration, or surveying for uranium on the reservation shall be 
prohibited'';

WHEREAS, the Havasupai, the Havasu 'Baaja, are the People of the blue-
green water that emits from the Redwall-Muav aquifer at the springs on 
our reservation and that flows through Havasu Creek cascading over the 
magnificent waterfalls on its way to the Colorado River;

WHEREAS, the Redwall-Muav aquifer underlies the Coconino Plateau 
including the underneath the Canyon uranium mine and other proposed 
mines and discharges 96% of its water directly to springs and into 
Havasu Creek on the Havasupai Reservation;

WHEREAS, there is contaminated groundwater at the Canyon uranium mine 
site and it may contaminate the Redwall aquifer resulting in direct 
contamination to the sole source of our water which will harm our being 
as Havasu 'Baaja;

WHEREAS, the water from the Redwall-Muav aquifer is the sole source for 
all water in the Village of Supai for drinking, domestic use, tourism, 
livestock, and wildlife;

WHEREAS, the Tribal Council finds that the Secretarial Withdrawal of 
the federal lands around Grand Canyon was intended to provide 
scientific information about the effects of uranium mining on the land, 
the water, the wildlife and the people but the studies have not been 
adequately funded and there is much to still be studied about the harms 
from uranium mining;

WHEREAS, we, the Havasu 'Baaja, will be the ones who suffer the 
consequences of not knowing the science and not knowing the effects of 
uranium mining around the Grand Canyon;

WHEREAS, our aboriginal lands include the sacred site on which Canyon 
Mine is located, we are the Indians who lived and grew crops with water 
from the springs at Indian Gardens in Grand Canyon National Park, we 
have always lived in our canyon home and will always remain here, we 
cannot be relocated and remain Havasu 'Baaja;

WHEREAS, we have opposed uranium mining in this area for over 40 years 
and will continue to do so for all time;

WHEREAS, the United States has a trust obligation to protect us and an 
obligation to protect and preserve the Grand Canyon region that cannot 
be met if mining is permitted to continue and to increase on the 
Coconino Plateau.

NOW, THEREFORE BE IT RESOLVED by the Havasupai Tribal Council that we 
support H.R. 1373 and any similar federal legislation that will 
permanently ban uranium mining and the establishment of new mining 
claims near the Grand Canyon.

BE IT FURTHER RESOLVED, that the Tribal Chairwoman, or in her absence 
the Vice Chairman or designee, is hereby authorized and directed to 
take actions necessary to carry out the purposes of this Resolution.

                             CERTIFICATION

The foregoing Resolution is adopted pursuant to the authority of 
Article V, Section 1 of the Amended Constitution of the Havasupai 
Tribe, a federally recognized sovereign Indian Tribe and Article II of 
the Bylaws of the Havasupai Tribe at the Special Council meeting of the 
Tribal Council on the 15th day of March, 2019 by a vote of 4 for; 0 
opposed and 3 abstained.

                                  HAVASUPAI TRIBAL COUNCIL:

                       By: ________________________________

                             Muriel Coochwytewa, Chairwoman

ATTEST:

--------------------------------
Hope Manakaja, Tribal Secretary

                                 ______
                                 

                             THE HOPI TRIBE

MEMORANDUM

TO:         Stewart Koyiyumptewa, Program Manager
             Hopi Cultural Preservation Office
FROM:      Theresa A. Lomakema, Tribal Secretary
             Hopi Tribal Council
DATE:      April 12, 2019

SUBJECT:   THE HOPI TRIBE TO SUPPORT THE GRAND CANYON CENTENNIAL 
        PROTECTION ACT OF 2019--A.I. #023-2019/H-025-2019

On April 9, 2019, the Hopi Tribal Council by motion and majority vote 
approved the Action Item and Resolution mentioned above.

By passage of this Resolution, the Hopi Tribal Council hereby supports 
other governmental and non-governmental institutions and organizations 
that join Hopi in opposing continuing efforts to undermine the Northern 
Arizona Mineral Withdrawal.

Furthermore, the Hopi Tribe supports the Grand Canyon Centennial 
Protection Act of 2019 to permanently withdraw approximately one 
million acres surrounding the Grand Canyon from mineral entry under the 
General Mining Law of 1872.

                                 *****

                          HOPI TRIBAL COUNCIL
                         RESOLUTION H-025-2019

WHEREAS,  the Constitution and By-Laws of the Hopi Tribe, ARTICLE VI--
POWERS OF THE TRIBAL COUNCIL, SECTION 1(a), (k) and (l) authorizes the 
Hopi Tribal Council ``To represent and speak for the Hopi Tribe in all 
matters for the welfare of the Tribe, . . .''; ``To protect the arts, 
crafts, traditions, and ceremonies of the Hopi Indians.''; and ``To 
delegate any of the powers of the Council to committee's or officers, 
keeping the right to review any action taken.''; and

WHEREAS,  the Hopi Tribe has repeatedly stated that past contamination 
from uranium mining should be cleaned up before any additional uranium 
mining is approved, and we oppose the continued use of the archaic 1872 
Mining Law to justify uranium mining; and

WHEREAS,  the Hopi Tribe has stated that we believe the Federal, State 
and local governments should focus on and address the existing threat 
to human life and that Congress replace the 1872 Mining Law with a 
Sacred Sites Act and mining law fit for life in the 21st Century and 
into the future; and

WHEREAS,  Hopi people emerged into this World at the Grand Canyon, 
known to us as Ongtupqa or Salt Canyon. Ongtupqa is our birthplace as a 
People and these lands contain the testimony of our ancestors' 
occupation and use for thousands of years, manifest in the prehistoric 
ruins, the rock ``art'' and artifacts, and the human remains of our 
ancestors, Hisatsinom, People of Long ago, who continue to inhabit 
them; and

WHEREAS,  the Grand Canyon is a Traditional Cultural Property of the 
Hopi Tribe and these ``public lands'' are part of our ancestral lands, 
and Hopisinom have returned to Ongtupqa on salt gathering pilgrimages 
since time immemorial and continue to do so today; and

WHEREAS,  for over a thousand years, the springs and waters of the Hopi 
Mesas have provided life to Hopisinom and the legacy of past uranium 
mining has left wounds on our land, our water, and our people. These 
wounds are not scars, for they have not healed. Two of our Villages, 
Upper and Lower Munqapi (Moenkopi) are now threatened by a uranium 
contaminated plume of ground water from the former Rare Metals uranium 
mill near Tuba City; and

WHEREAS,  Hopisinom and many other Native American people suffer an 
ongoing legacy of death by cancer, chronic health problems, and 
radioactive contamination including water contamination on tribal 
lands. We know firsthand from our experience at Munqapi, that the 
contamination will travel, that it does not stay in one place, and that 
it spreads contamination as it moves; and

WHEREAS,  the 1872 mining law is a 19th Century tool of archaic law 
used to ``discover,'' ``claim,'' and ``take'' Native Americans' lands 
and continues today as a policy of disregard and disrespect toward the 
beliefs and sacred ties that Hopi and Native American people have with 
the Earth. The legacy of uranium mining has devastated the people and 
the land, and the 1872 mining law continues to destroy the land and 
lives of Hopisinom, Native Americans and Americans alike; and

WHEREAS,  over two thousand mining claims have been filed around the 
Grand Canyon on United States Forest Service and Bureau of Land 
Management lands. Therefore, we support the Proposed Action that would 
protect one million acres around the Grand Canyon from uranium mining 
and exploration by withdrawing the Tusayan Ranger District and Federal 
land managed by the Bureau of Land Management in the vicinity of Kanab 
Creek and in Rock House Valley from location, entry, and patent under 
the mining laws; and

WHEREAS,  Koyanisqatsi, told in Hopi history and prophecy, is life out 
of balance, or a state of life that calls for another way of living. 
This state of life characterizes the risks we face together in modern 
times. If Americans are to live together in America in the 21st 
Century, we must call together for another way of living. The laws of 
the past that are now being used against all American people must be 
consigned to the past and replaced with laws that support life and not 
destruction and death.

NOW THER EFORE BE IT RESOLVED that the Hopi Tribe supports other 
governmental and non-governmental institutions and organizations that 
join us in opposing continuing legislative efforts to undermine the 
Northern Arizona Mineral Withdrawal.

BE IT FUR THER RESOLVED that the Hopi Tribe agrees that a qualifying 
threat to the Grand Canyon continues to exist and we continue to offer 
our complete support for the Grand Canyon Centennial Protection Act of 
2019 to withdraw these lands pursuant to the Federal Land Policy 
Management Act.

BE IT FIN ALLY RESOLVED that the Hopi Tribe enthusiastically supports 
the Grand Canyon Centennial Act of2019 to permanently withdraw 
approximately one million acres surrounding the Grand Canyon from 
mineral entry under the General Mining Law of 1872.

                             CERTIFICATION

The Hopi Tribal Council duly adopted the foregoing Resolution on April 
9, 2019 at a meeting at which a quorum was present with a vote of 18 in 
favor, 0 opposed, 1 abstaining (Chairman presiding and not voting) 
pursuant to the authority vested in the Hopi Tribal Council by ARTICLE 
VI--POWERS OF THE TRIBAL COUNCIL, SECTION 1(a), (k), and (l) of the 
Hopi Tribal Constitution and By-Laws of the Hopi Tribe of Arizona, as 
ratified by the Tribe on October 24, 1936, and approved by the 
Secretary of Interior on December 19, 1936, pursuant to Section 16 of 
the Act of June 18, 1934. Said Resolution is effective as of the date 
of adoption and does not require Secretarial approval.

                        ___________________________________

                           Timothy L. Nuvangyaoma, Chairman
                                        Hopi Tribal Council

ATTEST:

--------------------------------------
Theresa A. Lomakema, Tribal Secretary
Hopi Tribal Council

                                 ______
                                 
                        HUALAPAI TRIBAL COUNCIL
                         RESOLUTION NO. 67-2009
                      OF THE GOVERNING BODY OF THE
               HUALAPAI TRIBE OF THE HUALAPAI RESERVATION
        (Position of the Hualapai Tribe's Opposition to Uranium
                        Exploration and Mining)

WHEREAS,  the Hualapai Reservation encompasses approximately one-
seventh of the aboriginal territory of the Hualapai Tribe, and many 
places outside our Reservation boundary hold religious, cultural, and 
historic significance for the Hualapai people; and

WHEREAS,  many places that hold religious, cultural, and historic 
significance for the Hualapai people are located on lands that are 
currently managed by various federal agencies of the federal 
government, including but not limited to the areas within the Kaibab 
National Forest, Bureau of Land Management and National Park Service; 
and

WHEREAS,  the Hualapai Tribe considers the entire Grand Canyon from rim 
to rim to be a culturally significant landscape which includes hundreds 
of particular places that hold religious and cultural significance; and

WHEREAS,  the Federal Government has responsibilities, both legal and 
moral, to manage public lands in a way that shows proper respect for 
places that hold religious and cultural and historical importance to 
Indian tribes; and

WHEREAS,  uranium exploration and mining cause many adverse 
humanitarian and environmental impacts that are inconsistent with the 
management of public lands for the preservation of the integrity of 
places that hold tribal religious, historical and cultural 
significance; and

WHEREAS,  the federal law known as the 1872 Mining Law is an 
anachronism; under this law the federal government gives away valuable 
natural resources to private companies, with the mining claims of those 
private companies taking precedence over other public interests, 
including the public interest in preserving places that hold religious 
and cultural importance for Indian tribes; and

WHEREAS,  the 1872 Mining Law was enacted during the ``robber baron'' 
era of American history; in the historical context of the relations 
between the Hualapai Tribe and the United States, the 1872 law was 
enacted at about the same time as two traumatic events in Hualapai 
history: the war that the U.S. Army fought against the Hualapai people 
from 1866 to 1868 and the forced removal of many of the Hualapai people 
to La Paz in 1874; and

WHEREAS,  during the Administration of President Clinton, the Solicitor 
for the Department of the Interior issued a legal opinion that federal 
land managing agencies do have discretion to deny permission to develop 
mining claims, in effect, if the costs associated with mitigating 
damage to the environment, cultural resources and ethereal belief of a 
tribe would render the extraction of the minerals not economically 
viable (Solicitor, ``Regulation of Hardrock Mining,'' M-36999 (Dec. 27, 
1999)), the Bush Administration issued a Solicitor's opinion that 
reached a contrary conclusion (Solicitor, ``Surface Management 
Provisions for Hardrock Mining,'' M-37007 (Oct. 23, 2001)); and

WHEREAS,  the Department of the Interior has proposed the withdrawal of 
nearly one million acres of federal lands in the Grand Canyon watershed 
from new mining claims under the 1872 Mining Law, an action that would 
put these lands off limits for mineral exploration and extraction for 
20 years, and which has the immediate effect of putting these lands off 
limits for two years while the Secretary of the Interior considers 
whether to make the proposed withdrawal final; and

WHEREAS,  various federal agencies have invited public comment on 
proposed uranium explorations and uranium mining within areas 
apparently not covered by the Secretary's proposed withdrawal;

NOW  THEREFORE BE IT RESOLVED THAT the Hualapai Tribe formally declares 
strong opposition on proposed exploratory drilling and uranium mining;

  1.  Commends the Secretary of the Interior for the proposed 
            withdrawal of federal lands from claims under the 1872 
            Mining Law and calls for the Secretary to make a final 
            decision to proceed with the withdrawal;

  2.  Opposes proposals by uranium mining companies to conduct 
            exploratory drilling for uranium within the jurisdiction of 
            various federal land managing agencies;

  3.  Calls upon the Secretary of the Interior to conduct a review of 
            Solicitor's opinions on the regulation of hardrock mining;

  4.  Supports efforts in Congress to repeal or substantially amend the 
            1872 Mining Law;

  5.  Opposes exploration for uranium and uranium mining without tribal 
            approval on all Hualapai ancestral lands including lands 
            under the sovereign authority of the Hualapai Tribe.

                             CERTIFICATION

I, the undersigned as Chairman of the Hualapai Tribal Council hereby 
certify that the Hualapai Tribal Council of the Hualapai Tribe is 
composed of nine (9) members of whom 9 constituting a quorum were 
present at a Regular Council Meeting thereof held on this 3rd day of 
September 2009; and that the foregoing resolution was duly adopted by a 
vote of 9-for, 0-oppose, pursuant to authority of Article V, Section 
(a) of the Constitution of the Hualapai Tribe approved March 13, 1991.

                         __________________________________

                           Wilfred Whatoname, Sr., Chairman
                                    Hualapai Tribal Council

ATTEST:

--------------------------------
Adeline Crozier, Assist. Secretary
Hualapai Tribal Council

                                 ______
                                 

                 NATIONAL CONGRESS OF AMERICAN INDIANS
               The National Congress of American Indians
                         Resolution #MKE-17-058
     TITLE: Opposing the Reversal of Mineral Withdrawals that Would
   Adversely Impact Tribal Lands, Waters, Resources, or Native People

WHEREAS, we, the members of the National Congress of American Indians 
of the United States, invoking the divine blessing of the Creator upon 
our efforts and purposes, in order to preserve for ourselves and our 
descendants the inherent sovereign rights of our Indian nations, rights 
secured under Indian treaties and agreements with the United States, 
and all other rights and benefits to which we are entitled under the 
laws and Constitution of the United States and the United Nations 
Declaration on the Rights of Indigenous Peoples, to enlighten the 
public toward a better understanding of the Indian people, to preserve 
Indian cultural values, and otherwise promote the health, safety and 
welfare of the Indian people, do hereby establish and submit the 
following resolution; and

WHEREAS, the National Congress of American Indians (NCAI) was 
established in 1944 and is the oldest and largest national organization 
of American Indian and Alaska Native tribal governments; and

WHEREAS, because the link of Native peoples to their lands is 
fundamental to their identities, cultures, and populations, the NCAI 
has historically prioritized lands and resources issues; and

WHEREAS, in 2012, largely at the request of Tribes and other 
stakeholders, the prior Administration withdrew 1,006,545 acres of 
public lands near the Grand Canyon from new uranium and other hard rock 
mining claims, to protect the region and the Colorado River from 
environmental degradation; and

WHEREAS, Congressional members have urged the Departments of the 
Interior and Agriculture to review mineral withdrawals made during the 
previous Administration and lift those that they feel are without 
merit; and

WHEREAS, the mining industry has been advocating for the Administration 
to lift mining moratoriums and allow mineral exploration on federal 
lands; and

WHEREAS, expanded uranium mining near the Grand Canyon poses a threat 
to the health, safety and environmental integrity of the Grand Canyon 
region and all 40 million people who depend on Colorado River water; 
and

WHEREAS, uranium mining at the Grand Canyon and in other areas would 
pose significant risks to the waters on which nearby tribes rely, and 
threaten their very existence as a people.

NOW THEREFORE BE IT RESOLVED, that the National Congress of American 
Indians (NCAI) hereby opposes any efforts by the Administration or 
Congress to reverse mineral withdrawals that would negatively impact 
tribal lands, natural resources, cultural resources, tribal water 
rights, or Native people; and

BE IT FURTHER RESOLVED, that this resolution shall be the policy of 
NCAI until it is withdrawn or modified by subsequent resolution.

                             CERTIFICATION

The foregoing resolution was adopted by the General Assembly at the 
2017 Annual Session of the National Congress of American Indians, held 
at the Wisconsin Center in Milwaukee, WI, Oct 15, 2017-Oct 20, 2017, 
with a quorum present.

                                   ________________________

                                  Jefferson Keel, President

ATTEST:

--------------------------------------
Juana Majel Dixon, Recording Secretary

[LIST OF DOCUMENTS SUBMITTED FOR THE RECORD RETAINED IN THE COMMITTEE'S 
                            OFFICIAL FILES]

  --  Letter from the Wilderness Society in support of H.R. 
            1373 and H.R. 2181, dated June 4, 2019.

  --  Testimony on H.R. 2181 by Paul F. Reed, Preservation 
            Archaeologist, Archaeology Southwest, dated May 29, 
            2019.

  --  Letter from the National Wildlife Federation in support 
            of H.R. 1373, dated June 5, 2019.

  --  Letter from the National Wildlife Federation in support 
            of H.R. 2181, dated June 5, 2019.

  --  Letter from the National Parks Conservation Association 
            in support of H.R. 1373 and H.R. 2181 from Ani 
            Kame'enui, Director of Legislation and Policy, 
            dated June 4, 2019.

Submissions for the Record by Rep. Haaland

  --  EIA paper titled, ``Nuclear Explained: Where Our Uranium 
            Comes From--Basics.''

  --  USGS report titled, ``Informing Future Decision-Making on 
            Uranium Mining: A Coordinated Approach to Monitor 
            and Assess Potential Environmental Impacts from 
            Uranium Exploration and Mining on Federal Lands in 
            the Grand Canyon Region, Arizona. Updated March 
            2014.

  --  Statement from Rep. Lujan on H.R. 2181.

  --  Letter from multiple organizations addressed to Senators 
            Tom Udall and Martin Heinrich, and Representatives 
            Ben Ray Lujan, Debra Haaland, and Xochitl Torres 
            Small in support of H.R. 2181, dated June 4, 2019.

Submissions for the Record by Rep. Grijalva

  --  Resolution No. 0316 from the Inter Tribal Association of 
            Arizona and Resolution 0609 from the Inter Tribal 
            Council of Arizona.

  --  Grand Canyon Trust report titled, ``Uranium Mining in the 
            Grand Canyon Region,'' dated January 2019.

  --  Boatman's Quarterly Review article by Dr. David Kreamer 
            titled, ``Uranium Mining in the Grand Canyon--
            Biting My Tongue In Front of Congress.''

  --  Washington Post article by Cindy McCain and Mark Udall 
            titled, ``Congress must reach across the aisle and 
            protect the Grand Canyon,'' dated February 17, 
            2019.

  --  Joint report by the Nuclear Energy Agency and the 
            International Atomic Energy Agency titled, 
            ``Uranium 2016: Resources, Production and Demand.''

  --  Report by the Minerals Council of Australia titled, 
            ``Submission to the United States Department of 
            Commerce Section 232 National Security 
            Investigation of Imports of Uranium,'' dated 
            September 10, 2018.

  --  Comments by the Government of Canada to the U.S. 
            Department of Commerce, submitted September 25, 
            2018.

  --  E&E article by Dylan Brown titled, ``Uranium--Import 
            quota battle heats up,'' dated February 11, 2019.

  --  Bloomberg article by Ari Natter titled, ``Uranium Imports 
            Aren't a Threat, Obama's Energy Chief Says,'' dated 
            April 16, 2019.

  --  Heritage Foundation Backgrounder by Katie Tubb titled, 
            ``National Security Imperative Lacking, 
            Protectionism Abounding in Section 232 Uranium 
            Case,'' dated November 2, 2018.

  --  FiveThirtyEight article by Maggie Koerth-Baker titled, 
            ``It's One Thing for Trump to Like Uranium. It's 
            Another For Him To Save It,'' dated February 21, 
            2018.

  --  Bulletin of the Atomic Scientists article by Steve Fetter 
            and Erich Schneider titled, ``The New York Times 
            was wrong; Russian uranium deals don't threaten 
            world supply security,'' dated May 19, 2015.

Submission for the Record by Rep. Bishop

  --  Letter addressed to Secretary of the Interior Salazar 
            from Arizona State Land Commissioner Maria Baier, 
            dated November 30, 2011.

Submissions for the Record by Rep. Gosar

  --  Testimony submitted by the Arizona Department of Mines 
            and Mineral Resources from Dr. Madan Singh, dated 
            July 21, 2009.

  --  Press Release from the Office of Rep. Gosar titled, 
            ``Government Land Grabs: Exposing the Truth.''

  --  Report from the Arizona Geological Survey titled, 
            ``Breccia-Pipe Uranium Mining in the Grand Canyon 
            Region and Implications for Uranium Levels in 
            Colorado River Water,'' dated April 2011.

  --  PowerPoint presentation titled, ``Northern Arizona 
            Uranium is Key to US National Security,'' dated 
            October 2, 2018.

                                 <all>
</pre></body></html>
